<html>
<title> - ADDRESSING THE BACKLOG: CAN THE U.S. DEPARTMENT OF VETERANS AFFAIRS MANAGE ONE MILLION CLAIMS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                    ADDRESSING THE BACKLOG: CAN THE
                  U.S. DEPARTMENT OF VETERANS AFFAIRS
                       MANAGE ONE MILLION CLAIMS?

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON DISABILITY ASSISTANCE AND
                            MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2009

                               __________

                           Serial No. 111-30

                               __________

       Printed for the use of the Committee on Veterans' Affairs






                  U.S. GOVERNMENT PRINTING OFFICE
51-869                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

DEBORAH L. HALVORSON, Illinois       DOUG LAMBORN, Colorado, Ranking
JOE DONNELLY, Indiana                JEFF MILLER, Florida
CIRO D. RODRIGUEZ, Texas             BRIAN P. BILBRAY, California
ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 18, 2009

                                                                   Page
Addressing the Backlog: Can the U.S. Department of Veterans 
  Affairs Manage One Million Claims?.............................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    49
Hon. Doug Lamborn, Ranking Republican Member.....................     3
    Prepared statement of Congressman Lamborn....................    50

                               WITNESSES

U.S. Department of Veterans Affairs:

    Lieutenant General James Terry Scott, USA (Ret.), Chairman, 
      Advisory Committee on Disability Compensation..............    19
        Prepared statement of General Scott......................    65
    Michael Walcoff, Deputy Under Secretary for Benefits, 
      Veterans Benefits Administration...........................    30
        Prepared statement of Mr. Walcoff........................    69
U.S. Department of Defense/U.S. Department of Veterans Affairs 
  Interagency Program Office, Rear Admiral Gregory Timberlake, 
  SHCE, USN, Acting Director.....................................    32
    Prepared statement of Admiral Timberlake.....................    73

                                 ______

American Federation of Government Employees, AFL-CIO, Michael 
  Ratajczak, Decision Review Officer, Veterans Affairs Cleveland 
  Regional Office, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs.................................    21
    Prepared statement of Mr. Ratajczak..........................    66
American Legion, Ian de Planque, Assistant Director, Veterans 
  Affairs and Rehabilitation Commission..........................     4
    Prepared statement of Mr. de Planque.........................    50
Bohan, David, Gladstone, OR......................................     6
    Prepared statement of Mr. Bohan..............................    55
Disabled American Veterans, Kerry Baker, Assistant National 
  Legislative Director...........................................    10
    Prepared statement of Mr. Baker..............................    59
Service Women's Action Network, Rachel Natelson, Esq., Legal 
  Advisor........................................................    11
    Prepared statement of Ms. Natelson...........................    63
Veterans of Foreign Wars of the United States, Robert Jackson, 
  Assistant Director, National Legislative Service...............     8
    Prepared statement of Mr. Jackson............................    56

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Ian de Planque, Assistant Director, Veterans 
      Affairs and Rehabilitation Commission, American Legion, 
      letter dated July 20, 2009, and response letter dated 
      August 17, 2009............................................    78
      
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Kerry Baker, Assistant National Legislative 
      Director, Disabled American Veterans, letter dated July 20, 
      2009, and DAV responses....................................    82
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Lieutenant General James Terry Scott, Chairman, 
      Advisory Committee on Disability Compensation, U.S. 
      Department of Veterans Affairs, letter dated July 20, 2009, 
      and response letter dated August 14, 2009..................    83
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Marilyn Park, Legislative Representative, 
      American Federation of Government Employees, letter dated 
      July 20, 2009, and AFGE responses..........................    85
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Michael Walcoff, Deputy Under Secretary for 
      Benefits, Veterans Benefits Administration, U.S. Department 
      of Veterans Affairs, letter dated July 20, 2009, and VA 
      responses..................................................    87
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Rear Admiral Gregory Timberlake, SHCE, USN, 
      Director, DoD/VA Interagency Program Office, U.S. 
      Department of Defense, letter dated July 20, 2009, and 
      Admiral Timberlake's responses.............................    92

 
                    ADDRESSING THE BACKLOG: CAN THE
                  U.S. DEPARTMENT OF VETERANS AFFAIRS
                       MANAGE ONE MILLION CLAIMS?

                              ----------                              


                        THURSDAY, JUNE 18, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 6:38 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Halvorson and Lamborn.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good evening, ladies and gentlemen. The Committee 
on Veterans' Affairs Disability Assistance and Memorial Affairs 
Subcommittee hearing on ``Addressing the Backlog: Can the U.S. 
Department of Veterans Affairs (VA) Manage One Million Claims'' 
will now come to order.
    I would ask for everyone to rise for the Pledge of 
Allegiance. Flags are located at both ends of the room.
    [Pledge of Allegiance.]
    Mr. Hall. Thank you. First of all, I would like to 
apologize for the lateness of the hearing. I know you have been 
waiting here for over 4 hours, but there were unusual measures 
being taken on the floor.
    Tonight, some Members felt that we should vote three times 
on measures that were already passed, including their own 
amendments, and revote and then reconsider the revote of those 
measures, and it is for that reason that this hearing is 
starting now instead of at 2:00 p.m., as scheduled
    Having said that, I will tell you that the Members of this 
Subcommittee convene today to conduct an oversight hearing on 
the record number of claims facing the VA, now approaching one 
million. This is a problem that has plagued VA and the veterans 
it is supposed to serve for years.
    Veterans applying for the very benefits that they have 
earned through sacrifice to our country have been stuck 
languishing in a growing backlog. Some of these veterans have 
been waiting months, years, and in some mind-boggling cases, 
even decades. Is this how America fulfills its promise to our 
veterans?
    When men and women sign up to put on the uniform and defend 
our country, they sign a contract. We need to make sure that 
America is living up to our part of that contract. We must have 
a VA that is an advocate for veterans, not an obstacle; a VA 
that smoothes the way, not one that puts up roadblocks.
    To add perspective before we begin, I want to offer some 
facts to reflect upon as we take up this discussion. There are 
approximately 23\1/2\ million veterans living in America. Every 
year, the VA treats roughly 5 million of these brave men and 
women. Yet, as large as these numbers may seem, every year, 
500,000 additional veterans file a claim with the VA so that 
they can begin receiving treatment and benefits.
    Tragically, they are frequently delayed or even denied. 
They are delayed because of the broken system, denied because 
paperwork is lost and adherence to legal hurdles and 
requirements are placed above veterans' needs. Sometimes claims 
are delayed so long that veterans die or give up fighting the 
bureaucracy before the claim is processed. And now, as we will 
explore today, there are nearly one million veterans waiting in 
limbo as a result.
    Make no mistake, this is not a new issue. I, and other 
Members of this Committee, have been focusing on this intensely 
because it is so vital to regain the trust of our veterans and 
provide them the treatment and disability benefits that they 
were promised.
    During the 110th Congress, I convened 14 hearings on 
disability claims and appeals processing issues. As a result, 
we were able to successfully pass the Veterans Disability 
Benefits Claims Modernization Act last October, now Public Law 
110-389.
    This legislation essentially mandated that the VA modernize 
its disability claims processing system. This hearing will now 
mark the fourth time we will be addressing this subject during 
the 111th Congress. And while we yet again discuss the changes 
needed, veterans still suffer. They are waiting to have their 
claims and appeals processed. They are waiting for 
compensation. They are waiting for medical assistance and 
rehabilitation. They are waiting to take care of their 
families. They are waiting for a Nation to show its gratitude. 
These veterans do not deserve to have their requests for 
assistance languish in the VA's bureaucracy.
    There must be a way to stem this tide. Veterans cannot wait 
any longer. The VA requires a cultural management change that 
can only manifest itself if it embraces the very reason it was 
enacted, which is to serve veterans.
    As Chairman of this Subcommittee, I believe we have given 
VA the tools and the authority it needs to take the necessary 
steps. Secretary Shinseki has invoked these principles in 
stepping into the leadership of VA where VA would become an 
advocate, not an adversary of the veteran.
    I am optimistic that today's witnesses can direct us toward 
this end. Their stories, like so many others, illustrate the 
need for change.
    I certainly hope that we can learn from their experience. I 
know that the American Legion, Veterans of Foreign Wars (VFW) 
and Disabled American Veterans (DAV) have worked diligently, 
along with other veterans service organizations (VSOs), to 
address the disjointed practices that exist within VA that have 
lead to this situation.
    I am eager to hear from the American Federation of 
Government Employees (AFGE) and the newly formed Advisory 
Committee on Disability Compensation, and I place a great deal 
of hope in your work and progress.
    I also look forward to hearing from VA. I know that your 
claims processing system has improved in some respects. I also 
know that the one million figure reflects all of your 
inventory, not just compensation and pension. These facts 
notwithstanding, Congress, veterans and other stakeholders want 
to know what is the strategy that VA has for handling a 
workload approaching one million claims in a 21st century 
manner.
    And finally, I thank the VA and U.S. Department of Defense 
(DoD) for being here today to update the Committee on its 
progress in implementing Public Law 110-389, and the formation 
of the Interagency Program Office, along with President Obama's 
Joint VA, DoD, Virtual Lifetime Electronic Record (VLER) 
Initiative, and other information technology (IT) improvements 
to eliminate the problems inherent in a paper record. And this 
is something that Ranking Member Lamborn has been in favor of 
as well.
    This is not an impossible task. A consensus exists. The 
wheels have already been set in motion. It is my hope that VA 
will transform itself into a modern veteran-focused system that 
can, in fact, process one million claims accurately and timely; 
one where veterans and their families no longer have to put 
their lives on hold while waiting for the much needed benefits 
they deserve.
    I now yield to Ranking Member Lamborn for his opening 
statement.
    [The prepared statement of Chairman Hall appears on p. 49.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
holding this hearing to discuss VA's disabilities claims 
processing system and its ongoing efforts to improve timeliness 
and accuracy.
    The struggle to overcome the backlog of disability claims 
has weighed upon the Department for several years now. Despite 
multiple hearings on this issue, as well as significant 
increases in VA's budget, workforce and information technology 
resources, signs of progress are subtle at best.
    We have addressed this situation from multiple angles. 
Funding for VA programs has increased steadily since 1995. 
There has been a 75-percent increase in the number of full-time 
claims workers in the last 5 years. We have made a strong push 
toward modernizing the VA claim system so that it is electronic 
rather than paper based, as was mentioned earlier.
    And we have emphasized and reemphasized the need for 
training and accountability, yet VA seems to be overwhelmed, 
and it is well past time for frank assessment of what is going 
on. VA needs to be candid and forthcoming about what it sees as 
the problem. Otherwise, we cannot help fix it.
    I understand that along with the aforementioned increase in 
funding, VA is receiving a record number of claims, along with 
an increased number of complex issues on each claim. While 
these factors obviously pose a challenge, I do not see them as 
insurmountable. I believe that VA has the resources and the 
authority necessary to adjudicate claims quickly and 
accurately, and I expect it to do so.
    If this is a misperception, I must know why. Every one 
claim represents an American veteran. Their patience and mine 
is growing very thin on this issue. If we do not fix the 
problem now and merely pass it on to a future generation, we 
will all be very much ashamed and deservedly so.
    I am certain everyone here shares my frustration, so let us 
put the cards on the table and figure out what we can do.
    I want to thank the witnesses for their service to our 
country and for their testimony today and I look forward to our 
discussion.
    Mr. Chairman, I yield back.
    [The prepared statement of Congressman Lamborn appears on 
p. 50.]
    Mr. Hall. Thank you, Ranking Member Lamborn.
    I would like to remind all of our panelists that your 
complete written records have already been made a part of our 
hearing record. Please feel free to limit your remarks so that 
we may have sufficient time to follow up after all the time you 
have been waiting. We do not need to go longer than necessary 
because your statements are already submitted.
    And on our first panel, we would like to welcome Mr. Ian de 
Planque. Is that the correct pronunciation, sir? Assistant 
Director for the Rehabilitation Commission of the American 
Legion; Mr. David Bohan, Veteran from Gladstone, Oregon; Mr. 
Robert Jackson, Assistant Director, National Legislative 
Service for Veterans of Foreign Wars of the United States; Mr. 
Kerry Baker, the Assistant National Legislative Director for 
the Disabled American Veterans; and Ms. Rachel Natelson--is 
that correct--Natelson--Ms. Rachel Natelson, Legal Advisor for 
Service Women's Action Network (SWAN).
    Welcome and, Mr. de Planque, you are now recognized for 5 
minutes.

  STATEMENTS OF IAN de PLANQUE, ASSISTANT DIRECTOR, VETERANS 
 AFFAIRS AND REHABILITATION COMMISSION, AMERICAN LEGION; DAVID 
   BOHAN, GLADSTONE, OR (GULF WAR VETERAN); ROBERT JACKSON, 
 ASSISTANT DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF 
   FOREIGN WARS OF THE UNITED STATES; KERRY BAKER, ASSISTANT 
NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS; AND 
 RACHEL NATELSON, ESQ., LEGAL ADVISOR, SERVICE WOMEN'S ACTION 
                            NETWORK

                  STATEMENT OF IAN de PLANQUE

    Mr. de Planque. Good evening, Mr. Chairman, Ranking Member 
Lamborn, and the Subcommittee. On behalf of the American 
Legion, I would like to thank you for providing us with the 
opportunity to offer testimony regarding the looming backlog 
and what can be done to handle the volume as it stands, as well 
as to reduce or to improve the situation for veterans to come.
    It is often said, and I think this may be particularly 
relevant today, that the definition of insanity is to repeat 
the same action over and over again expecting a different 
result. We are at a point in the claims process in the VA, 
where simply increasing the volume of effort with the wrong 
tools in the existing systems can't be a solution that will 
improve the current state of affairs. We need to look at the 
system with fresh eyes and determine how a new outlook can help 
VA with the daunting task of managing a backlog such as this.
    This is not to say that an addition of workforce is not 
beneficial. Indeed, they have increased the workforce and that 
is a potential benefit. However, merely having more people 
making the same mistakes over and over again does not eliminate 
the problem of remands, appeals and cases that continue to 
bounce back and forth and get lost in the system.
    As we mentioned in the past, the way VA currently counts 
their workload does not encourage accuracy; it encourages 
volume. If a job is worth doing, it is worth doing right. Do 
the job right the first time. To count work credit is the same 
whether it is performed properly or whether details are 
overlooked, encourages corners to be cut when the pressure is 
on an employee.
    In the past, it has been proposed that VA count work credit 
when a claim reaches a final decision in a manner that the 
encouragement will be to perform every aspect of the claim 
correctly, since appeals over missed technical details, which 
make up a large percentage of the claims returned from both the 
court and the Board of Appeals, will only hamper the process 
and create mere lengthy delays in the claims process.
    To examine the figures, as I stated, from both the Board of 
Veterans' Appeals (BVA) and the Court of Appeals for Veterans 
Claims (CAVC), it is pertinent to note that the vast number of 
the claims remanded through the system are for simple error, 
procedure, oversight, things that could be avoided with 
accountability and attention to detail, lack of proper 
examination, lack of fulfillment of the duty to assist 
veterans, even simple errors in letters sent to veterans all 
can be corrected if the credit were counted for doing the job 
right, not simply for shuffling the paper on to the next desk.
    All too often, the claims on appeal are further delayed as 
they bounce back and forth between the Board of Veterans' 
Appeals and the Appeals Management Center (AMC) because the 
terms of the remands are not followed. Simply doing it right 
the first time can alleviate this and get the claims completed 
and out of the system.
    The development of claims presents another opportunity for 
improvement. Many claims are overdeveloped when the simple 
facts--the grant of service-connection are already present. 
Needless exams and searches for extra records continue to drag 
out the process.
    Furthermore, regarding development, the amendment of the 
understanding of section 1154, which has been discussed in 
other legislation, can streamline and reduce a great deal of 
the burden of additional development on the VA, a haste in the 
process of decision in the claims of veterans who are claiming 
incidents in combat zones.
    These are not unique to the current situation. Diabetes 
claims due to exposure to Agent Orange are often needlessly 
developed when the presumptions of exposure in connection have 
already been established and the veterans have already 
submitted private medical records indicating the severity of 
their condition is sufficient to rate their claims. They are 
sent for redundant VA exam, rather than closing out a claim 
early when they have already been given all the tools they need 
to grant the claim.
    One further area that, has received attention of late and 
has been a sign of improvement, though we must continue to push 
for improvement of late, but we must continue to push for 
improvement, is the ability to accurately and rapidly obtain 
the requisite records needed to adjudicate a claim. Confusion 
over locations of veterans' military records, lack of ability 
to communicate between different agencies and to provide rapid 
access to the necessary information, is something that is 
improving and can continue to be improved and must be a focus 
of attempting to overhaul the system.
    Also present today is a veteran who can speak to this very 
problem. In the course of compiling a three-part story for The 
American Legion Magazine, we were made aware of Mr. David 
Bohan, who is seated next to me, a veteran of the first Gulf 
War, who has firsthand experience of just how frustrating the 
process can be. He is here today to tell his story in the hopes 
that the insight from the perspective of a veteran on the 
inside can help us come to a better understanding of where the 
fail points are and where we should work to improve the 
efficiency of the process. I hope you listen to his compelling 
story.
    I thank you on behalf of the American Legion. And as 
always, we stand ready to answer any questions you may have.
    [The prepared statement of Mr. de Planque appears on p. 
50.]
    Mr. Hall. Mr. Bohan, you are now recognized for 5 minutes.

                    STATEMENT OF DAVID BOHAN

    Mr. Bohan. Mr. Chairman, Members of the Subcommittee, thank 
you for the opportunity to appear today on behalf of American 
veterans, including the veterans of the first Gulf War with 
whom I served. The topic which you are addressing today, the 
VA's ability to handle the claims backlog, is very important to 
all of us who serve.
    I am David Bohan. I joined the U.S. Army right out of high 
school in 1987 and served with the 2nd Battalion of the 16th 
Infantry Division in the Gulf War. As some of you may know from 
the current series in The American Legion Magazine, our outfit 
was first across the breach in the ground war. My platoon 
refueled M-1 tanks on the frontlines. We hauled tank trucks 
full of fuel across the desert to the tanks, despite cluster 
mines and Scud missile attacks. You don't forget the feelings 
you get when the Iraqi Army sends a Scud into your camp. I 
received the bronze star for my noteworthy actions.
    I served 6 years and left Fort Riley, Kansas, the moment my 
discharge was completed in December 1992. Like thousands of 
other Gulf War One veterans, I was not offered any transition 
assistance programs when I was discharged. No one suggested 
that I get copies of records of any medical treatment I 
received in the military. There was no mention of VA benefits 
of any kind, whether you are talking about hospital care or 
counseling for Post-traumatic stress disorder (PTSD). All I 
wanted to do was get home to Oregon as quickly as possible. 
This has continued to cause problems for me and my ability to 
get VA benefits.
    I spent most of the next 15 years trying to erase my 
memories of the war with alcohol. These were terrible years. 
Nothing worked. I had jobs at a variety of freight companies. I 
was married and divorced. Most of all, I drank. This was very 
hard for my family, but my mother and father stood by me. I 
didn't realize it at the time, but I had severe Post-traumatic 
stress disorder.
    After an automobile accident involving a police officer 
last year, luckily no one was injured, I realized I had to stop 
drinking. I checked myself into a Roseburg, Oregon VA Medical 
Center inpatient alcohol treatment program. I've been clean and 
sober ever since and I am managing an apartment complex for my 
father. I am lucky. Many veterans do not have the fantastic 
family support that I have. I don't know where I would be today 
without them.
    A counselor at the VA in Roseburg suggested I pursue a 
claim for my PTSD, for injuries to my left foot during the time 
I was stationed at Fort Riley, Kansas, and recommended I 
contact the American Legion for help.
    The VA system is confusing, overwhelming and is not at all 
friendly to veterans. So many of the people at VA are not--oh, 
I am sorry--so many of the people at VA are not veterans and 
don't understand what we are going through. You end up feeling 
like some of them care more about their rules and regulations 
and paperwork than they care about the veterans.
    We veterans don't have any idea where this piece of paper 
or that record is after all of the time. Regarding military 
records, we veterans don't have any idea where our records are 
kept, and apparently, the military doesn't know either. I was 
up late last night digging through boxes, looking for records 
to prove I was in the Army, that I was in the Gulf War, and 
that I had been in combat and that I had all of the necessary 
stressors to qualify for VA assistance. The memories from going 
through all of those materials from my Army days was very 
painful.
    With the help of American Legion Service Officer, Gregg 
Demarais, I received a PTS rating from the VA. But the issues 
with my foot have not yet been addressed. My medical records 
from Fort Riley are missing. I spent hours on the telephone, I 
have sent faxes. I have even sent e-mails. But after months of 
trying, no one can find my records.
    The hospital at Fort Riley says they do not have the 
records of the surgeries on my foot. I have contacted the 
National Personnel Records Center in St. Louis many, many 
times, but I still do not have the records of multiple 
surgeries on my foot.
    Until I can obtain those records and present them to VA, I 
cannot pursue the rest of my case. This is very frustrating and 
very time consuming.
    I understand why so many people just give up. We need to 
better assist veterans in need. There needs to be improvement 
in the communication between VA and other agencies in tracking 
down records. Whether it is through technology or something 
else, they need to be able to do it faster and more accurately 
so that they can avoid situations that cause needless delays by 
sending requests back and forth, over and over again, with no 
answers to provide to veterans.
    The system can work, however. Now that I am finally in the 
VA health care system, some good things have happened. Doctors 
operated on my arm and repaired nerve damage and restored 
feelings to my fingers. I am enrolling in college right now and 
I am going to pursue a business degree. I also try and help my 
fellow veterans get enrolled in the VA system and, where they 
need it, get into a drug and alcohol treatment program. I am 
happy to use my experiences to help, but I see many veterans go 
through the same frustrations that I have gone through.
    I am proud of my service and I am grateful for the 
assistance that I have received. But there has to be a way to 
make this easier for all of us.
    Thank you again for the opportunity to testify today. I 
look forward to any questions you may have.
    [The prepared statement of Mr. Bohan appears on p. 55.]
    Mr. Hall. Thank you. Mr. Bohan, and thank you for your 
service to this country.
    Mr. Jackson, you are now recognized for 5 minutes.

                  STATEMENT OF ROBERT JACKSON

    Mr. Jackson. Mr. Chairman, Ranking Member Lamborn, Members 
of the Subcommittee, thank you for the opportunity to provide 
testimony before this Subcommittee on the VA claims processing 
system. The 1.6 million men and women of the Veterans of 
Foreign War appreciate the voice you give them at these 
important hearings.
    Within 2 years of the conclusion of World War II, more than 
16 million servicemen and women were released from active duty. 
Millions filed claims with the VA for compensation. Why wasn't 
the VA overwhelmed?
    Perhaps it is time to recognize that better production and 
timeliness levels achieved by the VA in the 1950s and 1960s may 
very well have been accomplished because there was less 
attention paid to procedural rights and that the VA may have 
exhibited a rather cavalier attitude when it came to 
interpreting the law and its own regulations.
    Whether you agree with either view of history, it is clear, 
the VA was able to make claim decisions quickly. Reexaminations 
were frequent and allowed VA to increase or reduce evaluations 
as disabilities worsened or improved.
    Today, claims development takes longer. Quite simply, 
Congress recognized that past procedures and practices by the 
VA were not always veteran-friendly, did not adequately tell 
veterans what was needed and would often lead to decision based 
on less than all of the available evidence.
    Decisions are longer because Congress decided that veterans 
should be told what evidence was considered and why benefits 
were denied or granted. Appeals take longer to resolve because 
of increased evidentiary and notice requirements, the 
introduction of additional review level and decision review 
officers in the need to satisfy all judicial mandates.
    The fact is, there is nothing inherently wrong with any of 
these changes. Those decisions were all needed to fix 
recognized problems and abuses.
    Having said that, how do you devise a system that allows VA 
to make decisions rapidly without increasing mistakes, is not 
costly either to the veteran or the American people and 
continues to provide veterans with the protections that have 
been built into the law over the past 60 years?
    Jerry Manar, who is the VFW's Deputy Director of National 
Veterans Service, with assistance from the VFW staff and VA 
alumni, has developed a process that incorporates the best 
practices of a post-World War II claim system to make expedited 
provisional decisions based on existing records.
    This proposal, which calls for the creation of a test 
program entitled ``The Provisional Claims Processing Program,'' 
would grant benefits on limited information quickly, but with 
quality.
    Limited to servicemembers leaving the Armed Forces or 
recently discharged veterans, evaluations would be based on 
existing evidence, understanding that benefits for some 
conditions may be denied when further development would enable 
VA to grant service-connection under existing law.
    Conversely, it is also understood that benefits, based on 
existing evidence, may not be service connected when all 
evidence is eventually developed and considered. Consequently, 
a grant of benefits for any disability is not a grant of 
service-connection entitling the veteran to protections 
afforded by existing law and regulation.
    Under this program, full development, a VA examination and 
a new decision would be required 4 years after the initial 
provisional rating. Provisional decisions made under this 
program would have no precedent value and service-connection 
for all disabilities, including any new condition the veteran 
chooses to place into contention, would be made during the 
review at the 4-year point.
    This program would restore the rapid delivery of benefits 
based on current rating standards, while still maintaining 
veterans' rights under a system of protections carefully 
crafted by Congress over the past 60 years. It should 
dramatically increase decisions on original claims while 
allowing the bulk of VA's field staff to concentrate on 
resolving the existing backlog.
    More importantly, this program would provide a win for new 
veterans. In exchange for agreeing to wait for a final 
decision, they would receive a provisional decision and 
benefits in a matter of weeks instead of more than 6 months. If 
properly structured, the VA could fulfill the promise it made 
with the Benefits Delivery at Discharge (BDD) program that a 
decision could be made prior to discharge.
    Further, veterans have the right to choose which program 
they participate in after they know what the provisional 
decision awards. If they disagree with the provisional 
decision, they need not accept it. And, since they know that 
the current program may take 6 months or more to produce a 
decision, their conscious choice to accept the wait should 
reduce the number of complaints and consequent pressure on 
Congress.
    Mr. Chairman, I will be more than happy to provide you and 
the Members of the Committee with this updated copy of the 
proposal.
    This concludes my statement. I would be happy to respond to 
any questions you may have.
    [The prepared statement of Mr. Jackson appears on p. 56.]
    Mr. Hall. Thank you, Mr. Jackson.
    Mr. Baker, welcome, and you are recognized for 5 minutes.

                    STATEMENT OF KERRY BAKER

    Mr. Baker. Thank you, Mr. Chairman and Ranking Member 
Lamborn. I am glad to be here today on behalf of the DAV.
    As you know, the claims process is extremely complex and 
lengthy. The VA estimates that it will decide over 940,000 
claims in 2009. I suspect that number will be closer to one 
million. This is encouraging since it is close to 200,000 more 
claims than it decided just 2 years ago, signifying that VA is 
certainly utilizing the additional staffing provided by 
Congress over that same period.
    What is discouraging is that VA may actually receive just 
as many new claims as it decides this year, which is also close 
to 200,000 more than just a couple of years ago.
    Short of growing VA's workforce indefinitely, there are no 
simple solutions to this problem. The DAV, nonetheless, 
believes it has some solutions.
    To support that belief we have presented this Committee 
with DAV's 21st Century claims process proposal, which is 
intended to simplify the process while preserving resources and 
reducing expenditures.
    Our proposal begins with the initial stages of the claims 
process and continues through the entire appellate process. Our 
recommendations are aimed at making efficient, a rather 
inefficient process, without sacrificing a single earned 
benefit.
    They include, one, amending 38 U.S. Code, section 5103A(b) 
to indicate that VA will assist a claimant in developing 
private medical records when such assistance is requested by 
the claimant on a form prescribed by the Secretary; two, 
amending sections 5103 and 5103A to allow the VA to sua sponte, 
or on its own, waive all Veterans' Claims Assistance Act (VCAA) 
requirements when it determines that the evidence of record is 
sufficient to award all benefits sought; amending section 51--I 
am sorry--number three, amending section 5104(a) as well as 
section 3.2600 in title 38 of the regulations so the VA could 
issue appeal election letters at the same time as the initial 
rating decision; four, amend section 7105 to decrease the 
period in which a VA claimant may submit a timely notice of 
disagreement to the VA following the issuance of a VA rating 
decision from 1 year to 6 months but with the provisions added 
that you could extend for an additional 6 months without 
showing good cause and that you could equitably toll it if you 
are incapacitated mentally or physically at the end of that 
period. Those two issues are not part of the law at the current 
moment.
    Number five, amend section 7104 in a manner that would 
specifically incorporate an automatic waiver of regional office 
(RO) jurisdiction for any evidence received by the VA, to 
include the Board, after an appeal has been certified to the 
Board, following submission of a VA Form 9, unless the 
appellant or his or her representative expressly chooses not to 
waive such jurisdiction.
    These and other suggested changes could result in reduced 
pre-appellate stage processing times between 30 to 90 days and 
as high as a 3-year reduction for certain post-remand appellate 
cases.
    Our written testimony contains many more details regarding 
these suggestions, to include how they could be incorporated 
into a new claims process further supported by a new electronic 
record and image scanning center.
    Nonetheless, out of the three phases of our proposal, the 
legislative changes that I just mentioned must be completed 
now. They will result in immediate progress over the growing 
claims workload and will further pave the way for future 
improvements.
    In closing, the VA will never be able to maximize its 
recent increases in staffing without making its processes more 
efficient. If such changes are made, the VA will see vast 
improvements in its entire claims process that are essential to 
achieving the broader goals of prompt and accurate decisions on 
claims.
    Likewise, only then will the VA be able to incorporate 
training, quality assurance and accountability programs 
demanded by the veterans' community.
    Mr. Chairman, it has been an honor to appear before you 
today and I look forward to any questions you may have.
    [The prepared statement of Mr. Baker appears on p. 59.]
    Mr. Hall. Thank you, Mr. Baker.
    And Ms. Natelson, you are now recognized for 5 minutes.

               STATEMENT OF RACHEL NATELSON, ESQ.

    Ms. Natelson. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to present the views of the 
Service Women's Action Network concerning the rising backlog of 
VA benefits claims.
    Although the benefits application process is labor 
intensive and emotionally taxing for all claimants, women 
veteran face particular challenges in obtaining disability 
compensation from the VA.
    To begin, studies indicate an institutional bias in favor 
of claimants with combat experience, an advantage which 
disproportionately favors men. Not only do claim processors 
fail to understand the degree to which women are effectively, 
if not nominally, serving in combat positions, but they also 
fail to appreciate the extent to which servicemembers in non-
combat occupations and support roles are exposed to traumatic 
events.
    Among the most pervasive stressors experienced by military 
women are incidents of sexual assault and harassment. The 
prevalence of sexual assault in the military is hardly news, 
and has been the subject of a number of recent Congressional 
hearings and Pentagon reports. By some accounts, nearly a third 
of female veterans report episodes of sexual assault during 
military service, while 71 to 90 percent report experiences of 
sexual harassment.
    These experiences are closely associated with PTSD in a 
variety of studies. In fact, military sexual assault is a 
stronger predictor of PTSD among women veterans than combat 
history. Likewise, studies indicate that sexual harassment 
causes the same rates of PTSD in women as combat does in men.
    In spite of this correlation, the VA grants benefits to a 
significantly smaller percentage of female than male PTSD 
claimants. This disparity stems largely from the difficulties 
of substantiating experiences of military sexual assault, 
especially in a combat arena.
    Under military regulations, for example, sexual harassment 
investigations are only retained on file for 2 years from the 
close of each case. While criminal investigations of sexual 
assault are better documented, 80 percent of assault victims 
fail to report the offense and over 20 percent of those who do 
file reports opt for a restricted mode that precludes official 
investigation.
    Although training and reference materials for raters 
provide a great deal of guidance on how combat medals and 
commendations may be used to support PTSD claims, they make 
little mention of how to address the challenges of documenting 
military sexual assault as an in-service stressor. As a result, 
reviewers tend to rely on a limited group of behavioral changes 
in determining the validity of military sexual trauma (MST) 
claims, often denying them if they fail to conform to a rigid 
set of expectations. Many raters, for example, deny MST claims 
from veterans with distinguished service records based on the 
assumption that assault victims invariably decline in their job 
performance.
    Perhaps most frustrating is the tendency of claim 
processors to ignore or second guess the evaluations of 
treating physicians within the VA health system, particularly 
with respect to mental illness. Despite the fact that the 
majority of my own clients have submitted MST diagnoses from VA 
counselors, most have received decisions indicating that they 
have failed to establish the condition, much less connect it to 
their service history.
    By refusing to recognize the soundness of VA medical 
provider reports, reviewers both protract the application 
timeline and compromise the healing process for claimants.
    The Institute of Medicine (IOM) Committee on Veterans' 
Compensation, a panel of experts convened by the VA to examine 
PTSD compensation issues, has proposed a number of sound 
recommendations based on its research. The Committee has 
suggested that the agency collect gender-specific data on MST 
claim decisions, develop additional MST-related reference 
material for raters, and incorporate training and testing on 
MST claims into its rater certification program. The VA should 
implement these proposals in order to sensitize claim reviewers 
to the needs of assault and harassment victims.
    In light of plans to create a comprehensive electronic 
records system for military personnel, the Department of 
Defense and the VA have an unusual opportunity to address the 
problem of documenting in-service incidents of sexual assault 
and harassment.
    In order to ensure that records of harassment and assault 
complaints may be accessed in support of VA claims, the 
military should incorporate, upon request, such investigative 
files into the proposed Joint Virtual Lifetime Electronic 
Record. While such a step would not address the issue of under-
reporting, it would at least improve the accessibility of 
existing records.
    The VA should also establish a presumption of soundness for 
the diagnoses of its own treating physicians and counselors. 
Claim reviewers should not have the authority to second-guess 
evaluations by agency medical professionals or to discount VA 
treatment records in favor of one-time Compensation and Pension 
(C&P) exam results.
    According to the IOM Committee, C&P examiners have reported 
particular pressure to limit the time they devote to PTSD and 
MST evaluations, sometimes to as little as 20 minutes.
    SWAN also supports H.R. 952, which would create a statutory 
presumption of service-connection for Operation Enduring 
Freedom and Operation Iraqi Freedom (OEF/OIF) veterans with 
PTSD and Traumatic Brain Injury (TBI). However, since 
statistics suggest that servicewomen are more likely to be 
sexually assaulted outside of combat zones than during 
deployment, we would propose extending such a presumption to 
all veterans who suffer from a traumatic event while in 
service.
    According to the Pentagon's 2008 Sexual Assault Prevention 
and Response Office report, fewer than 10 percent of the 
assault incidents reported last year occurred in combat zones.
    Thanks very much for your attention. I would be happy to 
answer any questions you might have.
    [The prepared statement of Ms. Natelson appears on p. 63.]
    Mr. Hall. Thank you, Ms. Natelson.
    I will recognize myself for a round of questions.
    Mr. de Planque, there have been some concerns and 
misperceptions about the role of service-connection in being 
able to access VA health care. If a veteran is not service 
connected, then how likely is it that he or she will get turned 
down for VA health care treatment? Should veterans with claims 
pending adjudication be eligible for VA health care? And should 
mental health counseling be offered to all veterans enduring 
the stress with the VA disability claims processing system?
    Mr. de Planque. In the sense of that, Mr. Chairman, it is 
actually, it is a slightly complicated issue and there have 
been a number of things that have changed, although they are 
attempting to bring them back forward.
    In 2003, when the category 8 veterans were shut out of VA 
from treatment, it made it very difficult for them to receive 
treatment for medical conditions, and that is being phased back 
in.
    However, veterans who are serving now in the present 
conflict are entitled to 5 years of VA health care after they 
demobilize, after they are discharged from the military, and it 
will run out after that point and it will--they will not be 
able to get health care for the conditions that are not service 
connected. They will not be able to get health care for the 
condition that are not service connected.
    With regards to mental health care, in many of the VA 
outreach clinics, they are not in a position to be turning 
people away from trying to get the care they need, but they are 
not always capable of getting the full level of care that 
particularly severe cases of mental disorders which can arise.
    It is possible to get some degree of health care within 
certain circumstances when you fall into certain categories as 
a veteran, but in terms of an all-inclusive group of veterans 
being able to receive health care if they are not service 
connected for a condition, then that is not the case.
    Mr. Hall. I would ask you one more question, if I may, 
which is that some of the solutions highlighted in your 
testimony were already considered and enacted by Congress in 
Public Law 110-389. Do you think these provisions are 
sufficient or are there other legislative changes the Legion 
would like to see Congress enact?
    Mr. de Planque. In some senses with the changes which have 
been enacted, they have all been enacted very recently and we 
are seeing promising signing, for example, with what VA is 
beginning to do with improving electronic communication and 
making forays into the IT solutions. They are showing promising 
signs, but it is still very, very early to determine how 
overall effective those will be.
    As I have stated before, it would be beneficial to work 
with the changes that are creating improvements, but we don't 
want to just change the set of tools that continue to operate 
within the same system. If you are continuing to make the same 
problems but doing it electronically, that doesn't make it any 
better than if you are making the same mistakes and doing them 
on paper.
    In terms of legislative solutions which could be brought 
forward, already up for consideration are as we mentioned in 
our testimony, the changes to the section 1154, which covers 
veterans, currently covers veterans who have engaged in combat 
in proving the occurrence of incidents that are consistent with 
combat and the expansion of it to combat zones, as we recognize 
the nonlinear battlefield to modern warfare and that the 
documentation of all such incidents for all soldiers, not just 
soldiers who have infantry cross rifles and can get a combat 
infantry badge, not just soldiers who are wounded and receive a 
purple heart, which makes things obvious, but all the soldiers 
who are deployed to combat zones and experience these 
incidents, which are sometimes difficult to document.
    So continuing to work toward that legislation and pass 
solutions on that front would be a great help in reducing a lot 
of the workload on VA because it would reduce a lot of their 
burden for overdeveloping. They would be able to grant the one 
point of a case and move on, and they wouldn't spend a lot of 
time needlessly developing.
    Mr. Hall. Thank you, sir.
    Mr. Bohan, once again, thank you for your testimony and 
your service, and it sounds like nobody from VA mentioned to 
you that you could file a claim, even though you were in 
treatment for over 15 years before you did file. Would your 
experience with this process have been easier if you had filed 
a claim right away?
    Mr. Bohan. Mr. Chairman, not knowing with the technology 
back then, at that point, I am assuming there would be road 
blocks also, as well, but that is hard to say because I did not 
file back at that time.
    Mr. Hall. Fair enough. Thank you.
    Mr. Jackson, I am interested in the provisional claims 
processing proposal that you mentioned in your testimony. Would 
you elaborate on how it would work practically by walking us 
quickly through the first steps of finality for a veteran who 
might file a claim under this system?
    Mr. Jackson. My pleasure, Mr. Chairman. What this does is 
it essentially is not a, it is not a permanent fix. What it 
does is bides times. What you are doing, you are allowing 
existing information to be used for a provisional rating. The 
veteran, then, if he or she decides that that rating is not 
what they think is sufficient, then they can continue the 
process that they normally would.
    The goal of the provisional proposal that Jerry has created 
is to get claims, new claims through the system quickly, 
allowing the VA workforce to work on the backlog. It is 
something that is not going to be a permanent fix, but is 
something that could certainly alleviate some of the workload.
    Mr. Hall. Thank you very much, Mr. Jackson.
    I will now yield to Ranking Member Lamborn for a round of 
questions.
    Mr. Lamborn. Yeah, thank you, Mr. Chairman.
    And you all have been very helpful and have had interesting 
things to offer today. But following up on the question that 
was just asked by the Chairman on the provisional suggestion, 
what recourse would a veteran have under this program if their 
condition worsens and they wanted an increased rating between 
the time they were initially rated and the final rating 4 years 
later?
    Mr. Jackson. The way the proposal is written currently, 
that once the veteran received the provisional rating, they are 
going to have wait for the 4-year point, so they will get the 
provisional rating. They either accept it. If they accept it, 
then they do a full development and an evaluation at the 4-year 
point, and if it is determined that there is more needed, then 
obviously that will come out at that time.
    Conversely, if it turns out that the evidence shows that 
perhaps the provisional rating was a little bit high, then that 
is going to bear out as well.
    But once the veteran decides, the way the proposal is 
written, once the veteran decides to take the provisional 
rating, they will have to wait until the 4-year point to have 
it changed. And it does not stop the veteran. Let us say the 
injury that they have received, the initial injury becomes 
worse. It does not stop that veteran from being able to show 
that the injury has worsened or the disease has worsened in 
that 4-year period of time.
    Mr. Lamborn. Now, conversely, could they see their 
compensation reduced and go in the other direction at the end 
of the 4 years?
    Mr. Jackson. Well, that would always--yeah, that would 
always be a possibility. It would be a possibility that the 
initial rating might have been too high and then it would have 
to be lowered, obviously, with the full developmental workup, 
the evaluation.
    So it is conceivable that the veteran could see the benefit 
lessen.
    Mr. Lamborn. Okay. Thank you.
    And for Mr. de Planque, I hope I said that correctly, you 
discussed at length the problems with brokering claims and how 
the quality of these claims is lacking. What would you propose 
the VA do to improve the quality?
    Mr. de Planque. Thank you, Ranking Member Lamborn. And it's 
de Planque or de Planque. Both get used.
    Some of the problems that we have seen in brokering, and 
these are all anecdotal with the American Legion and with 
National Veterans Legal Services Program (NVLSP). We travel and 
do reviews of regional offices and you can see a claim that 
gets brokered out that has, say, four issues and they take one 
small issue that is in it, rate that and defer the other three 
issues and send it back to the original office. Well, they get 
a work credit for where it is--has been brokered, but it has 
been sent back and the work isn't actually getting done.
    In some cases it is, and the idea of pushing a workload to 
places that can accept it better is not in theory a bad thing, 
but it needs to be executed well. And one of the things that I 
spoke to in my oral remarks is the working toward a system 
where you are counting credit, where you are working credit for 
cases that have been done properly, cases that have been done 
completely, cases where it was done right the first time 
because that saves the VA from having to continue to process 
cases that are bouncing back and forth in the system.
    And so that is what I would say. Go to that principle of 
regardless of where you are sending the claim, get it done 
right the first time and it won't bounce around in the system.
    Mr. Lamborn. And Mr. de Planque, how specifically would the 
VA reward the decision-making that is done right the first 
time, which is, I think, what we are all after?
    Mr. de Planque. That is correct. It was proposed in the 
past. I know there was a proposal at one point from NVLSP, but 
there have been other things that are similar, to change the 
way that they count work credit. And in the short term, 
obviously, there would be a certain amount of upheaval with 
this, and it would be difficult to measure as you change to any 
sort of new system.
    But where work credit would not be granted until the case 
was finally decided and, therefore, if you are just passing 
along a case that is going to get remanded, that is going to 
have missing details and get appealed, you are not setting 
yourself up for success because you are setting up a case that 
is going to take a long time to give you work credit.
    Whereas, if you do the details right and make it impossible 
to be remanded because there aren't details such as that, then 
you get the work credit faster because it is counted when the 
claim is finally decided.
    Mr. Lamborn. Okay. Thank you. Thank you all for being here 
and, like the Chairman said, thank you for your patience as 
well.
    Mr. Hall. Thank you, Mr. Lamborn.
    If I may, I would just like to ask Mr. Baker a question.
    In listening to your testimony, I am reminded that over a 
year ago at a hearing we held on artificial intelligence and 
Dr. Randy Miller, Chair of Biomedical Bio-Informatics at 
Vanderbilt University, made similar observations about reducing 
the days to process claims by using clinical informatics, which 
is what your imaging scanning center would seem to do.
    Have you also considered the idea that the scanned image 
should also be converted into a standardized electronically 
processable format? What is the feasibility of implementing the 
proposed centralized information system that you mentioned in 
your testimony?
    Mr. Baker. Well, Mr. Chairman, if you are talking about, 
are we suggesting if you use something like an image scanning 
center, would you do more than just copy the document, would 
you have a workable format that could provide some form of a 
database and searchable tool, that would absolutely be 
preferable. It would allow people to search the claims file 
much, much easier than sitting there having to read, you know, 
a thousand pages on the computer.
    The feasibility of that, I am afraid I just, I don't have 
the expertise. I don't know where VA is in their IT 
development, you know, if they could do something like that.
    As I understand it, there are a lot of companies out there 
and processes out there that can capture that sort of data. I 
just don't know where VA is with that technology.
    Mr. Hall. Thank you. Your plan also calls for a reduction 
in time from 1 year to 180 days of the time that a veteran can 
make an appeal, but then allows them the opportunity to ask for 
an extension. Other insurance programs have restrictions that 
do not allow an appeal after the due date.
    Are there circumstances under which you could foresee a 
case being closed and appeal disallowed, and should there be a 
limitation on the number of times that a veteran can appeal the 
same condition without new evidence?
    Mr. Baker. I can see where one could get closed and 
disallowed if they allowed the 6 months to run out and they did 
not request an extension and they couldn't show any cause as to 
why their appeal should be equitably tolled. That would be no 
different than the appeal running in excess of the 1-year point 
right now. Only, right now they cannot request an extension and 
they cannot be equitably tolled. The courts have stopped short 
of addressing that issue with the appellate period.
    So you know, we realized that the 6-month issue may not be 
met with a lot of favoritism up front, but when you are 
providing a couple of extra benefits that a lot of people are 
going without right now, which is the extensive and equitable 
tolling, we think that is more than fair, it is still 6 months 
we are talking about. The average time it takes VA to get a 
notice of disagreement is 41 days. Ninety-two percent of all 
appeals were received in the first 6 months.
    So you know, we think in the long run the system will be 
much better with that. But you had a second part of that 
question.
    Mr. Hall. Should there be a limitation on the number of 
times a veteran can appeal the same condition without new 
evidence?
    Mr. Baker. Well, VA has a process now. A lot of people get 
it confused. If you reapply for the same thing you have been 
denied for and you don't have any new evidence, what you 
normally get is, what you will get is a decision saying you 
haven't presented new evidence, your claim is not reopened.
    However, that issue in and of itself can be appealed all 
the way up to the courts. So it is in effect a claim in the 
system. The claim is an appeal to reopen the claim. During the 
appellate process, that could be decided in favor of the 
veteran, and it goes all the way back down in the beginning 
just to be reopened and the actual issue decided. So I mean, 
there is some convolution there.
    How do you go about, you know, rectifying that? I wouldn't 
suggest that you simply not allow the veteran to reopen 
anything without new evidence. I mean, there's a fine line 
where you start taking away rights at some point.
    But if they had no evidence whatsoever, well, that is kind 
of what they do now. You just can appeal that decision just 
like you could appeal anything else.
    Mr. Hall. Thank you very much.
    Ms. Natelson, thank you first of all for your support of 
H.R. 952. The information that you have presented on women 
veterans corroborates what we have heard before at our 
hearings.
    When the Department of Defense appeared at one of these 
hearings, they described their PTSD approach as relying on the 
opinion of the medical examiner, which is what it seems you are 
suggesting. So if VA, like DoD, instituted a disability 
evaluation system that relied more on medical opinions and 
psychometric testing results, do you think that this change 
would be reliable enough for the establishment of compensation?
    Ms. Natelson. Well, I think that there is value in 
allowing, you know, a VA professional who has a treating 
relationship with the claimant to have their word, you know, 
taken at face value. Presumably since these are VA medical 
professionals, there has been some sort of vetting and some 
sort of determination that their credentials are appropriate.
    So it doesn't make very much sense to me that if somebody 
has been in a treating relationship with a medical professional 
or a counselor employed by the VA on the Veterans Health 
Administration side of the equation, that you know, that 
somebody on the benefits side of the equation should somehow 
decide that, you know, that person's word isn't good enough.
    Mr. Hall. Thank you.
    Last, would you please elaborate on your recommendation to 
incorporate upon request investigative files of harassment and 
sexual assault into the Joint Virtual Lifetime Electronic 
Record? How would this help women veterans?
    Ms. Natelson. Well, an enormous problem for women with 
military sexual trauma in, you know, establishing their in-
service stressor, is that it is so hard to obtain those 
documents.
    As I say, there are actual military policies, especially 
with harassment as opposed to an actual criminal case of 
assault that prevent records from being even kept on file for 
more than a couple of years. So if somehow the documents that 
do exist could be memorialized and kept within the system, you 
know, for as long as possible so that if the claimant elected 
to, they could use that in support of their claim, I think 
that, you know, that would be very helpful toward establishing 
that, you know, there was an in-service stressor.
    Mr. Hall. Thank you, Ms. Natelson.
    Thank you to all of our panelists for your service to our 
country, for your service to our veterans and for coming here 
and your patience and your testimony today.
    And you are now excused to enjoy the rest of your evening. 
And I will give you a minute to move and then ask our second 
panel to join us.
    Our second panel witnesses include Lieutenant James Terry 
Scott, Chairman of the Advisory Committee on Disability 
Compensation for the U.S. Department of Veterans Affairs; Mr. 
Michael Ratajczak--is that the correct pronunciation?
    Mr. Ratajczak. That's fine.
    Mr. Hall. Decision Review Officer of the Cleveland Regional 
VA, testifying on behalf of the American Federation of 
Government Employees.
    Welcome to both of you. Your complete written statements 
are a part of the hearing records, so feel free to abridge or 
improvise.
    Lieutenant General Scott, you are now recognized for 5 
minutes.

STATEMENT OF LIEUTENANT GENERAL JAMES TERRY SCOTT, USA (RET.), 
 CHAIRMAN, ADVISORY COMMITTEE ON DISABILITY COMPENSATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS; MICHAEL RATAJCZAK, DECISION 
  REVIEW OFFICER, VETERANS AFFAIRS CLEVELAND REGIONAL OFFICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
  AFFAIRS, ON BEHALF OF THE AMERICAN FEDERATION OF GOVERNMENT 
                       EMPLOYEES, AFL-CIO

                STATEMENT OF LIEUTENANT GENERAL 
                 JAMES TERRY SCOTT, USA (RET.)

    General Scott. Chairman Hall, Ranking Member Lamborn, it is 
my pleasure to be with you today representing the Advisory 
Committee on Disability Compensation. This Committee is 
chartered by the Secretary of Veterans Affairs under the 
provisions of 38 U.S.C. Sec. 546 and in compliance with Public 
Law 110-389 to advise the Secretary with respect to the 
maintenance and periodic readjustment of the VA Schedule for 
Rating Disabilities.
    Our charter is to assemble and review relevant information 
relating to the needs of veterans with disabilities, provide 
information relating to the character of disabilities arising 
from service in the Armed Forces, provide an on-going 
assessment of the effectiveness of the VA's schedule for rating 
disabilities, and provide ongoing advice on the most 
appropriate means of responding to the needs of veterans 
relating to disability compensation in the future.
    The Committee has met eight times and is drafting an 
interim report to the Secretary that addresses our efforts to 
date. Our focus is in three areas of disability compensation: 
The requirements and methodology for reviewing and updating the 
Veterans Administration Schedule for Rating Disabilities 
(VASRD), the rating schedule; the adequacy and sequencing of 
transition compensation and procedures for servicemembers as 
they transition to veteran status with special emphasis on the 
seriously ill or wounded servicemembers; and the disability 
compensation for non-economic loss, often referred to as 
quality of life.
    Your letter asked me to present my views on the issues 
surrounding the VA's disability claims processing system. The 
Committee's charter and efforts to date have addressed the 
processing system only in the sense that an updated and 
clarified Rating Schedule will enable examining, rating and 
reviewing officials to make a more accurate and timely 
assessment of a veteran's disability and its effect on his or 
her average earnings loss. An updated and clarified Rating 
Schedule should improve first-time accuracy and reduce the 
number of appeals and the backlog that appeals create.
    I might also add, Mr. Chairman, that I was Chairman of the 
Veteran Disability Benefits Commission which met from 2004 to 
2007 and provided a 600-page report with 112 recommendations to 
the President and the Congress and so I feel like I can discuss 
some of these other things that this particular Committee I am 
chairing now is not responsible for, if you want to expand into 
that area of the backlog.
    There has been a lot of recent studies, the Veterans 
Disability Benefits Commission that I chaired, the Institute of 
Medicine, the General Accounting Office and others have 
consistently recommended a systematic review and update for the 
VASRD. The Congress has repeatedly demanded the same. I believe 
that the case for such a system is made.
    My Committee has informally recommended to the Secretary 
that the Deputy Secretary be tasked with oversight of the VASRD 
systematic review and update process to ensure that the 
Veterans Benefits Administration (VBA), the VHA and the General 
Counsel are fully integrated into the process.
    We are also offering a proposed level of permanent staffing 
in both VBA and VHA to ensure that all 15 body systems are 
reviewed and updated, as necessary, in a timely way. We are 
proposing a priority among the body systems that takes into 
account the following: Body systems that are at greatest risk 
of inappropriate evaluations; body systems that are considered 
problem prone, and the relative number of veterans and the 
amount of veterans' payments associated with each of the 
systems.
    Regarding disability compensation for non-economic loss, 
also referred to as quality of life, we are reviewing the 
Special Monthly Compensation Program and also analyzing options 
for forms of compensation beyond a monetary stipend.
    Regarding disability compensation related to the transition 
from servicemember to veteran status, we are reviewing the many 
recent changes and improvements to the transition programs to 
determine if and where gaps in coverage and assistance may 
remain for veterans and families. We are also reviewing the 
Vocational Rehabilitation and Education program as it relates 
to transition for disabled veterans.
    In summary, our Committee's work is progressing on a broad 
front. The parameters of our charter offer us the opportunity 
to look at all aspects of disability compensation and we are 
doing so. The Committee has excellent access to the Secretary 
and his staff. The VA staff is responsive and helpful to the 
Committee's requests for information. It is our intent to offer 
interim reports to the Secretary semi-annually.
    Mr. Chairman, this concludes my statement. I welcome any 
comments or questions.
    [The prepared statement of General Scott appears on p. 65.]
    Mr. Hall. Thank you, General.
    Mr. Ratajczak, is it, Ratajczak?
    Mr. Ratajczak. Ratajczak.
    Mr. Hall. Ratajczak. Sounds like a drum lick from my old 
days in the music business.
    You are now recognized for 5 minutes, sir.

                 STATEMENT OF MICHAEL RATAJCZAK

    Mr. Ratajczak. Thank you. Thank for providing the AFGE the 
opportunity to speak today.
    The simple answer that we have to the question of whether 
the VA can handle a million claims or any other number of 
claims is that, yes, we can. We can because we have to. We 
can't fail the people who have never failed us.
    We believe that, ultimately, the best way to improve the 
claims process is to do each claim right the first time. And 
consequently, AFGE would like to emphasize opportunities to 
increase quality in claims processing presented by Public Law 
110-389 as a means of reducing the claims inventory.
    First, AFGE encourages VBA to seriously consider modifying 
the claims processing initiative that began about 8 years ago 
and that may be partially responsible for the diminished 
quality of adjudicated claims and the growing inventory. Mr. 
Walcoff's written statement indicates that VBA started this 
process by contracting with Booz Allen Hamilton for a study, 
and I think that is a good first step.
    We would like to suggest, however, that Public Law 110-389 
requires an independent analysis of the effectiveness of VBA's 
policies for brokering cases between regional offices.
    AFGE has been advised of preliminary findings by Booz Allen 
Hamilton that indicate that the more the claims file is moved 
from one place to another or one person to another within a 
regional office, the less efficient the claims process becomes. 
And we would suggest that that conclusion begs consideration by 
VBA management that there are obvious implications concerning 
transferring files between regional offices.
    One of the greatest flaws in the VBA claims process has 
been the failure to set employee workload requirements based on 
valid empirical data. VBA must, by now, recognize that it needs 
such data to accurately project its workforce needs. We hope 
that VBA will take the opportunity provided by Public Law 110-
389 seriously and with no preconceptions, identify how much an 
employee can reasonably be expected to do within an acceptable 
level of accuracy, and then project a number of employees it 
needs to process its inventory based upon that data.
    If VBA does not know what its employees can actually 
accomplish, it can never accurately project its resource needs 
and will be continually plagued by questions of whether it can 
handle its inventory. Public Law 110-389 also provides VBA with 
a valuable opportunity to ensure that managers and employees 
who perform quality review within VBA have minimal confidence 
by requiring them to pass certification tests.
    We are troubled that in our recent discussions with VBA, 
VBA has maintained that employees who perform quality review 
need not be subject to certification since they are not 
considered directly responsible for processing claims. That 
argument is based on the incorrect assumption that Congress 
does not consider quality assurance part of the claims process.
    AGFE and many others have consistently criticized VBA for 
emphasizing quantity over claims--I am sorry--over quality in 
claims processing and Public Law 110-389 was enacted, in part, 
as a result of those criticisms.
    Our workforce is becoming increasingly frustrated because 
managers and other employees who evaluate our work often lack 
sufficient expertise to do so. Therefore, we urge this 
Subcommittee to clarify that quality review and quality 
reviewers are covered by a certification requirement.
    We also urge greater transparency in the process for 
designing and administrating management certification tests. 
AFGE is concerned that the design process for certification 
testing of first line supervisors has already begun, and AFGE 
has yet to be solicited to participate in that process.
    In addition to showing transparency, we believe it will be 
useful for VBA to consider the attributes of successful 
managers from the standpoint of those they supervise when 
designing management certification tests.
    Finally, AFGE suggests that VBA begin the process of 
converting to a paperless environment by scanning documents, 
first those associated with all new initial claims. We also 
suggest that the contents of any claims file that is 
transferred from one regional office to another to be 
transferred to the Board of Veterans' Appeals be converted to 
an electronic format first.
    Converting those files to a paperless format will eliminate 
the need for costly physical transfer of claims files and 
reduce the possibility of losing important documents. It will 
ensure that documents received after transfer of the claims 
file are associated with the file in the most efficient manner. 
And making claims electronic before they are transferred will 
also ensure that coexisting claims can be worked accurately and 
simultaneously in multiple jurisdictions.
    The Veterans Benefits Administration is faced with a 
challenging claims inventory. However, Public Law 110-389 gives 
VBA tremendous opportunities to improve service to claimants 
and become more accurate and efficient and reduce pending 
inventory to a more acceptable level.
    Most importantly, this legislation provides new tools to 
ensure that VBA never again faces the challenges confronting it 
today. VBA must consider how to leverage the requirements of 
Public Law 110-389 to best serve claimants, and to do so, VBA 
must consult with and be open to suggestions from all 
interested parties, including its workforce. Our claimants 
deserve that and they have every right to expect it.
    I would be happy to address any questions the panel may 
have, and thank you for the opportunity to speak today.
    [The prepared statement of Mr. Ratajczak appears on p. 66.]
    Mr. Hall. Thank you, Mr. Ratajczak.
    And, General, thank you for your testimony.
    Mr. Ratajczak, I am relieved to hear the positive assertion 
in your testimony that VA can meet the challenges that 
approaching a million cases will present.
    What do you think, on average, would be a reasonable number 
of claims for a rater to be able to decide on a given day?
    Mr. Ratajczak. Our experience is that three cases a day. I 
think that the most workable workload performance standard in 
the VBA right now is the standard that applies to Decision 
Review Officers. Decision Review Officers are required to 
create--I am sorry--to obtain three production points a day.
    But what sets that standard aside from the standards that 
are applicable to rating specialists is that Decision Review 
Officers get credit for properly developing a case, and rating 
specialists do not do that. I think that would be a start, a 
starting point. However, ultimately we would like to see a 
study done that says or that shows what fully trained rating 
specialists can actually do in a day and use that as a standard 
and as a starting point for determining what an adequate 
workforce is.
    Mr. Hall. Mr. Ratajczak, should claims also be assigned to, 
to an individual employee and not just to a team to improve 
accountability and training opportunities?
    Mr. Ratajczak. I don't believe that it should be assigned 
to an individual employee. I think a team approach is better. I 
don't think we have that with the current claims processing 
initiative model. That is more of an assembly line approach 
where the claims file can be transferred amongst employees to 
do essentially the same work, and it requires each employee who 
touches the file to become familiar with it ab initio.
    The better process, I think, and the better solution would 
be to have teams of claims processors where you have a specific 
person assigned to develop the evidence in the case, a rating 
specialist sitting in very close proximity to them that can 
help them direct development of the case so that if, indeed, 
there is enough evidence to evaluate the claim to establish 
service-connection, that could be done without overdeveloping 
the case.
    Mr. Hall. General Scott, in your testimony you note that 
you have already made a recommendation to the Secretary that 
permanent staffing be assigned to revise the rating schedule. 
Is this a recommendation that will require additional positions 
to be created, or can this be managed within the current 
workforce?
    General Scott. It will require the reallocation of 
resources or, you know, I wouldn't presume to tell to the 
Secretary whether he had to hire more people or just make 
adjustments internally, and I believe he is very serious about 
trying to get this, a systematic review and updating of the 
schedule underway. And in order to do this, there is no 
question that it is going to require a significant number of 
permanently assigned people in the VBA and in the VHA, and we 
probably got more prescriptive than the Secretary will like.
    But just to give you some idea of numbers, it is our 
Committee's view that in order to do this properly, you need 
about nine full-time equivalent (FTE) people in the VBA side of 
it and probably about five or six full-time equivalents in the 
VHA side of it. But I would like to reiterate, the problem, or 
part of the problem is that at the moment, there is one person 
working on the update of the rating schedule, a Dr. McBrian, 
well known to everybody.
    And so, what we believe is that, first of all, this whole 
project has got to be elevated because in the judgment of my 
Committee, only the Secretary or the Deputy can pull together 
the VHA, the VBA and the General Counsel to make this thing 
move. And if we are serious about updating these 15 body 
systems in a timely way, I believe that is going to be the 
requirement. So, you know, I am sure that the Secretary will 
refine this estimate of people, but I would say somewhere 
around 15 or 16 full-time people. Some of them are going to 
have to be medical professionals and some of them will have to 
be administrative people, to do this because, as you know, sir, 
it is a very complex issue to update one of these body systems.
    Mr. Hall. It seems like more than one person's work, to the 
layman anyway.
    I would ask you if there are any institutional or cultural 
resistances within the VA that you have seen that would require 
change and how can we address those issues?
    General Scott. I look at it as more of a resistance to 
pulling people together into a group to do this job under the 
supervision of a high enough official who has authority over 
all the aspects, the VBA, the VHA and the General Counsel. So I 
would say it is more of a cultural barrier than anything else.
    And, for instance, when the VA prepared the TBI 
evaluation--the Traumatic Brain Injury--they did a tremendously 
good job in the eyes of many. It took 18 months, and they were 
able to put together an ad hoc team to do this over an 18-month 
period.
    But what we would like to see is get away from that 
hocracy, get to an element whose job it is, is to do this. One 
body system after another, and as I said, we even offered our 
thoughts on what the priority might be. As a matter of fact, I 
could tell you we thought that probably at the beginning would 
be probably mental disorders because that seems to be an area 
of where the rating schedule needs probably the most work; 
musculoskeletal, because that is where most of the money goes 
and that is where the largest number of disabilities are; 
neurological and on down the line. So we had a rationale for 
offering that.
    But in order to revise the rating schedule in a 5-year 
period, a 3 to 5-year period is going to require dedicated 
assets and high level leadership, and that serves the point 
that we are trying to make.
    Mr. Hall. Thank you, sir. I will now recognize Ranking 
Member Lamborn for his questions.
    Mr. Lamborn. Yes, thank you, Mr. Chairman.
    In your discussion of the training study that was required 
in 109-461, you said that you were in favor of centralized 
training. How would this be different from the courses already 
offered at the VBA Training Academy in Baltimore?
    Mr. Ratajczak. The difference would be that it would be 
ongoing training beyond the initial training. Challenge 
training in Baltimore at the Academy, at this point in time, is 
basically for new hires or for folks who are transitioning from 
one position in VBA to another. What we would like to see 
happen is that we have a dedicated corps of instructors that 
serve under the direction of Compensation and Pension Service 
who are responsible for training the people at VA regional 
offices in accordance with the policy and the directives of 
Compensation and Pension Service. That would ensure that there 
is a uniformity amongst VA regional offices with regard to how 
new material is presented and how rating specialists and 
development veterans service representatives (VSRs) are trained 
to implement new policies or to address changes in the law.
    What we have now is a system where every regional office 
looks at the Compensation and Pension Service directives, their 
raw material, a fast letter or training letter, makes an 
interpretation of what that means and presents the information 
in that fast letter or training letter to their personnel. And 
I think, in large part, that is why we have such a wide 
disparity in the way different regional offices approach 
claims. And that is reflected in the inter-rater reliability 
studies that have recently been undertaken by VBA.
    Mr. Lamborn. Okay. Also, in your written testimony, I was 
concerned where you describe reports of significant numbers of 
new VSRs and rating veterans service representatives (RVSRs) 
being fired during their probationary periods for poor 
performance, even though they had not completed mandatory 
training. Can you elaborate on this assertion and can you 
provide this Committee more information on this allegation?
    Mr. Ratajczak. I can't provide specific number because it 
is really anecdotal evidence that AFGE gets from the field. I 
can provide a specific example that I was informed of. And that 
is, we had a rating specialist hired in the VBA who happened to 
be retired from a county prosecutor's office. In the capacity 
as a county prosecutor, this person was primarily responsible 
for prosecuting death penalty cases and pursuing appeals in 
death penalty cases. Those of you who are attorneys, are 
familiar with the law, understand that those are the most 
complex issues that you can face.
    This particular person came in after he retired from the 
county prosecutor's office and wanted to be a rating 
specialist. He was a veteran and he wanted to help veterans and 
he thought that was the best way he could do it, as a second 
career. He went to Challenge Training in Baltimore. He came 
back to his home station. He was thrown into the mix, rating 
cases. There was no follow up, necessarily, with regard to a 
standard curriculum for his training. He took a great deal of 
time rating cases. He wrote very good decisions, and ultimately 
he was shown the door prior to his 1-year probationary period 
coming up.
    And on his way out, his immediate supervisor told him that 
there was simply no way that he had the intellectual ability to 
grasp the requirements of writing a rating decision. And that 
seemed rather appalling to me.
    The fact of the matter is, people come into the VBA, they 
have very good intentions, and almost all of them are trainable 
to the point where they can do a good, quality job. The problem 
is, they are not trained correctly. The training that is 
provided is too often derailed for other purposes, and 
ultimately we end up with folks who either cannot produce 
adequately or cannot produce accurately.
    Mr. Lamborn. So you are personally acquainted with the one 
case?
    Mr. Ratajczak. I have personal knowledge of that case but, 
again, I have reports of many other cases. I cannot provide a 
number.
    Mr. Lamborn. Okay. Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mrs. Halvorson.
    Mrs. Halvorson. Thank you, Mr. Chairman and Ranking Member.
    Thank you, also, panelists for being patient with us today 
and staying.
    We have had several hearings on the backlog, and I am going 
to try to keep this as simple as possible.
    One of the biggest problems and things that people call my 
office for are veterans issues. Against those is the backlog 
and why their claims are denied forces them into appealing, 
which causes your backlog to be even bigger.
    Now, when you say a team is going to work on something, who 
answers the questions, then, if somebody calls in? I mean, who 
answers them? I mean, if you don't have just one person working 
on a claim from start to finish because I looked at this form, 
and there are more steps on this form than I thought that 
anybody could perform.
    This is about taking care of our veterans, helping them 
with their problems and fixing them. And I am very frustrated 
that we have to deal with claims that are denied because of God 
knows what kind of issues, and then they are appealed, when you 
could just take care of them the first time around.
    So I have great respect for the process, but every time I 
ask questions, I don't know how to narrow it down, keep it 
simple and take care of our veterans. I mean, it is a simple 
thing and if we need better people or better trainers, we need 
to get it simpler and if you don't have systems that talk to 
each other, maybe we need to work on that. But can we simplify 
this and who it is that we are just not taking care of our 
veterans the way we should and forcing them to appeal something 
that has been denied possibly wrongly?
    And I don't know who wants to go first.
    Mr. Ratajczak. I think your, I think our Members feel very 
similar the way you do. There is nothing in our adjudication 
manual that is listing under the heading, ``Do the right 
thing.'' And the problem is that too often we are told that you 
approach a claim by reference to a checklist when, in all 
honesty, if we just simply exercise reasonable doubt the way it 
should be exercised, read claims sympathetically and pick up a 
phone and give a veteran a call and say, hey, this is what you 
said, I don't quite understand it, and maybe if what you mean 
is this, I can grant you a benefit, can I help you.
    Mrs. Halvorson. And why aren't we doing that?
    Mr. Ratajczak. Because we are not giving credit for doing 
it. And that is a dysfunction with regard to the Workload 
Management Program that VBA currently suffers.
    Mrs. Halvorson. Because I have a lot of caseworkers in my 
office, and I don't let them share cases. I want them starting 
it and finishing it because when there is a question, one 
person can answer the question because if you have a team of 
five people working on something, you are going to get five 
different answers depending on who answers the call.
    Mr. Ratajczak. I agree, and it is somewhat, it would be 
somewhat of a complicated process for one person to handle a VA 
claim from start to finish.
    Mrs. Halvorson. And I understand that.
    Mr. Ratajczak. But one of the things that we tried to bring 
forward in our testimony is that one of the problems that 
complicates things for veterans is the fact that cases are 
brokered all over the country. So if it is bad enough that you 
don't have three people in a regional office who area familiar 
with a claim, think about a veteran's frustration when he has 
to chase his claims files all over the United States.
    Mrs. Halvorson. Oh, I hear it everyday.
    Mr. Ratajczak. He sends in a letter and he sends it, for 
example, to the Cleveland Regional Office, but it doesn't get 
to where the claims file is in Waco for 2 months, and by that 
time Waco has done what they needed to do with that file and 
sent it back. So it is very frustrating.
    I think the best solution is to have a very discreet number 
of individuals who are assigned for a given claim and keep the 
claim with them from start to finish as best you possibly can.
    Mrs. Halvorson. And the only other question I have is, now 
I know that we are working towards electronic medical records, 
but the problem being that some systems don't talk to each 
other.
    Now, I traveled to Kuwait, Afghanistan, Landstuhl, to see 
how we can better serve our veterans and provide a better 
system of transition from the Department of Defense to the 
Department of Veterans Affairs. And in Landstuhl, Germany, they 
were showing me how they have their electronic medical records 
and there has got to be a way--I have an IPod and I am not 
technologically savvy, but there has got to be a way that 
everybody could have their medical records with them somehow 
that we should not be losing things. We should not be 
misplacing them. They should not be shredded. There has got to 
be a simple way.
    So I don't want to put you on the spot now, but if you have 
any ideas, I think that it is something that we have to work 
on. I think this would cause or help a lot of the problems that 
we are seeing. And I don't know. You don't have to agree with 
me, but that is what I see in my office.
    Mr. Ratajczak. I do agree with you and I think as we go 
forward and the Department of Defense records are more easily 
accessible to us, we will have less of a problem with that.
    The problem that we really have is with veterans from, say, 
the gentleman who spoke earlier, from 1991, 1993, where we 
could not access the DoD records electronically. So then it 
becomes a matter of trying to trace down hard copies of medical 
records through the National Personnel Records Center, 
individual States, National Guard units, things of that nature, 
and that really is a slow process, and I understand it is 
frustrating. I think perhaps Mr. Walcoff would be better at 
addressing how to approach that.
    Thank you.
    Mrs. Halvorson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mrs. Halvorson.
    Am I to understand, then, Mr. Ratajczak that you now are 
able to access DoD records electronically?
    Mr. Ratajczak. We are not able to access all the active-
duty records electronically, but many of the records, for 
example, if a veteran is discharged from service and then goes 
to Wright-Patterson Air Force base, we can access many of those 
records.
    And, generally, my experience has been that it is not that 
difficult to get records, recent medical records from military 
hospitals in support of a claim. It is the older records that 
really present the problems.
    Mr. Hall. Well, that makes sense and both of you talked in 
your, General Scott and Mr. Ratajczak, you talked and wrote in 
your written testimony about the IT strategic plan and the 
feasibility for VBA to manage in a paperless environment.
    We have heard testimony here from Judge Kasold from CAVC in 
which he mentioned that by the time the files get to him, the 
cases get to him, they all are in electronic form. And both, 
Mrs. Halvorson and I, witnessed in Afghanistan or Iraq or 
Kuwait that doctors treating our servicemen in active duty are 
entering information about injuries and treatment in the field 
into an electronic record and that in Landstuhl, Germany, they 
are dealing with an electronic record, and somewhere in between 
there is this black hole of paper that they fall into where 
they have to be printed out and then reentered again.
    And many of us are longing for the day, and have been 
asking for, you know, the last couple of years, like, what do 
we have to do to bring these two ends together so that they 
talk--electronically you have that handoff of information.
    I would just ask you both, in closing, to guess how much of 
improvement it would be or, conversely, how much of the current 
problem, in terms of timely ratings, is because of the lack of 
an electronic compatibility between DoD and VA?
    Mr. Ratajczak. I think we could significantly reduce claims 
processing if we were able to share that information. And that 
will improve things slowly over time going forward.
    But, again, the real problem we have is the historical 
records that we have, the ten volume claims file that somehow 
or another needs to be scanned in so that they can be processed 
electronically, so that when a veteran appeals one issue to the 
Board of Veterans' Appeals, the issues that he has pending in 
the regional office--say a veteran appeals a claim for service-
connection for a PTSD, that issue is with the Board of 
Veterans' Appeals, but in the meanwhile he wants increases for 
his orthopedic conditions.
    We need to be able to process those differing claims in 
different jurisdictions simultaneously. And the way to do that, 
I think, is as we have suggested, to take claims before they 
are transferred between regional offices or from a regional 
office of the Board of Veterans' Appeals and focus on those as 
far as putting them in electronic format.
    So we are transferring the oldest paper files that are 
active, so to speak, into an electronic format so that we can 
devote proper attention to them. Thank you.
    Mr. Hall. General, would you like to add something?
    General Scott. Yes, sir. I am speaking now from my days as 
the Chair of the Veterans Disability Benefits Commission that 
ended in 2007. And one member of your staff was on the staff of 
that Commission. That was Ms. Garrick in the back, and she can 
probably provide you with more detail than you would ever want 
about it.
    But, clearly, one of the most serious deficiencies 
systemwide was the incompatibility between DoD and VA medical 
records, the electronic incompatibility. And the other thing 
was the lack of a roadmap that we could see that took the VA to 
a completely electronic record. And I am reminded of my days in 
the Army when a decision was made, I believe, in about 1980, 
that we are going to electronic personnel records, and there 
was a lot of yelling and screaming it would never work and what 
about all those people that had paper records and on and on.
    And so, they just said, look, there is a date certain 
beyond which or forward of which everything is going to be 
electronic, and we will see what we can do about working the 
older files into the system, but you have to get started 
somewhere.
    And I really think that part of the problem is that there 
is a lack of a roadmap that says on this date we are going to 
begin all VA files totally electronic, and then we will see 
what--we will do what we can about scanning in the older ones 
and all that.
    But if you don't start somewhere, you are never going to 
get started, and that seems to me to be a way to look at it, 
both on the medical side, compatibility side and on the record 
side.
    Mr. Hall. Spoken like a commanding officer and thank you 
very much.
    Thank you, both, for your service to our country and to our 
veterans. Thank you for your testimony and you are now excused. 
Thank you, also, for your patience.
    And we will ask our third panel to join us at the table, 
Michael Walcoff, the Deputy Under Secretary for Benefits of the 
Veterans Benefits Administration, U.S. Department of Veterans 
Affairs; Bradley Mayes, Director of Compensation and Pension 
Service for the VBA; Scott Cragg, Executive Director and 
Program Manager, Virtual Lifetime Electronic Record Program, 
Office of Policy and Planning for the U.S. Department of 
Veterans Affairs; and Paul Tibbits, M.D., Deputy Chief 
Information Officer and Office of Enterprise Development, 
Office of Information and Technology, U.S. Department of 
Veterans Affairs; Rear Admiral Gregory Timberlake, Acting 
Director of the DoD/VA Interagency Program Office (IPO).
    I think we have the real stuff here, and I thank you, 
gentlemen for your patience, and thank you for your service to 
our country and to our veterans. Your complete statements are, 
as usual, entered into the record.
    And, Mr. Walcoff, Deputy Under Secretary Walcoff, you are 
now recognized for 5 minutes.

    STATEMENTS MICHAEL WALCOFF, DEPUTY UNDER SECRETARY FOR 
BENEFITS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
   VETERANS AFFAIRS; ACCOMPANIED BY BRADLEY MAYES, DIRECTOR, 
      COMPENSATION AND PENSION SERVICE, VETERANS BENEFITS 
  ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; SCOTT 
CRAGG, EXECUTIVE DIRECTOR AND PROGRAM MANAGER, VIRTUAL LIFETIME 
ELECTRONIC RECORD PROGRAM, OFFICE OF POLICY AND PLANNING, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS; PAUL TIBBITS, M.D., DEPUTY 
 CHIEF INFORMATION OFFICER, OFFICE OF ENTERPRISE DEVELOPMENT, 
   OFFICE OF INFORMATION AND TECHNOLOGY, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; AND REAR ADMIRAL GREGORY TIMBERLAKE, SHCE, 
     USN, ACTING DIRECTOR, U.S. DEPARTMENT OF DEFENSE/U.S. 
   DEPARTMENT OF VETERANS AFFAIRS INTERAGENCY PROGRAM OFFICE

                  STATEMENT OF MICHAEL WALCOFF

    Mr. Walcoff. Thank you, Mr. Chairman, Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the Veterans Benefits Administration's 
disability claims processing system and our efforts to improve 
processing and timeliness.
    I am accompanied by Mr. Brad Mayes, Director of our 
Compensation and Pension Service; Mr. Scott Cragg, Executive 
Director and Program Manager for the Virtual Lifetime 
Electronic Record; and Dr. Paul Tibbits, who is the Deputy 
Chief Information Officer of the Office of Enterprise 
Development.
    As described in my written testimony, a number of figures 
have been used to define the backlog of compensation and 
pension disability claims at VBA. Let me say up front, we do 
not have a backlog of one million claims. In recent 
publications, it appears as though the backlog is being defined 
as inclusive of all benefits actions, including rating and non-
rating actions, plus pending appeals at both VBA and the Board 
of Veterans' Appeals, as well as miscellaneous actions, such as 
correspondence.
    I want to emphasize that processing all of these actions is 
important work that needs to be done in a timely manner, but 
not all of these actions should be categorized as claims. To 
categorize this work as all benefit claims as was described in 
several recent publications is an inaccurate representation of 
our pending claims inventory.
    VBA bundles work into two categories, rating and non-rating 
workload. The rating workload is composed of original and 
reopened claims for disability compensation and/or pension. VBA 
uses this workload as the measurement for the pending claims 
inventory because these are claims from veterans waiting for an 
entitlement decision for service-connected disability 
compensation or non-service connected pension benefits.
    The non-rating workload includes actions that do not 
require a rating decision, such as eligibility determinations 
or income adjustments. This portion of VBA's workload varies 
during the year, due to the cyclical nature of the income and 
eligibility verification process associated with the pension 
workload.
    VBA's pending claims inventory includes all rating-related 
claims received, whether the claim has been pending for a few 
hours or for a much longer period of time. The pending claims 
inventory is dynamic, since completed rating-related claims are 
removed from the inventory while new rating related claims are 
added on a continual basis. This year we are averaging over 
80,000 new claims added to the inventory each month.
    VBA's strategic goal for completing disability claims is 
125 days. At the end of fiscal year 2008, there were 139,333 
rating claims pending for more than 125, or 36.7 percent of the 
pending inventory. During fiscal year 2009, VBA has made 
progress in reducing the number and percent of inventory 
pending greater than 125 days. At the end of May, we were at 
134,626, or 33.5 percent, of the inventory that was pending 
greater than 125 days.
    Our production, or number of claims completed, has 
increased by 9.3 percent as compared to the same period last 
year. However, fiscal year to date ending May of 2009, the 
number of rating related claims received has increased 13.5 
percent as compared to the same period last year. Our pending 
rating claims inventory has increased this year by 
approximately 22,000, to a total of 402,000 as of May 31st.
    Although the pending claims inventory has increased, we 
believe this is mainly due to many outreach efforts VBA has 
conducted, which were targeted to specific groups of veterans, 
such as mailing letters to veterans receiving treatment at VA 
medical centers for type-2 diabetes who served during the 
Vietnam War and conducting outreach to separating 
servicemembers at discharge locations around the world.
    Despite increases in our pending inventory, timeliness has 
improved. Fiscal year to date ending May of 2009, the average 
days to complete a rating related claim has decreased to 161.8 
days as compared to 178.9 days during the same period last 
year.
    VBA has taken steps to decrease the pending inventory 
further. We have hired nearly 4,200 new employees since January 
of 2007 and believe that these employees will continue to make 
progress in delivering more quality decisions in a timely 
manner.
    In addition, VBA is conducting a pilot in Little Rock, 
Arkansas, as a result of a recent study focused on improving 
the claims process cycle time, and that was referred to by Mr. 
Ratajczak.
    Not only is VBA investigating ways to make changes to the 
claims process, but we are also investing in the migration of 
C&P claims processing to a paperless environment. This includes 
deploying imaging and enhanced electronic workflow 
capabilities, enterprise content and correspondence management 
services, and integrating those services with our modernized 
payment system.
    VBA anticipates that the release of the initial hardware 
and software in support of this large scale expansion will 
occur during fiscal year 2010. VBA is also working with Booz 
Allen Hamilton regarding business transformation services. Booz 
Allen Hamilton is assisting us in business process re-
engineering, organizational change management, workforce 
planning and organizational learning strategies to ensure that 
VBA is well positioned to take best advantage of the technology 
solutions being proposed.
    VBA has established a business transformation lab in 
Providence, Rhode Island, to serve as the focal point for 
convergence of business process re-engineering and technology, 
assuring that the service delivery is optimized and best 
practices are developed and deployed throughout VBA.
    VBA is also working to create a streamlined electronic 
communication method with stakeholders such as the Department 
of Defense. VA and DoD are working collaboratively to define 
the scope and strategy for the Virtual Lifetime Electronic 
Record or VLER. Both departments have agreed that the objective 
for VLER is to establish a coherent lifetime electronic record 
that will capture service men or veteran information from 
accession into the military service. This will include all 
information necessary to provide medical care services, 
benefits, and compensation to the veteran, eligible family 
members or eligible beneficiaries.
    VLER will enable VBA to have a consolidated view of 
veterans data and leverage the exchange of accurate data from 
the authoritative source in order to streamline claims 
processing.
    Finally, in my written statement, I provided a significant 
amount of detail regarding the status of the implementation of 
Public Law 110-389. Overall, VBA is generally on track to 
complete each section of the law as requested by the due date.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or the Members may have.
    [The prepared statement of Mr. Walcoff appears on p. 69.]
    Mr. Hall. Thank you, Secretary Walcoff.
    Mr. Timberlake, you are now recognized for 5 minutes.

                   STATEMENT OF REAR ADMIRAL 
                 GREGORY TIMBERLAKE, SHCE, USN

    Admiral Timberlake. Thank you, sir. Chairman Hall, 
distinguished Members of the Subcommittee, thank you for the 
opportunity to discuss the role of the Interagency Program 
Office in the ongoing data sharing activities of the Department 
of Defense and the Department of Veterans Affairs.
    In recent months, the IPO has been focused on two central 
areas: first, facilitating the efforts of the two Departments 
to achieve full interoperability of their electronic health 
records for the provision of clinical care by September of this 
year; and second, working with the Departments to develop an 
effective governance and management model for the Virtual 
Lifetime Electronic Record project which has been previously 
mentioned. These two areas will be the focus of my testimony 
today.
    Let me begin by providing you with a very brief overview of 
the DoD/VA Interagency Program Office, otherwise known as the 
IPO. Since its inception in 2008, the main objective of the IPO 
has been to provide management oversight of joint DoD/VA 
information-sharing efforts. Specifically, we work with the 
Departments to ensure that their electronic health record 
systems will be fully interoperable by September of this year, 
as I mentioned previously. DoD and VA began laying the 
foundation for full interoperability in 2001, when the first 
patient health information was shared electronically using the 
Federal Health Information Exchange, which goes by the acronym 
FHIE. Since that time, both Departments have continued to 
enhance and expand the types of information that are shared, as 
well as the manner by which the information is shared. By 
building upon the prior accomplishments of the Departments to 
develop interoperable bi-directional electronic health records, 
the IPO and the Departments have been successful in formulating 
a plan to achieve the full interoperability previously 
mentioned for the provision of clinical care by the September 
2009 target date.
    As part of this plan, VA and DoD's ability to utilize well 
known interoperability capabilities like the FHIE and the 
Bidirectional Health Information Exchange have been greatly 
expanded. At the same time, new capabilities like the Clinical 
Data Repository/Health Data Repository, or so called CHDR, have 
been added, allowing even more medical data to be transferred 
between the two Departments. Together, these resources are 
enabling unprecedented amounts of medical data to be 
transferred between DoD and VA. Today, I am pleased to report 
that we remain on target.
    The future promises even greater possibilities for data 
sharing, as we work to fulfill the President's vision to 
develop this joint Virtual Lifetime Electronic Record, or VLER. 
The VLER will serve as a single source of health care, health 
care benefits and personal information on the servicemember or 
veteran from the time of accession through their entire 
military career in the veteran continuum as has previously been 
mentioned.
    The effort to create VLER is a monumental undertaking, 
representing one of the largest single joint projects that any 
two Federal Departments have collaborated on in recent years. 
As with any undertaking of this magnitude, proper planning and 
governance is absolutely critical to success. The IPO has been 
taking a lead role as a facilitator in our interagency efforts 
to develop a strategy for VLER implementation. Following the 
policy guidance provided by the President, the IPO established 
a VLER working group at the operational level to provide a 
focused requirements and management effort to accelerate the 
adoption of a joint DoD/VA timeline for the VLER. There is 
already consensus among senior officials from both Departments 
on many of the categories of health and benefits data that must 
be accessible through the VLER.
    In addition to new discussions on the scope of VLER, the 
IPO also plays an active role in efforts to reach 
interdepartmental consensus on broad, technical requirements 
issues. In this area, progress is being made on the 
Departments' efforts to agree to use a nationally recognized 
set of uniform and open standards for information exchange. 
This approach, in the future, will enable DoD and VA to create 
an architectural framework that is capable of interconnecting 
with systems from both the private sector and other 
governmental agencies.
    Finally, as I mentioned in my written testimony, the IPO is 
working closely with the Departments to determine how to modify 
existing leadership and management structures in order to 
provide an effective governance model for VLER.
    Together, these efforts will help provide a solid strategic 
foundation for the implementation of the new VLER.
    And operational, the VLER will provide our servicemembers, 
veterans and service providers and their beneficiaries with 
extraordinary access to health records and benefits data, 
thereby improving the quality of both health care and benefits 
services in my opinion.
    Thank you for the opportunity to address the Committee, and 
to provide you with an update on the important work that is 
being done in advancing electronic data sharing between the two 
Departments.
    I look forward to keeping you apprised of our progress as 
we move forward and I would be pleased to attempt to answer any 
questions you may have.
    [The prepared statement of Rear Admiral Gregory Timberlake 
appears on p. 73.]
    Mr. Hall. Thank you, Admiral.
    And I assume, Mr. Walcoff, that your colleagues are here to 
answer specific questions?
    Mr. Walcoff. That is correct.
    Mr. Hall. Okay. So, no more statements, per se.
    I guess, I would start with a question to you, sir. 
According to a DoD Health Treatment Record Analysis Report, DoD 
loses on average 3\1/2\ million pieces of paper a year. This 
year, so far, the DoD failed to transfer 1.6 million pieces of 
paper to VA. According to the report, 20 percent of DoD paper 
records are lost. When records were finally shipped to VA, it 
resulted in 9,200 readjudications in a year. Furthermore, this 
represents about 13 percent or 40,000 veterans being wrongly 
denied.
    This is a huge burden placed on VA and ultimately the 
veteran as well. So what can be done to address this problem 
and what does it say about VA's reliance on DoD records?
    Mr. Mayes. I will take that, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Mayes.
    Mr. Mayes. First of all, we do rely on Department of 
Defense records to adjudicate claims for service connected 
disability compensation because we need, as I have said before 
in previous testimony, we need that current disability or 
disease, some evidence of an injury or onset of disease while 
on active duty and then the nexus between the two. So that 
forms the basis for compensation. So we do need those records. 
They are important to us.
    I would say that the efforts underway that have been 
described here to migrate to an electronic record that moves 
seamlessly from DoD to VA, it would be a wonderful solution and 
that is what we are working hard toward. I think that is the 
mandate from the President and, clearly, it is a high priority 
for--the highest priority for both Secretaries.
    Mr. Hall. We share that priority with you.
    Depending on how you define a backlog, how many veterans 
would you say, either Mr. Walcoff or Mr. Mayes, how many 
veterans who were waiting for a claim to be decided have 
committed suicide?
    Mr. Walcoff. I don't have an answer for that. When you say 
``waiting for a claim to be decided,'' you are saying that from 
the time that they filed the claim and then some time before a 
decision was made, they committed suicide, I don't have an 
answer for that.
    Mr. Hall. Okay. I don't know if that is something that 
you--that the Department keeps track or if you--I mean, I think 
I heard you mention the 125 day mark as something that you 
consider a target.
    Mr. Walcoff. It is our strategic target, yes.
    Mr. Hall. Right. So it might be useful to keep track of how 
many veterans who were in the system and were past 125 days. I 
mean, we have all read and heard about the record number of 
suicides, both in our active duty military and also in our 
veterans corps, so of course it would seem that, at least in 
some cases, speed is of the essence in terms of processing 
claims that might reflect, especially in this difficult 
economic environment that we are in today, on a veteran's self-
esteem and his or her ability to put a roof over their head, 
food on the table, take care of their families, have a life 
that is not one of despair or poor self-image.
    I am not a doctor or a psychiatrist, but I am suggesting 
that this is something that VA should be able to--a question VA 
should be able to answer in order to find the right solutions 
to these problems.
    Mr. Walcoff. What I would say is, is that, you know I think 
that we believe that we have a responsibility to all veterans 
to provide a quality decision as quickly as possible.
    As you know, there are certain procedures that we have to 
go through, based on the law, including VCAA, which we have 
talked about in previous hearings, and certainly we need to 
find the balance between following the law as it is written, 
but also understanding that veterans are dependent on the 
decisions that we make, and we need to try to do everything we 
can to do it in as an expeditious a manner as is possible and 
we are fully aware of that, and certainly I think that we owe 
that responsibility to all veterans.
    Mr. Hall. Thank you. I understand and I appreciate all of 
those factors that you have to balance.
    Admiral Timberlake, for several years, VA and DoD have been 
strategizing the seamless transition with a key component being 
a shared electronic record. And the best it seems that we have 
come up with so far is to create patches between VistA and 
AHLTA with some modest success, but not necessarily a real 
solution.
    What is the vision at this point for making the Virtual 
Lifetime Electronic Record actually happen? Will it require 
both Departments to use the same IT architecture or will two 
systems be able to function jointly and have a translator 
between them?
    Admiral Timberlake. Thank you for the question, sir. And I 
may ask Scott Cragg to weigh on this as well because he is the 
VA architect. And while I have to know some of this, I am a 
Reservist and a general surgeon from rural Mississippi, so I 
may ask him for the technical details.
    However, as we move forward in what we believe will be what 
we describe as a service oriented approach, then although it 
may not be identical, but if we build services which can then 
be reused, then we can go in and pull from each other's 
database what we need.
    So I don't know that I am going to be able to say that it 
is going to be the exact same program, if you will, but we will 
have much better ability to see and move in between. As you 
have mentioned, right now we have been, I think, very 
successfully. I don't know that we have done enough of a good 
job of showing how much we can share, but we have been very 
successful in building those sharing bridges between the two 
systems. What we want to do is something that will be 
transparent to the user, whether it is a servicemember of the 
physician in the VA or the physician in DoD.
    Now, let me see if Scott would like to expand on my rural 
general surgeon's description of this.
    Mr. CRAGG. Mr. Chairman, Members of the Committee, 
absolutely there is room within the VLER architecture for 
multiple systems. But what is important right now is that we 
establish the capability between the two agencies, not only to 
share the data that we share today because there is a great 
deal of data shared both on the health as well as the benefits 
side. In fact, we do have the bidirectional health exchange 
that does move information in the health care arena between VA 
and DoD in both, again in both directions.
    But we also share an extensive amount of administrative 
data about our veterans on the benefits side. The key to VLER 
is not only to be able to promote sharing of data, but it is 
also to present that data in a single format that is recognized 
as being a single record. In fact, the architecture should be 
able to allow that, while also pulling data from multiple 
sources, multiple databases and multiple systems.
    There is another part of the VLER that is also very 
important. It is to extend the ability for veterans and 
servicemembers to see that data beyond just the clinicians and 
those who provide those benefits. So, yes, the architecture for 
VLER as we are envisioning it today will more importantly 
provide for standards and interfaces that allow for information 
to be shared and then seen in a uniform way, but to also 
provide the opportunity where there may be multiple services, 
multiple solutions and multiple systems that are part of the 
overarching VLER concept.
    It is not only possible but it is also a positive way to 
move forward and a very good idea because as technology 
improves, as methodologies improve, we need to be able to 
leverage those methodologies and take VLER even further.
    Mr. Hall. Thank you, sir.
    Mr. Lamborn, would you like to ask some questions, please?
    Mr. Lamborn. Thank you. When can we expect to see draft 
regulations on section 212 of Public Law 110-389, which 
authorizes the substitution of a spouse when a claimant dies?
    Mr. Mayes. Thank you, Mr. Lamborn.
    We are crafting those regulations right now. We have a 
draft, but there are some policy issues that we are trying to 
work through. We are working with our Office of General 
Counsel. I think that we would have something that we would 
have for concurrence within the next 2 to 3 weeks, but then it 
has to, of course, go through our concurrence process and then 
it would be published in the Federal Register.
    Mr. Lamborn. Okay. Thank you. And we are watching that 
closely. I had that in a bill, H.R. 3047, Representative Hall 
had that in a bill, and then it finally became law, and so we 
are watching it with great interest.
    Can you give us a timeline on when you expect the first 
steps to be taken to move forward with your new electronic 
processing system?
    Dr. Tibbits. If you are referring, Congressman, to our 
paperless initiative, we are still committed to dates that we 
have previously, I am sure, made you aware of with our 
capability fielded in the year 2012. Of course, a lot has to 
happen between now and then. No program of that magnitude is 
free of issues and risks and we are working through many of 
those issues and risks now. As things stand today, that is 
still our plan.
    Mr. Lamborn. Okay. Thank you.
    Mr. Ratajczak, and I hope I pronounced that correctly, 
stated earlier that there are reports of new VSRs and of VSR 
being fired during their probationary periods for poor 
performance even though they had not completed mandatory 
training. And apparently he was aware of one of those 
personally. Can you confirm these reports?
    Mr. Walcoff. Without knowing the specific examples, I would 
still probably say that, yes, that is happening. The fact is 
that the probationary period was specifically established for 
management to be able to evaluate a person's performance during 
that first year, if necessary, take those types of actions with 
the employee without having some of the protections that more 
senior employees have.
    You mentioned taking that action against somebody who is 
still in training. Well, even when you are in a training 
program, there is a progression that you can be expected to 
make during that training program. And there can be situations 
where, after a person has been in the program for a while, they 
are not progressing at the rate they should, and at some point 
a decision can be made that, you are not going to progress for 
a lot of different reasons.
    So I do see that there could be possibilities where 
somebody would be let go during that period.
    Mr. Lamborn. Okay. Thank you for that clarification.
    And this is more of a general question for whoever would 
care to address it. Why is there such a large increase in the 
number of issues submitted on each claim?
    Mr. Walcoff. Well, what we have seen is, the increase 
coming in on a lot of our original claims and they are coming 
in, primarily at our Benefits Delivery at Discharge locations. 
And I think that a lot of that is some of the counseling that 
goes on at those locations, the information that is available 
to the servicemembers when they are getting ready to get out.
    And I think that, at that point, there is from the 
serviceman's point of view if there is a possibility that 
something, an injury or, something happened to me in service 
that possibly could affect me later on, I do think that there 
is some encouragement to apply, to get it in the records that, 
you know, you are saying that this is something that occurred 
in service and, there could be a situation where you might have 
that in the record if it flares up later.
    You know, we have noticed a very, very significant 
increase. We are averaging on our BDD cases about 11 issues per 
claim. That is pretty significant.
    Brad, you want to add anything on that?
    [Mr. Mayes shakes head negatively.]
    Mr. Walcoff. Okay.
    Mr. Lamborn. Okay. Well, thank you for those answers, and I 
want to thank you all for your patience and for your testimony 
here today.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mrs. Halvorson.
    Mrs. Halvorson. Thank you, Mr. Chairman.
    It was said, Mr. Walcoff, in your testimony that 4,200 new 
employees have been hired since 2007. What percentage is that 
of the overall VA employment?
    Mr. Walcoff. We started with a base at that point of 
approximately 12,000, a little bit more than that. So 4,200 new 
employees, and then in addition to that we replaced anybody who 
left, which was about another 1,800. So what you are seeing 
that really since 2007 we have actually hired about 6,000 new 
employees, and that is not including the stimulus employees 
that we are going to be hiring, which is another 1,500 to 
1,700.
    So you can see that we have really had a lot of hiring 
activity in the organization which obviously causes a lot of, 
training that has to be done. There were a lot of space issues 
that we have had to work through, but we have been able to do 
that and we are starting to see real results from the new 
employees.
    Mrs. Halvorson. So the results are from 179 days down to 
161 days but has there ever been a time when you actually were 
at your goal of 125 days?
    Mr. Walcoff. No, there hasn't been, and what I would say to 
you is that it takes 2 years to train a rating specialist or a 
VSR. So we are just seeing the first people that we began 
hiring in 2007 come to the point where we can expect them to be 
fully productive.
    We have been hiring those 4,200 continuously over those 2 
years. So every day that goes by, there is that many more that 
are becoming fully productive, which will increase our 
productivity.
    Our production has actually increased by over 9 percent. 
And what I would also tell you, is that the 161.8 is a 
cumulative number for the fiscal year. The last 2 months, we 
have been in the 157 range. So there really has been 
significant improvement.
    Mrs. Halvorson. And then, how did you get to the 125? What 
made that the magic number?
    Mr. Walcoff. Well, we looked at what the requirements were 
by law for us to--in our duty to assist veterans in our 
development process. We looked at the various parts of the 
development that has to be done, including the exam that has to 
be ordered. We have to get private medical records. We have a 
responsibility to go out to get records that are within the 
custody of a government agency and go out as many times as 
necessary to get those records.
    There are a lot of different things that we are required to 
do and we are required also to give veterans a certain amount 
of time to respond to us. If they don't respond after 30 days, 
we go out with another letter, give him another 30 days to 
respond. So when you add all those things up, we had to try to 
put together what would be a reasonable goal in terms of us 
having to reach a little bit and stretch a little bit, but also 
realistic within the requirements of the laws that we have to 
work under and that is how we came up with 125 days.
    Mrs. Halvorson. And one last question, Mr. Walcoff. You 
know, there has been a great deal of dissatisfaction with the 
AMC. Will you consider disbanding it as somebody else has 
suggested and replacing it, or placing the accountability back 
upon the regional office or the original jurisdiction?
    Mr. Walcoff. I don't believe that that is the right way to 
go. I think that with all the work that we have just been 
talking about that is out at the regional offices, to put those 
remands out there, I don't think would be the right way to go.
    I can tell you that we have made significant changes at the 
AMC. We have added a lot of staff. We have made a change in the 
leadership of the office. And we are actually starting to see 
some improvements. And if you want, I can send you, you know, 
in the days ahead, I can send you some information about some 
of the improvements that have been made in terms of 
performance.
    We do believe that we are starting to head in the right 
direction. It is going to take a little while. I understand the 
dissatisfaction that people have, but I do believe we are 
heading in the right direction.
    Mrs. Halvorson. Great. Yes. I think we would enjoy that.
    Mr. Timberlake, Admiral, what is the personnel makeup of 
the IPO and how many of the VAs and DoDs, military, that sort 
of thing, and what is the background of all these individuals, 
to bring them all together?
    Admiral Timberlake. Currently, the IPO will be lead by a 
Senior Executive Service (SES) from DoD, and a deputy would be 
an SES from the VA. Both of those positions are still in 
recruitment and so currently I have been brought on active duty 
to try to manage this thing while I get started.
    We will then have a total of 14 government civilians, 7 of 
whom will be provided from the VA, 7 who will be provided from 
the DoD. Their specialties range from such things as financial 
analysts, budget analysts, health analysts, benefits analysts 
and program managers to help us evaluate the programs that are 
being conducted jointly between the two Departments.
    We also have funding allocated to use from the Wounded and 
Injured Senior Oversight Committee to allow us during this 
interim time to hire contractors as we go about hiring the 
government civilians. You know, nominally when the people who 
first set up the office said, well, we think that is about 16 
FTEs, some people get a little tied up on that number. It is 
more a matter of whether we have the wherewithal to hire 
additional contractor help we need as we start and set up the 
office.
    Mrs. Halvorson. Great. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mrs. Halvorson.
    Just a couple more questions here. I am looking at the VA 
form 21-526, parts A, B, C and D, and picturing a veteran going 
through this and applying. It is fairly detailed and it is 
evident from reading this form that veterans probably do, and 
understandably, omit necessary information when sending it in. 
That probably happens on a fairly regular basis.
    When the RO sends a statement of case back to the veteran 
to then complete the form, we require the RO to accompany it 
with a simplified checklist called the ``Duty to Assist'' form. 
What is the status of the implementation of this form and do 
you feel as if it is too complicated for veterans and what more 
can be done to assist them in seeking their benefits?
    Mr. Mayes. I will take that question, Mr. Chairman. I 
believe you are referring to the checklist that was a 
requirement as part of Public Law 110-389?
    Mr. Hall. Right.
    Mr. Mayes. Okay. We implemented that section back in 
December of 2008. We put out guides to our regional offices. 
That particular pilot, I believe, involves four stations.
    And so, at those four stations, when we receive an 
Application for Benefits that meets the criteria as established 
in the law, when we send out our notice letter, which is 
required, again, by statute, what we do is we put what evidence 
and information is required of the veteran in a checklist, 
which is an attachment to the notice letter that goes out. So 
we have implemented that and we have also secured contract 
support from the Center for Naval Analysis to help 
independently evaluate the effectiveness of the pilot as 
stipulated in the legislation.
    Mr. Hall. Thank you. And just reading page 6 here. It says 
that VA currently pays disability pensions to veterans who 
served during Mexican border period. Do you know approximately 
how many of those are currently receiving benefits?
    Mr. Mayes. I don't think very many, Mr. Chairman.
    Mr. Hall. Maybe in updating this, you might want to look at 
that.
    Mr. Mayes. Yes, sir. Understood. You know, I would point 
out that with the 21-526 application, a veteran can now submit 
electronically, through the Veterans Online Application 
(VONAPP), and we are working with a contractor right now to 
enhance that application to make it easier for a claimant to 
walk through that application. So we are trying to meet those 
needs and improve that application process.
    Mr. Hall. In the strategic plan that you are developing for 
paperless delivery of benefits, I assume that there is an 
online version of this form for a veteran to fill out?
    Mr. Mayes. Right now, today, you can go online and fill 
that application out, but we are undertaking with a contractor 
an effort to make it more of an interactive, guided process 
through the application so that it is easier, it is more of a 
question-response scenario that then takes you into more 
detailed questions based on some of those responses.
    So, in essence, you are beginning to see some rules 
technology even in the application process.
    Mr. Hall. That is great. That is really good to hear.
    I understand the Lean Six Sigma is a business management 
strategy that was developed at Motorola to find deficits and 
ways to improve operations. The private sector has the ability 
to readily make those changes.
    What is the Booz Allen Hamilton rationale that VBA can be 
that responsive to change making, and did they supply an 
implementation plan for the recommendations?
    Mr. Walcoff. The Booz Allen Hamilton report focuses on the 
process that we have been using, and Mr. Ratajczak referred to 
that, the CPI model, and really finds a lot of areas that, 
where because of the fact that files are being moved around the 
building because of the way the teams are set up, that there 
are a lot of inefficiencies in the process. And what they are 
recommending is a situation very similar to what Mr. Ratajczak 
talked about where the file would go to individuals who worked 
together on, I will call it a team. It is not that each 
individual does not have responsibilities. I know that you had 
some concerns about that, and we do to.
    And it is clear that the individual would have certain 
responsibilities. But the fact that they are all working in the 
same location would, first of all, make it so that the file is 
not going all over the building as part of the assembly line. 
But also, that you would have a situation where you would be 
able to have the different components of the process working 
together in terms of exchanging information and that kind of a 
thing, which will, expedite the process and, provide a better 
quality product.
    Now, in terms of implementation, it looks fine on paper, 
but I think the question that you asked, is the one we are 
asking, which is, okay, will this actually work in our 
environment versus an industrial environment, which it is more 
widely known for.
    And that is why we are looking at doing a pilot in Little 
Rock. We are going through some of the contractual issues right 
now, but it looks like we are going to be able to at least, 
hopefully, start that pilot in July. And that will give a lot 
more information about the actual application of some of these 
principles.
    Mr. Hall. Thank you. I understand that not every activity 
in your inventory is claims related. Some of it is related to 
adding dependents or answering letters and these all register 
as items of work in the workload. How are those other functions 
captured for employee work credits and how are they weighted? 
Does a different team handle the non-rating part of your 
workload, or is everyone expected to devote a certain amount of 
time to all of these tasks?
    Mr. Walcoff. It really depends on what type of action it 
is. Some of the non-rating work can be done in the triage team 
that comes in. Somebody is looking at it to try to determine 
where it goes. Some of the simpler actions are actually done 
right there on the triage team. Others are forwarded to post-
determination. It depends on what the actual action is.
    And I think that, I want to just clarify that really there 
are three levels of actions. You have the rating actions which 
are compensation and pension applications that we always talk 
about in terms of what we consider inventory. That is the 
400,000. We have the non-rating, which are the dependency 
changes and the income adjustments and those types of things, 
and there are about 200,000 of those.
    There is another 100,000 of things that I call 
miscellaneous actions that were lumped into this million and 
those are things like a letter that a veteran would write in 
just asking a question, a general question about his benefits.
    The publications that I referred to were counting that 
letter as a claim, and I don't think under any definition that 
letter should be considered a claim. Certainly, the non-rating 
work, although we don't consider it as part of the inventory 
that we talk about, is very important work that has to be done. 
And I want to emphasize that just because we don't talk about 
it as part of our rating inventory, doesn't mean that we don't 
realize that it is work. When a veteran wants to add a 
dependent, that is very important to the veteran himself, and 
we shouldn't be ignoring that.
    All we are saying is, that we have prioritized getting the 
veteran on the rolls with his compensation claim, and then 
after we have done that, then we would talk about, as a second 
priority, adding a dependent to an existing record.
    Mr. Hall. So just for the record, what would you peg as a 
number for what you consider to be a backlog at VBA?
    Mr. Walcoff. I would say that our backlog is, right now--
about 150,000, 140,000. That is our backlog, and that is based 
on the rating inventory of cases that are over 125 days.
    Now, if you want to add the non-rating, frankly I believe 
we should be doing non-rating cases in about 90 days. So if you 
said, well, I think that your non-rating should be considered 
as part of your inventory as well as your rating, then the 
backlog would be--and non-rating would be anything over 90 
days, and I don't have an exact number for that right now. But 
non-rating actions should take less time than rating actions.
    Mr. Hall. For the sake of discussion, regarding a veteran 
whose claim is up to a 125 days old, since it arrived into your 
system. In testimony presented in 2008, Professor Linda Bilmes 
from Harvard University noted that after a protracted process, 
90 percent of veterans' disability claims are ultimately 
granted, at least in part.
    Given that so many claims are eventually awarded, couldn't 
VA reduce its backlog and shorten the process for the veteran 
by assuming that the veteran's lay statement is accurate and 
consistent with time, place and circumstance, and as long as 
there is a diagnosis, grant the benefit?
    Mr. Walcoff. I will give you my personal reaction to this, 
and I don't know--you know, this question hasn't been 
officially asked of the agency in terms of what their position 
is.
    Mr. Hall. Right.
    Mr. Walcoff. When Professor Bilmes says that 90 percent of 
claims are granted, what she is saying is, is that a veteran 
receives something. But as I mentioned to Congressman Lamborn, 
the average claim we get in through BDD involves 11 issues. All 
that the 90 percent means is that at least one of those issues 
we are paying the veteran for. That is how she gets to 90 
percent.
    If you evaluated by individual issues, the grant rate is 28 
percent. So if you are paying on every issue, you are going to 
be overpaying on 72 percent of all issues. And I think, when 
looked at that way, it really calls into question whether that 
is a good policy or not.
    Mr. Hall. If I could ask you one more question, Mr. 
Walcoff. In March 2009, the Office of Inspector General (OIG) 
of the VA released a report on an audit of the VBA's STAR 
Program or quality assurance program. Besides finding that the 
National Error Rate was understated by 10 percent because STAR 
personnel did not identify errors that affect veteran's 
entitlement to benefits. It also found that the VBA excluded up 
to 126,000 brokered claims. Those claims assigned from one 
regional office to one regional office, but sent to another for 
development or rating from the STAR review.
    The OIG projected that 31 percent of these brokered files 
contained errors affecting veterans' benefits which resulted in 
an actual 69 percent overall accuracy rate for VBA which is far 
short, as you know, of your goal of 90 percent accuracy.
    Clearly, these errors add to the backlog in some way, shape 
or form, either as reopened claims or appeals. So could you 
explain the STAR review process in general and elaborate on 
your response to the VA OIG's report. For instance, has it 
begun to sample brokered claims? Have you begun to sample 
brokered claims, something that VBA itself identified as a need 
in 2007? Have there been additional staff hired to deal with 
this or specific training requirements?
    Mr. Walcoff. My answer to that is, basically, I agree 
that--we all agree that brokered work should be sampled. I 
don't necessarily agree with the methodology that the OIG used 
to come up with the 31 percent, but I agree with their basic 
premise that we need to include brokered work in our sampling 
and we have begun to do that in response to the OIG audit. I 
believe that we have begun calling cases in that are brokered.
    And I think with the number of brokered cases that we have, 
it is important to get an accurate representation of what that 
quality rate is. So we are doing it, sir.
    Mr. Hall. Thank you. And just curious, you say, if I 
remember correctly, you are adding 80,000 new claims each month 
to the inventory?
    Mr. Walcoff. Eighty-thousand rating claims, yes.
    Mr. Hall. Eighty-thousand rating claims. How many decisions 
on rating is VBA making each month?
    Mr. Walcoff. This year we are averaging, I believe it is 
about 78,000.
    Mr. Hall. So you are pretty close to break even right now?
    Mr. Walcoff. Close, but the fact is that we want to bring 
the inventory down, so coming close or even being even is not 
what we want. We want the inventory to come down. We need to be 
able to exceed the receipts.
    Mr. Hall. How many of your new employees who are becoming 
independent now, having been trained, how many per month are 
coming online, working independently?
    Mr. Walcoff. It is hard to say because they weren't hired 
on an even basis. In other words, we didn't hire, let us say, 
200 every month. There were some months that we hired as many 
as 500. There were other months that we hired a lot less than 
that. A lot of it was trying to be able to schedule all of the 
training because we felt it was really important that every new 
employee go to Centralized Training within a certain number of 
weeks of when they start.
    So, trying to get the space available, we added space to 
our training academy. It took a little while for that to be 
ready. So off the top of my head, I can't get you that answer, 
but I can certainly research it and get back to you after the 
hearing, if that is okay.
    [The VA subsequently provided the following information:]

          VBA conducts intensive training for all employees new to a 
        job classification, with an emphasis on the VSR and RVSR 
        positions (through programs such as Challenge, TPSS, etc.). Due 
        to the complex nature of the duties associated with these job 
        classifications, the training process is labor and time 
        intensive, taking 24 months on average to achieve journeyman 
        level and become fully productive. As of the end of July 2009, 
        46.4 percent of VSRs and RVSRs, or 3,430 employees, were 
        journey level. Approximately 120 employees nationwide will 
        progress from trainee status to journeyman status each month 
        over the next 12 months.

    Mr. Hall. That would be great, Secretary Walcoff. And I 
think, obviously, getting ahead of the--getting the number of 
monthly claims decided ahead of the number of new claims coming 
in is something that we will all be happy to see that point 
past. And the further we get past it, the more we can reduce 
the inventory.
    And I would like to ask Admiral Timberlake if you can give 
me a mission statement for the IPO along with the goals and 
objectives that you intend to meet, how the Departments will 
manage the challenges that you enumerated in your testimony, 
and the timeframe for meeting those goals? Do you think you 
will meet the September 2009 goal for a fully interoperable 
electronic health records system?
    [The DoD subsequently provided the information in the 
answer to Question #2 of the Post-Hearing Questions and 
Responses for the Record, which appear on p. 93.]
    Admiral Timberlake. Yes, sir. We believe that the goal, 
which is to get the fully interoperable electronic health 
record required for the provision of clinical care as defined 
by our clinicians, the so-called ISIB, we believe we will meet 
that. Now, we are watching that closely. There is still some 
risk in a couple of the issues, but so far we seem to be on 
track. Yes, sir.
    Mr. Hall. Thank you. That is good to hear. And I think we 
have a pretty good idea about new claims, about veterans, how 
we are handling or how you will be handling the claims of 
veterans who are returning from OEF/OIF or who are filing new 
claims as they are discharged from active duty. That should be 
much easier since both departments are operating in a 
computerized paperless--capable of operating in a paperless 
environment. So hopefully the two will be joined. The golden 
spike in the middle of the Transcontinental Railroad will be 
driven and we will celebrate the day when that handoff is 
happening for our current generation of veterans.
    Regarding our Vietnam vets or World War II vets or Korean 
War veterans, is there a separate process and can you describe 
it to us, the approach in terms of--well, first of all, how 
feasible it is, are you triaging those cases or those times 
periods, those demographic groups and how can they be 
incorporated into this electronic system?
    Mr. Walcoff. The--and, Paul, I would ask you to jump in 
here. Right now, the plan is to go from a point forward, which 
would mean that any new claims that come in, when we get to the 
point when we are electronic, would be the first ones that 
would be scanned in, and we still do get original claims from 
Vietnam veterans, by the way.
    At this point, and I would ask Dr. Tibbits to comment on 
this, I don't know of any plans to go back, for instance, to 
the Records Management Center, where we have 20 million files, 
some of those going back quite a ways, and scanning all those 
records in. But let me ask Dr. Tibbits to comment on that.
    Dr. Tibbits. Well, Mr. Chairman, the foundation to that, 
actually, is to be able, from an electronic perspective, is to 
be able, electronically, to identify the veteran.
    We have now, actually, a program that was initiated under 
Scott Cragg's tenure when he was in a prior position at the VA 
called a Common Population Initiative. To that end, we have 
actually, now, largely finished taking all of the veterans who 
became veterans before the Defense Department stood up the DEER 
System, which is their system to uniquely identify 
servicemembers.
    We have identified those veterans. We have sent those 
veterans' names back to the Department of Defense. The 
Department of Defense has put the unique identifier on those 
veterans, called the Defense Enrollment Eligibility Reporting 
System (DEERS) Identifier, and sent those veterans with the 
DEERS identifier back to us electronically, so they are all now 
uniquely identified in one of our identification systems--it is 
called VA/DoD Identity Repository (VADIR)--as a foundation upon 
which we can build further capability over time, which if we 
progress backward and want to image their records, or whatever 
the process might be, that we would march backwards in time 
through all that legacy paper. The foundation of uniquely 
identifying those veterans electronically has already been 
laid.
    Mr. Hall. And I assume that a veteran who has a new problem 
or a change in their claim or an application for increased 
percentage rating or a case that requires it to come to new 
attention could then be scanned and shared with another office 
or another specialist or selectively digitized?
    Dr. Tibbits. If I understand your question, this scanning 
notion would relate to the paperless initiative, and if we 
again, we extend backward in time, what I would say is, many of 
these visions that we want to achieve, these goals, depend on 
the concatenation of one or two or three systems working 
together.
    So, yes, to your question. As paperless comes along, the 
ability to uniquely identify that veteran, put the correct 
identification on that scanned paper, the unique identification 
piece is there. As paperless comes along, it will connect to 
that and take advantage of that unique identification 
capability that we already have in place.
    Mr. Hall. Okay. And so just so I understand, there would be 
sort of two worlds, the paper world and the paperless world, 
notwithstanding those that may be scanned, you know, from the 
paper legacy records, as you put it. And at what point, what 
date forward is the electronic record going to be the rule 
rather than the exception? And what from that date backward 
would be remaining in the paper domain?
    Dr. Tibbits. Well, as I said earlier, for the paperless 
initiative itself, we are committed to 2012, our date to deploy 
that in the VA. Now, Secretary Walcoff, maybe Brad Mayes might 
want to talk about how we would selectively identify which 
veterans and which pieces of legacy paper would be included in 
that. That is a different question and a different judgment 
process that would be based on the needs of the veteran and 
other considerations.
    Mr. Walcoff. Well, and let me say, first of all, that we 
are doing some work electronically. All of our BDD work at all 
of the BDD sites is electronic, and we are at the point now 
where we have been doing it for a long enough period of time 
that we are getting reopened claims from some of the people 
that we did their original electronically and we are doing 
those reopened claims electronically.
    So as that group of people gets larger and more time goes 
by, we are going to get more reopened claims that we will 
continue to do in an electronic environment.
    We do have some technical limitations in terms of how much 
work we can put in the current system. The virtual VA system 
was developed a long time ago, and there are some issues with 
the capability of it in terms of volume. That is not the 
permanent solution to where we are going to be in 2012. But it 
does limit us to a certain extent on how much we can do right 
now.
    In terms of the question about how we would progress once 
we get to 2012, I would tell you that is the kind of thing that 
we are working on right now. That is the kind of thing we are 
working with Booz Allen Hamilton on as one of our consultants, 
to try to figure out that now that we are going to have this 
technology, what is the best way to use it.
    And as we get those answers, I will be glad to share them 
with you.
    Dr. Tibbits. I guess I should add, Mr. Chairman, as we move 
forward in trying to better meet the needs of servicemembers 
and veterans in progressively greater electronic ways, the 
transaction volume, obviously, goes up and up and up and up. 
That serves to surface issues in the information technology 
infrastructure that need to get addressed; for example, where 
that infrastructure was put in place some years ago, not 
necessarily anticipating that increase in volume over time. And 
those are recurring challenges of the sort that Secretary 
Walcoff is alluding to.
    An anticipated issue will surface because the capacity here 
or the capacity there or the capacity somewhere else on 
infrastructure is not really what it needs to be to handle that 
additional volume. So there is an additional challenge to 
rectify this.
    That requires some engineering. It requires some money. It 
requires some procurement actions, et cetera, et cetera. And it 
also requires that we become smart enough to get ahead of the 
curve so that our ability to anticipate transaction volume 
growth in the future is better than our ability to anticipate 
it has been in the past. And that requires strengthening of 
knowledge, skills and abilities with respect to capacity 
planning itself.
    So there are a bunch of challenges in there that we have to 
deal with to support that growth in transaction volume. It is a 
big stress test for us.
    Mr. Hall. Yeah, I am sure, I mean, at the rate technology 
is moving and the obsolescence of the latest personal digital 
assistant that you could buy, you know, 6 months from now, it 
is worthless and everybody wants a new one. But at the same 
time, a year ago last December, I was told by the commander of 
the hospital in Landstuhl that we were a month away from his 
being able to hand off electronically the record of that 
veteran I am sitting, talking to, to VA.
    And so I guess those patches between AHLTA and VistA have 
been more elusive than we would like.
    Dr. Tibbits. No, sir. The patches have actually been, I 
would say, if I can use my own words here, in my humble 
opinion, very effective. We are, in fact, exchanging more 
health care information between VA and DoD than any other two 
health care facilities in the United States. We are extremely 
successful at it.
    That is not to say it is perfect. That it is not to say 
that there is not room for improvement. The fact that we are 
exchanging that health care information, before moving into a 
VLER construct, is also itself not accidental. In order to meet 
the immediate needs of servicemembers and veterans, information 
exchange between the two Departments is extremely important and 
much more important than collaboration on software development.
    And because of that, because of the need to process claims, 
because of the need to deliver health care and because of the 
importance of information exchange to do that, we elected to 
pursue information interoperability first and, hence, there is 
this very robust exchange of information between the two 
Departments now, and I think is why Admiral Timberlake, rightly 
expressed that he has a great deal of confidence that we will 
meet the September 2009 date because, by and large, we are 
already there now.
    So there are only a few marginal things that have to be 
added between now and the end of the fiscal year. By and large, 
primary care and most specialty care could be delivered by a 
clinician today, based on the health information that is 
exchanged between the two Departments.
    Mr. Hall. Boy, that is really, really good news.
    Dr. Tibbits. Yes, sir. It is very good news.
    Mr. Hall. I am glad I asked that many questions that we got 
that answer. I mean, because 2012 sounds like an awful long way 
off. And what I am hearing is that 2012 is when it is going to 
be robust and complete and really completely up and running, 
but even today, a lot of the pieces are in place.
    Admiral Timberlake. We are talking about apples and 
oranges. 2012 is related to the paperless initiative, which is 
dealing with all of the incoming----
    Mr. Hall. Benefits.
    Admiral Timberlake [continuing]. Paper that goes to VBA 
from veterans to initiate a claim. That is different than the 
information I am talking about here, which is the health 
information that is being exchanged between the two 
Departments. Two different----
    Mr. Hall. Well, that is--I understand. And we probably 
would all agree that the health information is the most 
important thing, and the veterans, especially those suffering 
serious injuries, would agree with that, but the disability 
claim is built on, among other things, the health record.
    So thank you for that information and thank you for the--I 
appreciate that this is an evolving piece of work. I would be 
looking for--we on the Committee look forward to seeing the 
Booz Allen Hamilton report as soon as you can share it with us. 
And if we have any further questions, we will submit them in 
writing to you.
    Thank you, again, for your patience and for all the work 
that you are doing for this Nation's veterans.
    Secretary Walcoff, Director Mayes, Mr. Cragg, Dr. Tibbits, 
Admiral Timberlake, thank you, again. And you are now excused. 
This hearing is adjourned.
    [Whereupon, at 9:15 p.m. the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. John J. Hall, Chairman, 
       Subcommtitee on Disability Assistance and Memorial Affairs

Good Morning Ladies and Gentlemen:

    Would you please rise for the Pledge of Allegiance?
    The members of the Disability Assistance and Memorial Affairs 
Subcommittee convene today to conduct an oversight hearing entitled, 
``Addressing the backlog: Can VA Manage One Million Claims''?
    Here are some basic facts that I would like take a moment to 
reflect upon today as we begin this hearing on the VA backlog.
    There are 23.5 million veterans living in America. One thousand 
World War II veterans die every day. VA hospitals treated five million 
veterans last year, but over 500,000 non-service connected veterans 
were denied that care. There are three million service-connected 
disabled veterans.
    And now, there are almost one million veterans waiting.
    They are waiting to have their claims and appeals processed. They 
are waiting for compensation. They are waiting for medical assistance 
and rehabilitation. They are waiting to take care of their families. 
They are waiting for a Nation to be grateful.
    I, for one, believe that they should not have to wait. During the 
110th Congress, I convened fourteen hearings on disability claims and 
appeals processing issues and this is our fourth hearing this year on 
the subject.
    Additionally, my colleagues in Congress did not believe our 
Nations' veterans should have to wait when they enacted Public Law 110-
389 in October 2008--essentially mandating that VA modernize its 
disability claims processing system. Congress supports and continues to 
monitor VA's efforts to expedite claims, improve quality, update its 
rating schedule, and use the most advanced technology available. We 
have authorized the hiring of additional benefits personnel and have 
passed more generous budgets for VA than ever before. And still, the 
backlog grows and veterans wait.
    There must be a way to stem this tide. VA requires a cultural and 
management sea change that can come about if it embraces the provisions 
of the law and looks to its stakeholders to inform its policies and 
procedures. As Chairman of this Subcommittee, I believe we have given 
VA the tools and the authority it needs to take the necessary steps to 
bring about the transformation Secretary Shinseki has evoked since 
stepping into the leadership of VA. I look forward to hearing about its 
plans to implement the claims processing improvements we outlined in 
the 110th Congress in P.L. 110-389, the Veterans Benefits Improvement 
Act of 2008 that should help in this regard.
    I am optimistic that today's witnesses can further direct us toward 
a way forward. I regret the Hamster-wheel effect that two of the 
witnesses on the first panel have faced in their own efforts to secure 
the benefits and the assistance that they seek from their government. I 
offer my apologies for all of the waiting.
    I know the American Legion, VFW, and DAV have worked diligently 
along with the other VSOs to address the disjointed practices that 
exist within VA that led to this growing backlog. I am eager to hear 
from the AFGE and the newly formed Disability Compensation Advisory 
Committee and I put much hope in your work and its progress. I also 
look forward to hearing from VA. I know that your claims processing 
production has improved--I applaud you for managing the resources 
Congress has given you to make this improvement. I also know that the 1 
million claims figure reflects all of your inventory--not just 
compensation and pension and not just backlogged claims. These facts 
notwithstanding, Congress, veterans and other stakeholders want to know 
what is VA's strategy for handling a workload of 1 million claims in a 
21st century manner.
    Finally, I thank VA and DoD for being here today to update the 
Committee on its progress in implementing Public Law 110-389 and the 
formation of the Interagency Program Office mandated by the NDAA along 
with President Obama's VA/DoD Joint Virtual Lifetime Electronic Record 
initiative.
    If we can accomplish the tasks already set in motion, it is my hope 
that VA will transform into a 21st Century, customer-focused system 
that can in fact process 1 million claims accurately and timely. One 
where veterans and their families no longer have to put their lives on 
hold while waiting for the much needed assistance they deserve.
    I now yield to Ranking Member Lamborn for his opening statement.

                                 <F-dash>
  Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member, 
       Subcommittee on Disability Assistance and Memorial Affairs

Thank you Mr. Chairman,

    Thank you for holding this hearing to discuss VA's disability 
claims processing system and its ongoing efforts to improve timeliness 
and accuracy.
    The struggle to overcome the backlog of disability claims has 
weighed upon the Department for several years now.
    Despite multiple hearings on this issue, as well as significant 
increases in VA's budget, workforce, and information technology 
resources, signs of progress are subtle at best.
    We've addressed this situation from multiple angles:

    <bullet>  Funding for VA programs have increased steadily since 
1995.
    <bullet>  There's been a seventy-five percent increase in the 
number of full time claims workers in the last 5 years.
    <bullet>  We've made a strong push toward modernizing the VA claims 
system so that it is electronic rather than paper-based.
    <bullet>  And we've emphasized and reemphasized the need for 
training and accountability.

    Yet, VA seems to be overwhelmed, and it is well past time for frank 
assessment of what is going on.
    VA needs to be very candid and forthcoming about what it sees as 
the problem, otherwise we cannot help fix it.
    I understand that along with aforementioned increase in funding, VA 
is receiving a record numbers of claims, along with an increased number 
of complex issues on each claim.
    While these factors obviously pose a challenge, I do not see them 
as insurmountable.
    I believe that VA has the resources and authority necessary to 
adjudicate claims quickly and accurately, and I expect it to do so.
    If this is a misperception, I must know why.
    Every one of these claims represents an American veteran; their 
patience and mine is growing very thin on this issue.
    If we do not fix this problem now, and merely pass it on to a 
future generation, we will all be very much ashamed, and deservedly so.
    I'm certain everyone here shares my frustration, so lets put the 
cards on the table and figure out what we can do.
    I want to thank the witnesses for their service and their 
testimony, and I look forward to our discussion today.
    Mr. Chairman, I yield back.

                                 <F-dash>
       Prepared Statement of Ian de Planque, Assistant Director, 
    Veterans Affairs and Rehabilitation Commission, American Legion

Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to present The American Legion's 
views on the Department of Veterans Affairs (VA) backlog and VA's 
claims processing system.
Claims Backlog and Staffing
    In Fiscal Year (FY) 2008, more than 2.95 million veterans received 
VA Veterans Benefit Administration (VBA) disability compensation 
benefits. Providing quality decisions in a timely manner has been, and 
will continue to be, one of VA's most difficult challenges. A majority 
of the claims processed by the VBA's 57 Regional Offices (ROs) involve 
multiple issues that are legally and medically complex as well as time 
consuming to adjudicate.
    As of June 6, 2009, there were 722,901 claims pending in VBA, 
409,362 of which are rating cases. There has been a steady increase in 
VA's pending claim backlog since the end of FY 2004 when there were 
321,458 rating cases pending. At the end of FY 2008, there were more 
than 390,000 rating cases pending in the VBA system, with an increase 
of 14,000 from FY 2006. Of these, more than 85,000 (22.1 percent) were 
pending for more than 180 days. Including non-rating claims pending, 
the total compensation and pension claims backlog were more than 
624,000, with over 20 percent of these claims pending more than 180 
days. There were also more than 183,000 appeals pending at VAROs, with 
more than 167,000 requiring some type of further adjudicative action. 
Since the beginning of this year, the number of appeals has grown by 
almost 10,000.
    The American Legion National Staff has interviewed regional office 
employees during quality review visits with the consistent complaints 
among Regional Office employees being: Inadequate staffing levels, 
inadequate continuing education, and pressure to make quick decisions, 
have resulted in an overall decrease in quality of work. It is an 
extreme disservice to veterans, not to mention unrealistic, to expect 
VA to continue to process an ever increasing workload, while 
maintaining quality and timeliness, with the current staff levels. The 
current wartime situation provides an excellent opportunity for VA to 
actively seek out returning veterans from Operation Enduring Freedom 
and Operation Iraqi Freedom (OEF/OIF), especially those with service-
connected disabilities, for employment opportunities within VBA. 
Despite the recent hiring initiatives implemented to provide additional 
staffing, viewed by many as a ``surge'' tactic, ROs will need to 
continue the hiring of additional personnel given to meet current and 
projected future workload demands.
    The American Legion is also concerned with the retention of newly 
hired and trained claims adjudicators. Repeatedly, The American Legion 
has asked the question--what is the attrition rate of newly hired 
claims adjudicators? Mr. Chairman, the silence is deafening. This is an 
area The American Legion believes should be exploded. Hiring new 
personnel is great, but if their tenure with VBA is short-lived (3 
years or less), then retention of experienced claims adjudicators may 
very well continue for years to come.
    Through this process, VBA must be required to provide better 
justification for the resources it says are needed to carry out its 
mission and, in particular, how VBA intends to improve the level of 
adjudicator training, job competency, and quality assurance. Each of 
these topics will be discussed in greater detail below.
Production vs. Quality
    Since 1996, The American Legion, in conjunction with the National 
Veterans Legal Services Program (NVLSP), has conducted quality review 
site visits at more than 40 regional offices for the purpose of 
assessing overall operation. This Quality Review Team visits a regional 
office for a week and conducts informal interviews with both VA and 
veterans' service organizations' (VSO's) staff. The Quality Review Team 
then reviews a random sample of approximately 30-40 recently 
adjudicated American Legion-represented claims. The Team finds errors 
in approximately 20-30 percent of cases reviewed.
    The most common errors include the following:

    <bullet>  Inadequate claim development leading to premature 
adjudication of claim;
    <bullet>  Failure to consider reasonably inferred claims based on 
evidence of record;
    <bullet>  Rating based on inadequate VA examination; and/or
    <bullet>  Under-evaluation of disability (especially mental 
conditions).

    These errors are a direct reflection of VA's emphasis of quantity 
over quality of work. This seems to validate The American Legion's 
concerns that emphasis on production continues to be a driving force in 
most VA regional offices, often taking priority over such things as 
training and quality assurance. Clearly, this problem frequently 
results in premature adjudications, improper denials of benefits and 
inconsistent decisions. These issues all contribute to claims remaining 
in the system far longer than is necessary.
Training
    Proper mandatory training is a key factor in the quality of VA 
regional office rating decisions. The Board of Veterans' Appeals (BVA) 
combined remand and reversal rate (over 55 percent) of regional office 
decisions for FY 2008 is a direct reflection of the lack of importance 
placed on training by the VAROs. Our Quality Review Team site visits 
have revealed that, at many regional offices, there have been too few 
experienced supervisors that could provide trainee adjudicators proper 
mentoring and quality assurance. In addition, at many stations, ongoing 
training for the new hires, as well as the more experienced staff, 
would be postponed or suspended, so as to focus maximum effort on 
production.
    Many ROs are receiving an influx of additional personnel. At a 
large number of ROs, as much as a third or more of the staff has less 
than 3 years of experience. This is due to regular job turnover, but 
also the recent measures to ensure adequate staffing that have created 
so many new positions.
    There is no time better than the present to ensure that the 
training is first rate. With so much staff in the earliest portion of 
their VA tenure, the opportunity to instill, with proper training, the 
skills to create and sustain a first class workforce for the 
foreseeable future of VA is at hand. As new employees learn to 
administer the system and adjudicate benefits, let them learn to do it 
right. Attention to training at this stage will reap only positive 
benefits down the road as the new, core nucleus of VA employees is 
formed. We are building VA not just for today, but for the future, and 
attention to the building blocks in the foundation now will prevent 
catastrophic failures and instabilities down the line.
    Consistency in training remains problematic. Each of VBA's 57 ROs 
appears to have a different approach to training and each also differs 
in the importance placed on training. According to a May 2005 report 
from the VA Office of the Inspector General (VAOIG), based on a survey 
of rating veterans' service representatives (RVSRs) and decision review 
offices (DROs), the respondents expressed positive opinions regarding 
the quality of their training, but the overall response indicated that 
training did not receive high priority. Although this VAOIG's survey is 
now more than 4 years old, our Quality Review Team still hears similar 
comments when talking to service center staff during our site visits.
    Some stations have regular formalized or structured training 
programs, while others have training programs that are best described 
as more informal and sporadic. Some stations have well established and 
structured training for new employees, but ongoing training for 
experienced staff is very limited.
    The VAOIG also recommended that a scientific study be conducted to 
further examine the variances in disability payments. VA subsequently 
contracted the Institute for Defense Analyses (IDA) to conduct the 
study. IDA released its report in 2007, noting that although VBA 
provides centralized training modules for training purposes, many ROs 
supplement this training with material developed locally. IDA also 
found that many rating specialists interviewed stated that they 
received ``on-the-job'' training from senior raters and identified 
these individuals as the biggest influence on their rating styles. IDA 
suggested that a ``stronger mechanism'' would reduce the potential for 
persistent differences among regional offices in ratings and ensure 
that raters VA-wide are receiving the same training. IDA further 
recommended that raters be given standardized test cases, reflecting 
the most likely areas of variation, as part of an ongoing training 
process.
    We are also aware of the centralized training program that has been 
implemented; however, a national training standard/requirement, in 
addition to the centralized training conducted by Compensation and 
Pension (C&P) Service, for RO personnel is also needed. Consistent and 
standardized training at each regional office must take place for all 
personnel--experienced and new hires alike. The American Legion 
believes it is crucial that such a program be implemented and closely 
monitored for compliance by the Under Secretary for Benefits. 
Management in stations, not in compliance with such training 
requirements, must be held accountable; otherwise, any national or 
centralized training effort will not be successful.
    Additionally, The American Legion believes it is essential to 
proper training that information (reasons for remand or reversal) from 
BVA decisions, DRO decisions and errors noted in the National 
Systematic Technical Accuracy Review (STAR) and other internal quality 
reviews be tracked and examined for patterns. This information should 
then be used in mandatory formal training to ensure that common errors 
and other discrepancies occurring in regional office rating decisions 
are not repeated. This information should also be used for remedial 
training purposes when patterns of errors are identified for specific 
individuals. Although such data is currently being collected and 
disseminated to the ROs, it appears that consistent utilization of this 
data in regular formalized and specific training is lacking.
    The American Legion must stress that unless ROs (both managers and 
individual adjudicators alike) learn from their mistakes and take 
corrective action, VA will continue to have a high rate of improperly 
adjudicated claims, which result in a consistently high appeals rate 
and subsequent high BVA remand/reversal rate.
Performance Standards
    Performance standards of adjudicators and rating specialists are 
centered on productivity as measured by work credits, known as ``End 
Products.'' Both veterans' service representatives (VSR) and RVSRs have 
minimum national productivity requirements that must be met each day. 
Some stations also set their own standards, based on their claims 
backlog and other station specific requirements that are over and above 
the national requirement. Despite the fact that VBA's policy of 
``production first'' has resulted in many more veterans getting faster 
action on their claims, the downside has been that tens of thousands of 
cases are prematurely and arbitrarily denied. Approximately 65 percent 
of VA raters and DROs surveyed by the VAOIG, in conjunction with its 
May 2005 report, admitted that the raters did not have enough time to 
provide timely and quality decisions. In fact, 57 percent indicated 
that they had difficulty meeting production standards if they took time 
to adequately develop claims and thoroughly review the evidence before 
making a decision. Unfortunately, even though 4 years have passed since 
the release of this report, its findings are still consistent with what 
our Quality Review Team has reported from recent interviews with 
regional office service center staff.
    Unfortunately, the End Product work measurement system essentially 
pits the interests of the claimant against the needs of VA managers. 
The conflict is created because the ROs have a vested interest in 
adjudicating as many claims as possible in the shortest amount of time. 
Awards and bonuses are often centered on production rather than 
outcomes. This creates a built-in incentive to take shortcuts so that 
the End Product can be taken. The system, in effect, rewards ROs for 
the gross amount of work they report, not whether the work is done 
accurately or correctly, often resulting in many claims being 
prematurely adjudicated. These problems are caused by inadequate 
development, failure to routinely identify all relevant issues and 
claims and/or ratings based on inadequate examinations. Even the VAOIG 
acknowledged that because the VA often does not take the time to obtain 
all relevant evidence and information, there is a good chance that 
these claims are not properly adjudicated.
    This is underlined by the findings of The American Legion's Quality 
Review visits, which can be revelatory in their candid commentary with 
VA staff and personnel. Time and time again, VA employees express 
frustration with their ability to balance their time to properly review 
a case file against the meeting of production standards. One veteran VA 
rater indicated a thick file, not atypical of the claims process, 
several inches thick and containing hundreds of pages of medical 
records. ``This file . . .'' the rater stated, ``I have 2 hours to 
review this file [indicating the standard requirement of 3\1/2\ claims 
processed per day]. How do I give that veteran justice?'' This is not 
an uncommon refrain.
    This ultimately creates a desire to claim quick End Product credit. 
The result has been a traditionally high remand rate by BVA and the 
Court of Appeals for Veterans Claims (CAVC). The American Legion 
believes that VBA management is reluctant to establish a rigorous 
quality assurance program to avoid exposing the longstanding history of 
the manipulation of workload data and policies that contribute to poor 
quality decisionmaking and the high volume of appeals. VBA's quality-
related problems and the fact that little or no action is being taken 
to prevent or discourage the taking of premature End Products have been 
longstanding issues for The American Legion. The current work 
measurement systems, and corresponding performance standards, are used 
to promote bureaucratic interests of regional office management and VBA 
rather than protecting and advancing the rights of veterans. The End 
Product work measurement system, as managed by the VA, does not 
encourage regional office managers to ensure that adjudicators do the 
``right thing'' for veterans the first time. For example, denying a 
claim three or four times in the course of a year before granting the 
benefit sought allows for a total of FIVE End Product work credits to 
be counted for this one case, rather than promptly granting the benefit 
and taking only one work credit.
    In the view of The American Legion, the need for a substantial 
change in VBA's work measurement system is long overdue. A more 
accurate work measurement system would help to ensure better service to 
veterans. Ultimately, this would require the establishment of a work 
measurement system that does not allow work credit to be taken until 
the decision in the claim becomes final, meaning that no further action 
is permitted by statute whether because the claimant has failed to 
initiate a timely appeal or because the BVA rendered a final decision.
Immediate (Non-Legislative) Remedies to Reduce Claims Backlog
    Greater emphasis should be placed on conducting triage to identify 
and expedite claims that are substantially complete (very little or no 
development needs to be completed in order to rate the claim) at the 
time they are submitted. Then C&P exams should be ordered as soon as 
possible in cases where the only development that is needed in order to 
rate the claim is an exam. Although there are mandatory notification 
requirements under the VCAA, VA can streamline its waiver process in 
those cases where the claim is substantially complete and/or veterans 
do not have any additional evidence to submit. This would allow VA to 
proceed with the adjudication process in a timely manner without having 
to wait for the expiration of the time period for a veteran to submit 
additional evidence or otherwise respond to the VCAA letter.
    The aforementioned process should also be applied in claims with 
multiple issues in order to provide claimants with access to VA health 
care and compensation, while VA continues to work those issues that are 
more complex or require significant development. Issues that are 
substantially complete and essentially ``ready to rate'' at time of 
submission should be so identified and expedited in order to avoid 
delay that would result if adjudication was put off until all issues 
were ready to rate. Issues that are more complex or require significant 
development should be deferred for rating upon completion of required 
development.
    VA often receives claims that contain evidence sufficient to 
establish service-connection and also sufficient medical evidence to 
properly rate the current severity of the condition under the 
applicable diagnostic code. In most, if not all of these cases, VA, as 
matter of routine, schedules an exam even though it has sufficient 
evidence to not only establish service-connection, but also sufficient 
evidence to properly rate the condition under the applicable rating 
criteria.
    Perfect examples of this are claims of entitlement to service-
connection for type II diabetes based on the Vietnam Agent Orange 
(herbicide) presumption. If a veteran diagnosed with type II diabetes 
meets the Vietnam service requirements, exposure to herbicides is 
conceded and entitlement to service-connection is automatically 
established, if the condition developed to a degree of 10 percent or 
more disabling during the applicable presumptive period and rebuttal of 
service-connection, in accordance with 38 CFR Sec. 3.307, was not 
accomplished. In type II diabetes cases, the treatment notes (either 
private or VA) more often than not contain sufficient medical 
information to properly rate the current severity of the condition 
under the VA Schedule for Rating Disabilities, negating the necessity 
of a VA examination. However, if a VA examination is necessary to 
address secondary conditions, such issues can be deferred and addressed 
at a later date thereby allowing for the immediate rating of the type 
II diabetes, and commencement of compensation benefits, without delay. 
Unfortunately, the routine scheduling of (unnecessary) examinations in 
cases such as this where there is sufficient evidence of record to 
establish service-connection and to properly rate the condition can 
result in 1 to 3 month delays in adjudicating the claim. The American 
Legion, therefore, recommends establishing specially trained triage 
teams to identify such claims.
    VA could also explore another option that involves cases where 
there is sufficient evidence to establish service-connection, but an 
exam is needed to accurately rate the current severity of the 
condition. In these cases, VA could grant service-connection, establish 
a baseline evaluation based on the medical evidence of record, and then 
go back later and conduct an exam to establish current severity of the 
condition. Such a process would quickly establish service-connection 
and, as a result, VA health care eligibility, and generally provides 
the claimant with payments in a timelier manner.
Brokered Claims
    In an effort to help balance its claims backlog across regional 
offices, VBA established a ``brokering'' program where it transfers 
claims from the regional office of jurisdiction to another regional 
office to be adjudicated. The idea behind brokering cases is to provide 
assistance to regional offices with large backlogs by having another 
regional office rate a specified number of its claims each month. 
Regional office employees and VSOs located at regional offices that 
broker work to other offices have consistently voiced concern about the 
quality of the brokered work, to our Quality Review Team during site 
visits. There seems to be a common consensus among VA and VSO 
employees, interviewed by our Quality Review Team that regional offices 
working brokered claims do not have a vested interest in the brokered 
claim as it is not under their permanent jurisdiction, nor will they 
have to deal with subsequent appeals. The frequency of errors found in 
brokered cases reviewed during The American Legion Quality Review Team 
site visits supports this concern.
    Unfortunately, although VBA does not have a mechanism in place to 
monitor the quality of brokered work; VBA management continues to tout 
this program as an effective case management tool. Although this 
program may be a necessary short-term solution for regional offices 
unable to effectively manage current workloads, it does not address the 
staffing and other resource deficiencies that resulted in the need for 
work to be brokered in the first place. VBA management should not 
continue to rely on brokering as a permanent solution to addressing its 
claims backlog, but should focus on ensuring that its regional offices 
have adequate staffing, training, and other resources in order to 
properly manage their own workloads and eliminate the need for 
brokering altogether.
Conclusions
    The best way to help veteran claimants is to fix the entire VA 
claims adjudication system. This is not a time to repeat errors of the 
past and continue to throw augmented numbers of the same resources at 
the problem. Such an approach will only reinforce the errors and flaws 
which led us to this precarious position. What is called for is a fresh 
look at the system, an examination of the root causes that put the 
veterans of this country in such a dire state.
    Piecemeal solutions do not work and should be avoided. It is 
essential that the VA work measurement system be changed so that VA 
regional offices are rewarded for good work and suffer a penalty when 
consistent bad decisions are made. Managers, rating specialists and BVA 
law judges and attorneys should be rewarded for prompt careful work and 
they should also be penalized when they make bad decisions. If we want 
to preclude an ever growing mountain of claims continuing to back up in 
the system, we need to ensure that we are providing a system that 
rewards getting it right the first time. American veterans seeking VA 
disability benefits deserve better treatment than what they are 
currently getting from VA.
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on this important matter. As always, The American 
Legion welcomes the opportunity to work closely with you and your 
colleagues to reach solutions to the problems discussed here today, 
solutions that are in the best interest of America's veterans and their 
families.

                                 <F-dash>
  Prepared Statement of David Bohan, Gladstone, OR (Gulf War Veteran)
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear today on behalf of America's veterans, including 
the veterans of the first Gulf War with whom I served. The topic which 
you are addressing today--the VA's ability to handle the claims 
backlog--is very important to all of us who serve.
    I am David Bohan. I joined the U.S. Army right out of high school 
in 1987 and served with the 2nd Battalion of the 16th Infantry Division 
in the Gulf War. As some of you may know from the current series in The 
American Legion Magazine, our outfit was first across the breach in the 
ground war. My platoon refueled the M-1 tanks on the frontlines. We 
hauled tank trucks full of fuel across the desert to the tanks, despite 
cluster mines and Scud missile attacks. You don't forget the feeling 
you get when the Iraqi Army sends a Scud into your camp. I received the 
bronze star for my noteworthy actions.
    I served 6 years and left Fort Riley, Kansas the moment my 
discharge was completed in December 1992. Like thousands of other Gulf 
War One veterans, I was not offered any transition assistance programs 
when I was discharged. No one suggested that I get copies of records of 
any medical treatment I received in the military. There was no mention 
of VA benefits of any kind, whether you are talking about hospital care 
or counseling for Post-Traumatic Stress Disorder. All I wanted to do 
was get home to Oregon as quickly as possible. This has continued to 
cause problems for me and my ability to get VA benefits.
    I spent most of the next 15 years trying to erase my memories of 
the war with alcohol. Those were terrible years. Nothing worked. I had 
jobs at a variety of freight companies. I was married and divorced. 
Most of all, I drank. This was all very hard for my family, but my 
mother and father stood by me. I didn't realize it at the time, but I 
had severe Post-traumatic stress disorder.
    After an automobile accident involving a police officer last year, 
where luckily no one was injured, I realized I had to stop drinking. I 
checked myself into the Roseburg, Oregon VA Medical Center's inpatient 
alcohol treatment program. I've been clean and sober ever since and I'm 
managing an apartment complex for my father. I'm lucky. Many veterans 
do not have the fantastic family support that I have. I don't know 
where I would be today without them.
    A counselor at the VA in Roseburg suggested I pursue a claim for my 
PTSD and for injuries to my left foot during the time I was stationed 
at Fort Riley, Kansas and recommended I contact the American Legion for 
help.
    The VA system is confusing, overwhelming and is not at all friendly 
to veterans.
    So many of the people at VA are not veterans and don't understand 
what we are going through. You end up feeling like some of them care 
more about their rules and regulations and paperwork than they care 
about the veterans.
    We veterans don't have any idea where this piece of paper or that 
record is after all of this time. Regarding military records we 
veterans don't have any idea were our records are kept and apparently 
the military doesn't know either. I was up late at night, digging 
through boxes, looking for records to prove I was in the Army, that I 
was in the Gulf War, and that I had been in combat and that I had all 
of the necessary stressors to qualify for VA assistance. The memories 
that going through all of those materials from my Army days was very 
painful.
    With the help of American Legion Service Officer Gregg Demarais, I 
received a PTSD rating from the VA. But the issues with my foot have 
not yet been addressed. My medical records from Fort Riley are missing. 
I've spent hours on the telephone, I've sent faxes and I've sent e-
mails. But after months of trying, no one can find my records. The 
hospital at Fort Riley says they do not have the records of the 
surgeries on my foot. I have contacted the National Personnel Records 
Center in St. Louis many, many times. But I still do not have the 
records of the multiple surgeries on my foot. Until I can obtain those 
records and present them to VA, I cannot pursue the rest of my case.
    This is very frustrating and very time consuming. I understand why 
so many people just give up. We need to better assist veterans in need. 
There needs to be improvement in the communications between VA and 
other agencies in tracking down records. Whether it's through 
technology or something else, they need to be able to do it faster and 
more accurately so that they can avoid situations that cause needless 
delays by sending requests back and forth, over and over again, with no 
answers to provide to veterans.
    The system CAN work however. Now that I am finally in the VA health 
care system, some good things have happened. Doctors operated on my arm 
and repaired nerve damage and restored feeling to my fingers. I'm 
enrolling in college right now and I'm going to pursue a business 
degree. I also try and help my fellow veterans get enrolled in the VA 
system, and, when they need it; get into a drug and alcohol treatment 
program. I am happy to use my experiences to help, but I see many 
veterans go through the same frustrations that I have gone through.
    I'm proud of my service and I'm grateful for the assistance I have 
received. But there has to be a way to make this easier for all of us.
    Thank you again for the opportunity to testify today. I look 
forward to any questions you may have.

                                 <F-dash>
  Prepared Statement of Robert Jackson, Assistant Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
MR. CHAIRMAN, RANKING MEMBER LAMBORN AND MEMBERS OF THE SUBCOMMITTEE:

    Thank you for the opportunity to provide testimony before this 
Committee on the VA claims processing system. The 1.8 million men and 
women of the Veterans of Foreign Wars of the U.S. appreciate the voice 
you give them at these important hearings.
    Mr. Chairman, I have worked for the VFW approximately 18 months. 
When I began working in my current position, a VFW colleague welcomed 
me, handed me a copy of the VA's rating schedule, and explained that I 
would need to become acquainted with the material in order to 
understand how the VBA goes about conducting its business. I am sure 
you are all familiar with this thick manual and no doubt understand the 
instant panic that set in as I began thumbing through the pages.
``How on Earth can anyone make sense out of this?''
    I imagine that a newly hired VA rating specialist probably feels 
pretty much the same way on their first day, understanding that he or 
she will have to spend a good 2 years of training and referring to this 
manual (and other VA regulations), and at least another year getting 
comfortable with the VA claims system to get to the point to where the 
rating specialist becomes somewhat proficient in assessing veterans 
claims. I note this because I believe it is important to understand 
that simply increasing the number of VA rating specialists (as the VA 
has done over the past couple years) will not significantly reduce the 
claims backlog in a fashion considered timely by this Committee, the 
VSO representatives at this table, and most importantly the very 
veterans this system was developed to serve. I use this example as a 
starting point in order to advance our discussion to what I believe is 
a self-evident truth:

       There is no quick fix to VBA . . . only the opportunity for 
steady and deliberate improvement.

There is No Magic Bullet
    Perhaps it is time we recognize that the world has changed. There 
has been a silent paradigm shift over the past 30 years. If for no 
other reason than judicial review, the Veterans Claims Assistance Act 
(VCAA) and the budgetary environment that exists today, it may be time 
to acknowledge that the VA cannot be staffed at such levels as will 
allow it to produce quality decisions in the same period those earlier 
generations of VA workers achieved.
    The converse of this may be to acknowledge that the better 
production and timeliness levels achieved in the 1950s and `60s may 
very well have been accomplished because there was less attention paid 
to procedural rights and that the VA may have exhibited a rather 
cavalier attitude when it came to interpreting the law and its own 
regulations.
    Whether you agree with either view of history, the initial point 
remains; the world in which the VA operates has changed and it may no 
longer be realistic to expect accurate benefit decisions in a short 
period of time. There are still things that can be done to improve 
production, reduce backlogs (although perhaps not at the rate we all 
would like to see) and ensure claims are completed with quality.
Getting it right the first time
    We believe the greatest benefits can be found by fixing the front 
end of the claims operation. Most court decisions today focus on 
procedural problems stemming from notice to claimants and development, 
or failures to properly develop evidence. The VCAA was created because 
VA would sometimes take shortcuts in the claims development period, 
failing to give claimants adequate notice of what they needed to 
produce to prove their claims. However, as we have seen since its 
passage, it is quite possible to become bogged down in the notice 
requirements while attempting to dot every ``i'' and cross every ``t''.
    We support the VCAA because we believe it helps level the playing 
field for veterans. The VA has the knowledge of what is required in 
order to grant or increase benefits to veterans. They are required to 
pass that knowledge on so that claimants know, too, and can focus their 
energies in obtaining the necessary evidence to perfect their claim.
    This is not rocket science. If a veteran claims service connection 
for the residuals of a knee injury, the VA can tell her that she needs 
to show that she has a disability of the knee now, that she injured the 
knee in service or something that happened in service caused a knee 
problem and to provide VA with medical evidence that shows the current 
problem to be related to the event in service. These are the same three 
things that have always been required to prove service connection.
    The requirements for obtaining an increase in benefits are equally 
finite: a claimant must show that their service-connected disability 
has worsened sufficiently to obtain a higher evaluation. In order to 
obtain an increase for that knee problem, the veteran must show the 
existence of arthritis in the joint which limits motion or causes pain, 
or demonstrates instability in the joint.
    Again, this is not rocket science. Software could be developed that 
allows a VSR in a Pre-Determination team to simply answer a question on 
a computer screen concerning whether the claim is for service-
connection or an increase and what the claimed condition is. Now, as 
you suspect, the computer can generate paragraph after paragraph 
explaining what is required and if the veteran is claiming 12 
conditions then the letter can become quite long. Yet, if the object is 
to ensure that claimants have the information necessary to perfect 
their claims then it can be done with properly programmed computers. 
Further, these software programs can be made available to claimants in 
a simple, easily accessed, public Web site. Any curious veteran could 
enter the Web site, answer a series of simple questions and receive 
detailed information on what is needed to obtain the benefit.
Technology, technology, technology
    We have testified before this Committee in the past, and continue 
to believe, that if VA takes advantage of the rapid advances in 
technology they will be able to create efficiencies that currently do 
not exist. For instance, the VA currently has thousands of all 
electronic claims files. These cases are largely Benefits Delivery at 
Discharge (BDD) cases and the electronic claims files offer VA a unique 
opportunity to create a separate office to handle all electronic 
claims, allowing the VA to experiment and create an environment 
unencumbered by paper files. Imagine the possibility of having two or 
three Rating VSRs located in separate sections of a building reviewing 
one claims file and making decisions on different elements of the claim 
simultaneously. The efficiencies that such a system creates could be 
significant.
    We understand that VA is establishing a claims processing 
laboratory in Providence, RI to explore and develop these efficiencies. 
We welcome this effort and look forward to viewing the results of this 
work in the years to come.
    What about the millions of existing paper claim files? VA 
rightfully believes that copying these files would be cost prohibitive. 
We agree. However, VA receives thousands of requests each year for 
copies of claims files. Currently each file is photocopied and sent to 
the claimant. What if each office was equipped with a scanner so that 
instead of photocopying the file, it is scanned. The claimant would 
still receive a paper copy of the file and at the same time, the VA 
would have yet another electronic record.
Back to the Future
    Within 2 years of the conclusion of World War II, more than 16 
million service men and women were released from active duty. Millions 
filed claims with VA for compensation. Why wasn't the VA overwhelmed? 
There are numerous answers to the question, including:

    <bullet>  Veterans claimed fewer disabilities than at present.
    <bullet>  There were no due process requirements in the law and VA 
procedures required little more than acknowledgement of a claim and 
notice of the final decision.
    <bullet>  VA was not obligated to help veterans obtain private 
records.
    <bullet>  VA could and did make decisions after receipt of service 
medical records but before all records were received. When additional 
records were received, VA reviewed those records in context with other 
evidence of record and made a new decision.
    <bullet>  VA frequently evaluated disabilities based on service 
discharge examinations.

    All of these facts allowed the VA to make claim decisions quickly. 
Reexaminations were frequent and allowed VA to increase or reduce 
evaluations as disabilities worsened or improved.
    Today, claims development takes longer. Quite simply, Congress 
recognized that past procedures and practices by VA were not always 
veteran friendly, did not adequately tell veterans what was needed and 
often led to decisions based on less than all the available evidence. 
Decisions are longer because Congress decided that veterans should be 
told what evidence was considered and why benefits were denied or 
granted. Appeals take longer to resolve because of increased 
evidentiary and notice requirements, the introduction of an additional 
review level with Decision Review Officers and the need to satisfy all 
judicial mandates.
    The fact is that there is nothing inherently wrong with any of 
these changes. Those decisions were all needed to fix recognized 
problems and abuses.
    Having said that, the question still remains; how do you devise a 
system that allows VA to make decisions rapidly without increasing 
mistakes, is not costly either to the veteran or the American people, 
and continues to provide veterans with the protections that have been 
built into the law over the past 60 years?
    Jerry Manar, with four other retired VA alumni, has developed a 
process that incorporates the best practices of a post WWII claims 
system to make expedited provisional decisions based on existing 
records. This proposal, which calls for the creation of a test program 
entitled the Provisional Claims Processing Program, would grant 
benefits on limited information quickly but with quality.
    Limited to servicemembers leaving the Armed Forces or recently 
discharged veterans, evaluations would be based on existing evidence, 
understanding that benefits for some conditions may be denied when 
further development would enable VA to grant service connection under 
existing law. Conversely, it is understood that benefits, based on 
existing evidence, may not be service connected when all evidence is 
eventually developed and considered. Consequently, a grant of benefits 
for any disability is not a grant of service connection entitling the 
veteran to protections afforded by existing law and regulation.
    Under this program, full development, a VA examination and a new 
decision would be required 4 years after the initial provisional 
rating. Provisional decisions made under this program would have no 
precedent value and service connection for all disabilities, including 
any new condition the veteran chooses to place into contention, would 
be made during the review at the 4-year point.
    This program would restore the rapid delivery of benefits based on 
current rating standards, while still maintaining veterans' rights 
under a system of protections carefully crafted by Congress over the 
past 60 years. It should dramatically increase decisions on original 
claims while allowing the bulk of VFW's field staff to concentrate on 
resolving the existing backlog.
    More importantly, this program would provide a win for new 
veterans. In exchange for agreeing to wait for a final decision, they 
receive a provisional decision and benefits in a matter of weeks 
instead of more than 6 months. If properly structured the VA could 
fulfill the promise it made with the BDD program that a decision could 
be made prior to discharge.
    Further, veterans have the right to choose which program they 
participate in AFTER they know what the provisional decision awards. If 
they disagree with the provisional decision, they need not accept it. 
And, since they know that the current program may take 6 months or more 
to produce a decision, their conscious choice to accept the wait should 
reduce the number of complaints and consequent pressure on Congress.
    We will be more than happy to provide you with copies of this 
proposal.
    Mr. Chairman, these suggestions and ideas, in and of themselves, 
will not solve the backlog, timeliness and quality issues plaguing the 
VA today. However, if adoption of these and similar proposals each 
result in steady and deliberate improvement, we believe the cumulative 
effect will be sufficient to achieve reductions in workload and 
improvements in quality and service to veterans, their families and 
survivors.
    This concludes my statement. I would be happy to respond to any 
questions you may have.

                                 <F-dash>
   Prepared Statement of Kerry Baker, Assistant National Legislative 
                  Director, Disabled American Veterans

Mr. Chairman and Members of the Subcommittee:

    I am pleased to have this opportunity to appear before you on 
behalf of the Disabled American Veterans (DAV), to address problems and 
suggest solutions to the Department of Veterans Affairs (VA) disability 
claims process.
    The claims process is complex and poorly understood by veterans, 
service representatives, and even VA employees. The DAV has presented 
this Committee with our comprehensive suggestions for a 21st Century 
Claims Process. Our suggestions are intended to simplify the process by 
drastically reducing delays caused by superfluous procedures while 
simultaneously preserving governmental resources and reducing 
governmental expenditures.
    The DAV's 21st Century Claims Process represents an ambitious but 
achievable goal. As such, the proposal concedes that the VA achieves 
certain milestones with assistance from Congress. Essentially, the 
DAV's plan consists of three major components--a legislative package, 
an information technology (IT) package, and a claims process 
reorganization.
    While all three of the components obviously complement each other, 
any of the three components will individually enhance the efficiency of 
the claims process. The benefit to this approach is that all three 
portions are not required to be implemented simultaneously, as would be 
the case in an ``all-or-nothing'' approach.
    We also focused on this challenge with the realization of current 
economical restraints. Therefore, with the exception of the initial 
startup for the IT package, our plan does not require large government 
spending, not even increased VA staffing. Over time, the cost savings 
of this proposal would be significant.
    Of important note is that all of the legislative/administrative 
recommendations can and should be implemented immediately. These 
changes are not only vital to the success of this proposed process, but 
will also bring cost-savings efficiency to the current claims process--
efficiency equaling more than 100,000 reduced work hours annually, 
reduced initial average claims processing time by at least 30-90 days, 
and a faster and more efficient appeals process.
    We have shared this proposal with Committee Staff, current and 
former VA officials, and other veterans' service organizations. Their 
recommendations were incorporated where feasible.
    In DAV's plan, the initial claims process (pre-appellate stage) 
essentially consists of adjudication stage one, adjudication stage two, 
and a rating team. Adjudication teams one and two will perform 
functions similar to the current triage and predetermination teams, but 
in a revised and more efficient format. The major difference--the 
backbone of the entire 21st Century System--is the Imaging Scanning 
Center (ISC)/drop box-mail point. All paper claims and paper in support 
of claims will be routed to the ISC for immediate imaging and inclusion 
into the electronic record, which should then be housed centrally and 
accessible by all points in VBA. The ISC and electronic records center 
(electronic warehouse) will be linked directly to each other with a 
dedicated and secure high-speed/high-bandwidth connection.
    This would prevent the VA from being forced to enhance its entire 
electronic infrastructure (a much more monumental task), as would be 
required if the VA had to electronically transport multiple claims 
files from point A to point B. Another benefit to the proposed system 
would be that any evidence received by the ISC would be viewable in the 
official record the following day. It currently takes many days, or 
even weeks, for VA to incorporate new evidence into a claims folder. 
Lost or incorrectly destroyed records would be a problem of the past.
    Upon receipt of the claim in ``team one,'' the claim would be 
analyzed on a data-centric form designed to display intent with respect 
to the type of benefit(s) claimed. This will facilitate immediate 
establishment of ``end product codes'' (or viable replacement system). 
In addition to utilizing data-centric forms for rapid claims 
identification and establishment, such data-centric forms and resulting 
codes will also be utilized to determine the kind of ``notice'' VA is 
required to send the claimant, and (as near as possible) the type of 
assistance VA is required to offer the claimant in developing the case.
    For example: In accordance with the foregoing, consider a veteran 
requesting an increased rating for a single service-connected 
disability who does not have supporting private treatment records 
(PTRs), and therefore only needs a current VA examination. The most 
practical claims form in this scenario would clearly annotate that said 
veteran is requesting an increased rating for XYZ disability and he/she 
has not received treatment outside of VA. Under the current process, 
said veteran is required to undergo the entire development process, 
despite that fact that said veteran only requires a current VA 
examination. Therefore, legislative amendments to VA's ``duty to 
notify/assist'' are necessary so as not to require VA to undertake 
futile development in such a case.
    If the same scenario occurred wherein said veteran had PTRs with a 
private doctor, such info must be clearly indicated on the claims form. 
The modified notification letter would then inform said veteran that VA 
requests he/she obtain the PTRs and submit them to VA (mailed to ISC) 
within 30 days. The same notification would also clearly and in 
understandable language inform said veteran that if, and only if, he/
she cannot or will not obtain PTRs, then VA will assist if veteran 
submits VAF 21-4142 (enclosed with notification only in cases where 
PTRs are indicated on claims form). Such notification should be clear 
that if the veteran does not require VA's assistance in obtaining 
records, then do not return, or issue VAF 21-4142.
    In addition to the foregoing change regarding development of 
private records, another legislative change to 38 U.S.C. 
Sec. Sec. 5103, 5103A should be incorporated that would allow the VA to 
sua sponte waive all notice and assistance under the Veterans Claims 
Assistance Act (VCAA) of 2001 when the VA determines that evidence of 
record is sufficient to award all benefits sought. Such a change would 
be instrumental in expediting numerous types of claims wherein the VA 
must currently follow all VCAA requirements despite having evidence 
sufficient to award benefits. (E.g., certain claims under 38 CFR 
Sec. Sec. 3.22, 3.309, 3.312, 3.350, 4.16, 4.28, 4.29, 4.30, etc.).
    The recommendation to allow the VA to waive, on its own, all notice 
and assistance for claims wherein the VA can award a full grant of 
benefits sought should be utilized in conjunction with section 221 of 
the Veterans Benefits Improvement Act of 2008. This section allows, 
among other things, veterans' representatives to use a checklist to 
annotate when no additional development is needed on a claim for 
disability compensation. There are many potential problems with this 
unregulated approach.
    However, if utilized in conjunction with this recommendation, such 
a checklist could be crafted in accordance with specific regulations as 
mentioned above. A memorandum of understanding (MOU) could then be 
drafted between the VA and all service organizations housing 
representatives within each regional office. The MOU should highly 
suggest that each representative screen cases that qualify under 
certain prescribed guidelines, and then deliver such cases directly to 
one to two designated VA rating specialists for no less than a 2-week 
turn around for rating such a case.
    This approach would not require VA employees to spend valuable time 
screening cases that could qualify under this expedited plan. It would 
also engage representatives in a more structured and less interest-
conflicting manner. If executed properly and maximized to its fullest 
potential, such a procedure could produce close to 100,000 rating 
decisions per year within 2 weeks processing time.
    Regarding other claims, the items team one can complete under this 
plan will require 1-3 days, but should never require more than 1 week. 
Under the current disability timeline, these same functions take 44 
days on average.
    Following completion of team one functions, the electronic claim 
immediately goes to team two. With the exam requested and the 
notification sent to the claimant (or waived), team two will require 
little or no action on the case. Team two serves primarily as a more 
advanced stage of development for those cases with more complexity, 
such as those requiring stressor or other service information 
verification, development of private records, or complexities returned 
from the rating team. Team two will not be forced to deal with many of 
the activities that complicate functions of its current equivalent, the 
pre-determination team. Therefore, team two will be able to provide 
much higher quality work in a more efficient manner to the final rating 
team, qualities the current pre-determination team cannot provide 
simultaneously.
    The actions of teams one and two must take place in a fluid, but 
accurate manner. If executed properly, many cases received by VA will 
be ready to rate within 30 days because the notice response (to the 
current VCAA process) will be complete as will any required 
compensation and pension (C&P) examinations. The rapid initiation and 
synchronized completion of these two milestones are the keys to success 
in this revised process.
    Many cases will inevitably require extended processing times due to 
development that cannot be streamlined because of inter-agency 
roadblocks, (i.e., combat-stressor development from the Department of 
Defense's Center for Research of Unit Records). However, many other 
cases, such as ones similar to the examples above, could be ready to 
rate much, much faster than 60 days because of considerably fewer 
developmental requirements.
    The 21st century process achieves, on average, at 30 days what the 
current paper-locked, procedure-heavy system achieves at approximately 
150-160 days.
    Once ready to rate within 30 days, the final rating team will have 
30 days in which to issue a decision, a process that currently takes 13 
days on average. With more time to review cases by the rating teams, 
contained within a much shorter overall processing time, decisionmakers 
can focus far more on quality than the current system allows, but 
without sacrificing production standards. This process will be greatly 
enhanced by even a modest rules-based rating system--one that will 
quickly and accurately process cases wherein there is nearly no room 
for debate, such as hearing loss and tinnitus ratings or paragraph 29/
30 ratings, among others.
    When VA issues a rating decision, an appeal election letter will be 
included. This will prevent VA from having to mail more than 100,000 
letters annually to claimants appealing their decision and will reduce 
the appellate processing time by 60 days. The letter will explain that 
any notices of disagreement submitted without electing a post-decision 
review (DRO) process will automatically be reviewed under the 
traditional appeal process. (The same thing currently happens if a 
claimant does not respond to the appeal election letter). This change 
can be accomplished administratively.
    A claimant wishing to appeal a decision will have 180 days in which 
to do so. This will require a legislative change. We realize that some 
may impulsively draw several inferences onto this idea. Those 
inferences will likely be misplaced--our ambitious goal is to take 
every opportunity in which to bring efficiency to VA's entire claims 
process so that it can better serve our Nation's disabled veterans. We 
must be open to change for such a goal to succeed.
    To put this issue into perspective, the average time it took the VA 
to receive a notice of disagreement (NOD) in 2008 was 41 days. In fact, 
92,000 out of just over 100,000 NODs were received within the first 6 
months of 2008.
    This is also an opportunity to bolster certain statutory rights for 
which the law is currently silent. When amending the appellate period 
from 1 year to 180 days, Congress must include an appellate period 
extension clause and equitable tolling clause to the appropriate 
section of law concerning NODs.
    Specifically, we recommend changing the law so that an appellant 
may, upon request, extend his/her appellate period by 6 months beyond 
the initial 6 months. We also suggest an amendment to provide for 
equitable tolling of the appellate period in cases of mental or 
physical disability so significant to have prevented a VA claimant from 
responding within the specified time.
    If the appeal is not resolved, the VA will issue a statement of the 
case with an amended VAF-9. The amendment will explain that evidence 
submitted after the appeal has been substantiated to the Board of 
Veterans Appeals (Board) will be forward directly to the Board and not 
considered by the regional office unless the appellant or his/her 
representative elects to have additional evidence considered by the 
Regional Office (RO). This opt-out clause merely reverses the standard 
process without removing any choice/right/etc. from an appellant. This 
change will result in drastically reduced appellant lengths, much less 
appellant confusion, and nearly (or more than) 100,000 reduced VA work 
hours by eliminating the requirement to issue most supplemental 
statements of the case. Whether this change requires a legislative 
amendment is currently debatable; it can nonetheless be executed 
through legislation in order to avoid potential litigation.
    The Appeals Management Center (AMC) is essentially a failure and 
should be disbanded. The AMC received nearly 20,000 remands from the 
Board in fiscal year (FY) 2008. By the end of FY 2008, the AMC had 
slightly over 21,000 remands on station. By the end of January 2009, 
they had approximately 22,600 remands on station. The AMC completed 
nearly 11,700 appeals, out of which 9,811 were returned to the Board, 
89 were withdrawn, and only 1,789 were granted. In fact, 2,500 appeals 
were returned to the AMC at least a second time because of further 
errors in carrying out the Board's instructions, over a 25-percent 
error rate. This means the AMC's error rate was higher than its grant 
rate. Such a poor record of performance would never be allowed to exist 
at an RO. Returning these cases to their respective jurisdictions will 
help ensure accountability, and most likely reduce the number of cases 
that proceed to the Board.
    The VA will require an additional ``administrative team'' that is 
not technically part of the claims or appeals process teams. This 
groups' function will be to handle daily tasks required by VA but that 
are not necessarily part of the ``claims process.'' These tasks include 
subordinate or administrative functions such as complying with records' 
requests under the Freedom of Information Act, serving as attorney fee 
coordinators, responding to informal claims, and many others that are 
administrative only. Currently, post- or pre-adjudication teams handle 
many functions for which they do not receive work credit and/or are 
otherwise not a required part of the claims process. Placing these 
functions under the responsibility of an administrative team dedicated 
solely for such tasks will free up resources that can be utilized 
specifically for claims processing, resulting in increased efficiency.
                   ADMINISTRATIVE/LEGISLATIVE CHANGES
    1.  Amend 38 U.S.C. Sec. 5103A(b) to indicate that VA will assist a 
claimant in obtaining private medical records when such assistance is 
requested by the claimant on a form prescribed by the Secretary. This 
will pave the way for some of the changes discussed above. (process 
time saved_30 to 90 days on average; work hours saved_unknown but very 
significant)
    2.  Amend 38 U.S.C. Sec. Sec. 5103, 5103A to allow the VA to sua 
sponte waive all VCAA requirements when it determines that evidence of 
record is sufficient to award all benefits sought. (process time and 
work hours saved are unknown but very significant)
    3.  Title 38 U.S.C.A. Sec. 5104(a) states, inter alia, that when VA 
notifies a claimant of a decision, ``[t]he notice shall include an 
explanation of the procedure for obtaining review of the decision.'' 38 
U.S.C.A. Sec. 5104(a). An appeal election choice is part of that 
notice; therefore, the VA could modify 38 CFR Sec. 3.2600 in order to 
facilitate the changes suggested above. (process time saved_60 days per 
appeal; work hours_approx 50,000)
    4.  Congress should decrease the period in which a VA claimant may 
submit a timely notice of disagreement to the VA following the issuance 
of a VA rating decision from 1 year to 6 months by amending 38 U.S.C. 
Sec. 7105.
    5.  Amend 38 U.S.C.A. Sec. 7104 in a manner that would specifically 
incorporate an automatic waiver of RO jurisdiction for any evidence 
received by the VA, to include the Board, after an appeal has been 
certified to the Board following submission of a VA Form 9, unless the 
appellant or his/her representative expressly chooses not to waive such 
jurisdiction. See para 9. (process time saved_60 to 180 days for 
affected appeals at local offices; at least 2 years for appeals 
otherwise subject to remand; work hours_in excess of 50,000 at local 
offices, unknown but significant at the Board)
    6.  Average total savings, 30 to 90 days pre-appellate stage. 
Average total savings for pre and post appellate cases (cumulative); 90 
days minimum in most cases and as much as 90 to 330 days pre-remand. 
Potentially 3 years post remand for affected cases.

         All of the above changes can and should be implemented as soon 
as possible. They will adapt to the current process and produce 
immediate results.

    7.  Disband the Appeals Management Center and return remanded 
appeals to original rating team.
    8.  VA will be required to amend its claims form (VAF 21-526) as 
well as create and specify the form that must be used (post 21-526) for 
all re-opened and new formal claims.
                               CONCLUSION
    We are confident these recommendations, if enacted, will help 
streamline the protracted claims process and drastically reduce undue 
delays. Some of the recommendations contained herein may appear novel 
and/or controversial at first; they may even draw criticism. However, 
such a response would be misdirected. These recommendations are 
carefully aimed at making efficient an inefficient process without 
sacrificing a single earned benefit.
    Mr. Chairman, we have provided your staff as well as the staffs of 
Chairman Filner, Ranking Member Buyer, Chairman Akaka, and Ranking 
Member Burr with a copy of the DAV's proposal.

                                 <F-dash>
      Prepared Statement of Rachel Natelson, Esq., Legal Advisor, 
                     Service Women's Action Network

Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to present the views of the Service 
Women's Action Network (SWAN) concerning the rising backlog of VA 
benefits claims.
    SWAN is a nonprofit service organization founded to improve the 
welfare of current U.S. servicewomen and to assist all women veterans. 
SWAN offers personal support and guidance from fellow women veterans, 
provides legal and counseling services from military law experts and 
caseworkers, recommends sound policy reform to government officials, 
and educates the public about servicewomen's issues through various 
media outlets. Conceived as a support network by and for women 
veterans, SWAN serves all military women, regardless of era, 
experience, or time in service.
                               Background
    Under current law, the VA claims application process is a uniquely 
time-consuming one, hobbled by requirements that exist at neither the 
Social Security Administration nor private insurance companies. As this 
Subcommittee knows, the agency requires all applicants to prove by 
documentary evidence not only that they are disabled but also that 
their disabilities stem directly from military service. As labor-
intensive for reviewers as for claimants themselves, this system has 
yielded an application process that routinely lasts for years, 
culminating in the existing backlog of over a million claims.
    While the claims process imposes a toll on all veterans seeking 
benefits, its burden falls with particular weight on those with Post-
traumatic stress disorder (PTSD), who must identify the specific 
stressor that triggered their condition, even if they have already been 
diagnosed and referred to treatment. Deeming the symptoms of PTSD 
``relatively easy to fabricate,'' the VA Clinician's Guide directs 
examiners to base the validity of claims on elaborate documentation 
from claimants' family and friends concerning changes from pre- to 
post-service status.\1\
---------------------------------------------------------------------------
    \1\ See, VA Clinician's Guide, 14.10 (2002).
---------------------------------------------------------------------------
    To date, the agency has defended this system as a precaution 
against fraud. According to one VA spokeswoman, eliminating the proof 
requirement ``would be a travesty for veterans--an assault to the pride 
of honest soldiers when other vets scammed the system.'' \2\
---------------------------------------------------------------------------
    \2\ Joshua Kors, ``How the VA Abandons Our Vets,'' The Nation, 
Sept. 15, 2008, p. 15.
---------------------------------------------------------------------------
    Such cynicism, however, hardly seems justified by actual numbers; 
not only are 50 percent of rejected claims reversed at the first level 
of appeal, but 90 percent of claims that reach the final stage of 
review are ultimately approved. Similarly, studies indicate that 
existing evidence fails to support the assumption that veterans would 
misreport or exaggerate PTSD symptoms in order to receive compensation.
    In recent years, a number of veterans groups have sought relief 
from the VA in Federal court, arguing that the agency's failure to 
issue claim decisions within a reasonable timeframe violates the 
Administrative Procedure Act as well as Constitutional due process 
rights. When confronted with this charge, the VA has countered that 
given the dictates of current law--most notably the proof requirement--
the adjudication and appeals process cannot help but take as long as it 
does. It is urgent, therefore, that the existing legislative framework 
for VA benefits be reassessed.
                 Special Challenges for Women Claimants
    Although the benefits application process is labor-intensive and 
emotionally taxing for all claimants, women veterans face particular 
challenges in obtaining disability compensation from the VA. To begin, 
studies indicate an institutional bias in favor of claimants with 
combat experience, an advantage which disproportionately favors men. 
Not only do claim processors fail to understand the degree to which 
women are effectively, if not nominally, serving in combat positions, 
but they also fail to appreciate the extent to which servicemembers in 
non-combat occupations and support roles are exposed to traumatic 
events.
    Among the most pervasive stressors experienced by military women 
are incidents of sexual assault and harassment. The prevalence of 
sexual assault in the military is hardly news, and has been the subject 
of a number of recent Congressional hearings and Pentagon reports. By 
some accounts, nearly a third of female veterans report episodes of 
sexual assault during military service, while 71 to 90 percent report 
experiences of sexual harassment. These experiences are closely 
associated with PTSD in a variety of studies; in fact, military sexual 
assault is a stronger predictor of PTSD among women veterans than 
combat history.\3\ Likewise, studies indicate that sexual harassment 
causes the same rates of PTSD in women as combat does in men.\4\
---------------------------------------------------------------------------
    \3\ Murdoch Murdoch, et al., ``Gender Differences in Service 
Connection for PTSD,'' Medical Care 41, no. 8 (2003), 950-961.
    \4\ Murdoch Murdoch, et al., ``The Association between In-Service 
Sexual Harassment and Post-traumatic stress disorder among 
Compensation-Seeking Veterans,'' Military Medicine 171, no. 2 (2006), 
166-173.
---------------------------------------------------------------------------
    In spite of this correlation, the VA grants benefits to a 
significantly smaller percentage of female than male PTSD claimants.\5\ 
This disparity stems largely from the difficulties of substantiating 
experiences of military sexual assault, especially in a combat arena. 
Under military regulations, for example, sexual harassment 
investigations are only retained on file for 2 years from the close of 
each case.\6\ While criminal investigations of sexual assault are 
better documented, 80 percent of assault victims fail to report the 
offense and over 20 percent of those who do file reports opt for a 
``restricted'' mode that precludes official investigation.\7\
---------------------------------------------------------------------------
    \5\ Committee on Veterans' Compensation for Post-traumatic stress 
disorder, Institute of Medicine and National Research Council of the 
National Academies, PTSD Compensation and Military Service (Washington 
DC: The National Academies Press, 2007), p. 192.
    \6\ Army Regulation 600-20, EO/Sexual Harassment Complaint 
Processing System, p. 97.
    \7\ U.S. Department of Defense, FY08 Report on Sexual Assault in 
the Military, p. 6.
---------------------------------------------------------------------------
    Although training and reference materials for raters provide a 
great deal of guidance on how combat medals and commendations may be 
used to support PTSD claims, they make little mention of how to address 
the challenges of documenting military sexual assault as an in-service 
stressor. As a result, reviewers tend to rely on a limited group of 
behavior changes in determining the validity of MST claims, often 
denying them if they fail to conform to a rigid set of expectations. 
Many raters, for example, deny MST claims from veterans with 
distinguished service records based on the assumption that assault 
victims invariably decline in their job performance.
    Perhaps most frustrating is the tendency of claim processors to 
ignore or second-guess the evaluations of treating physicians within 
the VA health system, particularly with respect to mental illness. 
Despite the fact that the majority of my own clients have submitted MST 
diagnoses from VA counselors, most have received decisions indicating 
that they have failed to establish the condition, much less connect it 
to their service history. By refusing to recognize the soundness of VA 
medical provider reports, reviewers both protract the application 
timeline and compromise the healing process for claimants.
    To quote one veteran who recently contacted SWAN about an MST claim 
she filed 4 years ago and for which she has yet to receive a hearing 
date, ``I was raped twice while on active duty . . . I understand that 
this is a waiting game, but every day I think about giving up . . . I 
feel as though through this process I am being raped for a third 
time.'' Moreover, just as claim denial can undermine the efficacy of 
treatment, studies have indicated that approval tends to result in 
increased use of mental-health services.\8\
---------------------------------------------------------------------------
    \8\ Committee on Veterans' Compensation for Post-traumatic stress 
disorder, PTSD Compensation and Military Service, p. 179.
---------------------------------------------------------------------------
                            Recommendations
    The Institute of Medicine Committee on Veterans' Compensation, a 
panel of experts convened by the VA to examine PTSD compensation 
issues, has proposed a number of sound recommendations based on its 
research. The Committee has suggested that the agency: 1) collect 
gender-specific data on MST claim decisions, 2) develop additional MST-
related reference materials for raters, and 3) incorporate training and 
testing on MST claims into its rater certification program.\9\ The VA 
should implement these proposals in order to sensitize claim reviewers 
to the needs of assault and harassment victims.
---------------------------------------------------------------------------
    \9\ Ibid., 194.
---------------------------------------------------------------------------
    In light of plans to create a comprehensive electronic records 
system for military personnel, the Department of Defense and the VA 
have an unusual opportunity to address the problem of documenting in-
service incidents of sexual assault and harassment. In order to ensure 
that records of harassment and assault complaints may be accessed in 
support of VA claims, the military should incorporate, upon request, 
such investigative files into the proposed Joint Virtual Lifetime 
Electronic Record. While such a step would not address the issue of 
under-reporting, it would at least improve the accessibility of 
existing records.
    The VA should also establish a presumption of soundness for the 
diagnoses of its own treating physicians and counselors. Claim 
reviewers should not have the authority to second-guess evaluations by 
agency medical professionals or to discount VA treatment records in 
favor of one-time Compensation and Pension (C&P) exam results. 
According to the IOM Committee, C&P examiners have reported feeling 
particular pressure to limit the time they devote to PTSD and MST 
evaluations, sometimes to as little as 20 minutes.\10\
---------------------------------------------------------------------------
    \10\ Ibid., p. 178.
---------------------------------------------------------------------------
    SWAN also supports H.R. 952, which would create a statutory 
presumption of service-connection for OEF and OIF veterans with PTSD 
and Traumatic Brain Injury (TBI). However, since statistics suggest 
that servicewomen are more likely to be sexually assaulted outside of 
combat zones than during deployment, we would propose extending such a 
presumption to all veterans who suffer from a traumatic event while in 
service. According to the Pentagon's 2008 Sexual Assault Prevention and 
Response Office (SAPRO) report, fewer than 10 percent of the assault 
incidents reported last year occurred in combat zones.\11\
---------------------------------------------------------------------------
    \11\ U.S. Department of Defense, FY08 Report on Sexual Assault in 
the Military, p. 41.
---------------------------------------------------------------------------
    Finally, SWAN proposes revising the current VA work credit system, 
which paradoxically prolongs the adjudication process by privileging 
speed over accuracy in initial claim determinations. By measuring 
employee productivity strictly by number of cases processed, the VA 
offers reviewers an incentive to take any shortcut necessary to clear 
their desks of pending claims. The resulting combination of too much 
work and too little time ultimately gives rise to premature--and 
inaccurate--determinations, setting in motion years of appeals. In 
order to encourage accurate determinations at the Regional Office level 
and remove the incentive to recycle claims, the agency should award 
work credit only after the final stage of review.
    Thank you very much for your attention. I would be happy to answer 
any questions that the Subcommittee might have.

                                 <F-dash>
Prepared Statement of Lieutenant General James Terry Scott, USA (Ret.),
        Chairman, Advisory Committee on Disability Compensation,
                  U.S. Department of Veterans Affairs
    Chairman Hall, Ranking Member Lamborn, Members of the Subcommittee: 
It is my pleasure to appear before you today representing the Advisory 
Committee on Disability Compensation. The Committee is chartered by the 
Secretary of Veterans Affairs under the provisions of 38 U.S.C. and 546 
in compliance with P.L. 110-389 to advise the Secretary with respect to 
the maintenance and periodic readjustment of the VA Schedule for Rating 
Disabilities. Our charter is to ``(A)ssemble and review relevant 
information relating to the needs of veterans with disabilities; 
provide information relating to the character of disabilities arising 
from service in the Armed Forces; provide and on-going assessment of 
the effectiveness of the VA's Schedule for Rating Disabilities; and 
provide on-going advice on the most appropriate means of responding to 
the needs of veterans relating to disability compensation in the 
future.''
    The Committee has met eight times and is drafting an interim report 
to the Secretary that addresses our efforts to date. Our focus is in 
three areas of disability compensation: Requirements and methodology 
for reviewing and updating the VASRD; adequacy and sequencing of 
transition compensation and procedures for servicemembers transitioning 
to veteran status with special emphasis on seriously ill or wounded 
servicemembers; and disability compensation for non-economic loss 
(often referred to as quality of life).
    You asked me to present my views on the issues surrounding the VA's 
disability claims processing system. The Committee's charter and 
efforts to date have addressed the processing system only in the sense 
that an updated and clarified Rating Schedule will enable examining, 
rating and reviewing officials to make a more accurate and timely 
assessment of a veteran's disability and its effect on his or her 
average earnings loss. An updated and clarified Rating Schedule should 
improve first time accuracy and reduce the number of appeals and the 
backlog that appeals create.
    Recent studies by the Veterans Disability Benefits Commission, the 
Institute of Medicine, the General Accounting Office and others have 
consistently recommended a systematic review and update process for the 
VASRD. The Congress has repeatedly demanded the same. I believe that 
the case for such a system is made. My Committee has informally 
recommended to the Secretary that the Deputy Secretary be tasked with 
oversight of the VASRD systematic review and update process to insure 
that the VBA, VHA and General Counsel are fully integrated into the 
process. We are also offering a proposed level of permanent staffing in 
both VBA and VHA to insure that all fifteen body systems are reviewed 
and updated, as necessary, in a timely way. We are proposing a priority 
among the body systems that takes into account the following: body 
systems that are at greatest risk of inappropriate evaluations; body 
systems are considered problem prone, and relative number of veterans 
and veterans' payments associated with each body system.
    Regarding disability compensation for non-economic loss, also 
referred to as quality of life, we are reviewing the Special Monthly 
Compensation program and analyzing options for forms of compensation 
beyond a monetary stipend.
    Regarding disability compensation related to transition from 
servicemember to veteran status, we are reviewing the many recent 
changes and improvements to the transition programs to determine if and 
where gaps in coverage and assistance may remain for veterans and 
families. We are also reviewing the Vocational Rehabilitation and 
Education program as it relates to transition for disabled veterans.
    In summary, our Committee's work is progressing on a broad front. 
The parameters of our charter offer us the opportunity to look at all 
aspects of disability compensation and we are doing so. The Committee 
has excellent access to the Secretary and his staff. The VA staff is 
responsive and helpful to the Committee's requests for information. It 
is our intent to offer interim reports to the Secretary semi-annually.
    Mr. Chairman, this concludes my statement. I welcome any comments 
or questions.

                                 <F-dash>
   Prepared Statement of Michael Ratajczak, Decision Review Officer,
     Veterans Affairs Cleveland Regional Office, Veterans Benefits
 Administration, U.S. Department of Veterans Affairs, on behalf of the 
          American Federation of Government Employees, AFL-CIO

Dear Chairman and Members of the Subcommittee:

    Thank you for the opportunity to testify today on behalf of the 
American Federation of Government Employees, AFL-CIO (AFGE), the 
exclusive representative of employees in the Veterans Benefits 
Administration (VBA).
    I currently serve as a Decision Review Officer (DRO) at VBA's 
Cleveland Regional Office, and have been employed with VBA for almost 8 
years. My other experiences at VBA include duties with the Appeals 
Management Center, work on a joint remand quality review project with 
the Board of Veterans Appeals, service in a Rating Resource Center, and 
participation in Rating Specialist (RVSR) and DRO Certification Testing 
Design Committees and question writing activities. Prior to my 
employment with VBA, I practiced law.
    Can the VA handle 1 million claims? We can and we must because we 
cannot fail those who have never failed us. AFGE and the VBA employees 
we represent--many of whom are veterans themselves--are committed to 
working tirelessly with the VA and Congress to reduce the backlog to 
ensure that veterans' claims are processed with accuracy and 
timeliness.
    We are very encouraged by Secretary Shinseki's commitment to 
restoring a working environment where employees on the frontlines are 
viewed as part of the solution, rather than part of the problem. We are 
equally appreciative of Chairman Hall's consistent interest in 
receiving AFGE's views on this issue.
    The valuable tools provided by P.L. 110-389 to modernize the VA 
disability claims process were also the product of an inclusive dialog 
between stakeholders. These tools--including improvements in employee 
certification and training, studies to overhaul the current work credit 
and work management systems, and enhanced information technology (IT)--
will significantly reduce an inventory of one million claims or any 
other size. The urgency of putting these tools into practice grows 
greater with each new claim in the queue. These tools are crucial for 
achieving the most important objective of all: do each claim right the 
first time.
Skills Certification and Training
     The requirement in the new law to require some managers to take 
skills certification tests will yield multiple benefits for VBA's 
efforts to address the million claims backlog. Our members regularly 
report that they are supervised by managers who have little or no 
experience performing the complex functions involved in processing 
disability claims, rendering their roles as mentors and trainers 
ineffective. Managers without sufficient expertise are also unable to 
carry out quality assurance duties, leading to greater errors, which in 
turn lead to more appeals, remands and other delays.
    The requirement in the law that VBA consult with all stakeholders, 
including employee representatives, in order to improve the 
certification process will ensure the development of effective exams 
that test for appropriate skills.
    AFGE understands that the design process for certification testing 
of first line supervisors, Assistant Service Center Managers, and 
Service Center Managers is imminent or has already begun. 
Unfortunately, employee representatives have not been given the 
opportunity for input into this effort. VBA must include employee 
representatives in the design process to ensure that management 
certification is sufficiently rigorous, and therefore, adequately 
prepares managers and employees who perform quality review of the work 
of VSRs, RVSRs and DROs. Workplace morale also suffers when frontline 
employees work under intense pressure to adjudicate complex claims 
while supervised by managers who have not done and do not understand 
their jobs.
    The increased complexity of disability claims and additional duties 
also demand strong training programs for both new and current 
employees. AFGE members routinely report deficiencies in the training 
provided at ROs. These deficiencies range from failure to adequately 
advise employees of the impact of changes in the law to failure to 
ensure that the training program that certification is designed to test 
is complete. The provision in P.L. 110-389 for an independent 
evaluation of VBA's employee training programs is a crucial component 
of any strategy to expedite and improve the claims process.
    AFGE urges consideration of the following as part of this training 
study:

    <bullet>  The impact of inconsistencies between ROs in the number 
of hours that management sets aside for employee training;
    <bullet>  The feasibility of a centralized training program using a 
cadre of formally training instructors to provide RO training;
    <bullet>  Increasing manager accountability for noncompliance with 
training requirements, and the use of manager incentives to improve the 
quality of training programs.
Work Credit and Work Management Systems
    Production requirements driven by fiat and ignorance rather than 
evidence and analysis will only continue to create incentives for 
employees and managers to make quantity a higher priority than quality.
    VBA has yet to produce evidence that it has undertaken a reliable 
time and motion study that would enable it to develop an effective 
system for assigning work credit for different tasks in the claims 
process. Through the leadership of the Subcommittee and the passage of 
P.L. 110-389, this greatly needed study is closer to becoming a 
reality.
    An accurate work measurement system will lay the foundation for an 
effective work management system. Employee workload requirements must 
be ascertained by reference to valid empirical data. VBA must, with no 
preconceptions, identify how much an employee can reasonably be 
expected to do with an acceptable level of accuracy, and use that data 
to project the number of employees it needs to process its inventory. 
VBA has not adjusted individual employee production standards to 
reflect the increasing complexity and difficulty of the claims process. 
Instead, employees are subjected to arbitrary and unreasonable 
production standards that lead to inefficient and incomplete claims 
development. This failure has deprived claimants of full, fair, and 
timely consideration of their claims, and is largely responsible for 
VBA's increasing inventory of claims.
    We also endorse the requirement in this law to study ways to 
simplify the processes for gathering evidence and adjudication of 
claims. The insights of frontline employees who regularly confront 
inefficiencies in these processes will be invaluable to this effort.
    As part of the study's focus on measures to improve the 
accountability of claims process, AFGE recommends consideration of two 
issues: First, whether modifying the CPI (Claims Processing Initiative) 
would enable VBA to better address the backlog and quality problems; 
and, second, whether the increased use of the practice of brokering 
cases between ROs has also contributed to delays and quality 
deficiencies.
    Finally, the requirement that VBA identify ``lessons learned'' and 
best practices through analyses of each Regional Office will yield 
enormous benefits with minimal costs. Over the years, fewer and fewer 
ROs have set aside the time for claims processing employees to 
regularly exchange information with their colleagues about how to 
perform their jobs more effectively. This simple idea is a valuable 
learning and efficiency tool that is widely used in many other public 
and private sector workplaces and has been sorely lacking in many VBA 
workplaces.
Enhancement of Information Technology
    AFGE commends the Subcommittee for its efforts to move VBA beyond a 
series of unmet promises to fix its outdated IT systems through 
provisions in P.L. 110-389 for development of a comprehensive plan for 
technology to support consistent, accurate and objective claims 
processing.
    A paperless environment is a crucial first step toward this goal. 
The most immediate benefit of electronic files is the reduction of 
claims processing time. Adjudicators who can access electronic files 
will no longer need to delay processing of the claim until arrival of a 
physical file, and it will be possible to process co-existing claims 
simultaneously.
    AFGE recommends a two-step process for converting to a paperless 
environment. First, starting with new claims, scan all documents 
associated with initial claims received so that they are available to 
adjudicators in an electronic format. This will ensure that claims 
files going forward will be essentially electronic, and thus, enable 
VBA to begin the transition to a wholly paperless claims environment.
    Second, the contents of any existing claims file that is 
transferred from or between ROs (for example, as work brokered from one 
RO to another, or as an appeal to the Board of Veterans Appeals) should 
be scanned. Transfers of paper files result in significant cost and 
increase the risk of losing important documents. The scanning of 
transferred cases would also ensure that documents that are received 
after the transfer are properly associated with the file in the fastest 
and most efficient manner. In addition, by providing all adjudicators 
access to the same information, it would ensure that co-existing claims 
(for example, appealed issues and new claims) are worked accurately and 
simultaneously.
Is VBA making effective use of its expanded workforce and training 
        investment?
    Over the last several years, Congress has responded to the lack of 
staff to address the growing backlog by providing funding to expand 
VBA's claims processing workforce. AFGE urges the Subcommittee to 
investigate reports that significant numbers of new VSRs and RVSRs are 
fired during their probationary periods for poor performance even 
though they have not completed mandatory training. It is especially 
troubling that many of those losing their jobs are veterans who were 
recently hired under preference rules.
    Thank you again for the opportunity to testify on the urgency of 
implementing P.L. 110-389 to reduce the backlog.

                                 <F-dash>
                 Prepared Statement of Michael Walcoff,
 Deputy Under Secretary for Benefits, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs

Mr. Chairman and Members of the Subcommittee:

    Thank you for providing me the opportunity to appear before you 
today to discuss the Veterans Benefits Administration's (VBA) 
disability claims processing system and our efforts to improve 
processing and timeliness. I am pleased to be accompanied by Mr. 
Bradley G. Mayes, VBA's Director of the Compensation and Pension 
Service, and Mr. Scott Cragg, Executive Director and Program Manager 
for the Virtual Lifetime Electronic Record.
    My testimony will also focus on defining the backlog, improvement 
initiatives, our information technology modernization strategy, 
business transformation efforts, the Joint VA/DoD Virtual Lifetime 
Electronic Record, and the implementation of Public Law 110-389.
Defining Backlog
    A number of figures have been used to define the backlog of 
compensation and pension (C&P) disability claims at VBA. Before 
accepting any backlog figure, an explanation of the pending claims 
inventory at any given time should be considered. I will describe this 
pending claims inventory, and then relate it to the VBA's definition of 
backlog.
    The VBA's pending inventory includes all claims received, whether 
pending for just a few hours or as long as 6 months. Completed claims 
are continuously removed from the inventory while newly received claims 
are added. VBA maintains this pending inventory of claims, which are 
bundled into two categories: rating workload and non-rating workload.
    The rating workload is composed of original and reopened claims for 
disability compensation and/or pension. This workload is how VBA 
traditionally measures its claims inventory. These claims are 
considered to be the core of our claims processing activity because 
they represent Veterans awaiting an entitlement decision for service 
connected disability compensation or non-service connected pension 
benefits. At the end of May 2009, VBA's rating-related inventory was 
402,047 claims. Of these, 267,093, or 66.4 percent, were reopened 
claims, which include claims for increased benefits, newly claimed 
disabilities for Veterans who have previously filed claims, or 
additional evidence submitted to reopen a previously denied claim.
    Non-rating workload includes dependency adjustments on active 
compensation awards, income adjustments on pension awards, and 
eligibility determinations for ancillary benefits like auto, clothing, 
and special housing allowances. At the end of May 2009, non-rating 
inventory was 220,891 claims. This portion of VBA's workload varies 
during the year due to the cyclical nature of the income and 
eligibility verification processes associated with pension workload. 
During the second and third quarter of the fiscal year, it's not 
unusual to see fluctuations in inventory up to 50,000 claims.
    One major challenge in improving service delivery of compensation 
and pension benefits is the steady and sizeable increase in workload. 
During FY08, VBA received 888,000 rating claims and 755,000 non-rating 
claims for a total of more than 1.6 million, or 4,501 per day.
    Through May 2009, rating-related claims received are up 13\1/2\ 
percent during FY09 compared to the same period in FY08. Despite a 9.3-
percent increase in claims completed, the rating-related inventory has 
increased from 379,842 at the end of FY08 to 402,047 at the end of May 
2009.
    Although the inventory of rating claims has increased by 
approximately 22,000 this year, we have made progress in improving the 
timeliness of our decisions. During FY09, VBA has improved average days 
to complete on rating claims from 178.9 days at the end of FY08 to 
161.8 days at the end of May 2009. We have made similar progress in 
improving non-rating timeliness from 109.4 days at the end of FY08 to 
88 days at the end of May 2009. The combined FY09 timeliness for all 
rating and non-rating claims completed through May 2009 is 120.9 days.
    VBA's entire inventory of pending disability claims is frequently--
and incorrectly--referred to as the ``claims backlog.'' While we 
currently have approximately 400,000 claims in our inventory, the 
majority of these claims are not ``backlogged.'' The inventory is 
dynamic rather than static. It includes all claims received, whether 
pending for just a few hours or as long as 6 months. Completed claims 
are continuously removed from the inventory while new claims are added. 
This year we are averaging over 80,000 new claims added to the 
inventory each month.
    VBA's strategic goal for completing disability claims is 125 days. 
At the end of FY08, there were 139,333 rating claims pending more than 
125 days, or 36.7 percent of the pending inventory. During FY09, VBA 
has made progress in reducing the number and percent of inventory 
pending greater than 125 days. At the end of May 2009, rating 134,626 
claims, or 33\1/2\ percent of the inventory, were pending greater than 
125 days.
Improvement Initiatives
    VBA has aggressively hired across the Nation since the second 
quarter of FY07 and has hired nearly 4,200 new employees since January 
2007. Because it takes at least 2 years for a new employee to become 
fully trained in all aspects of claims processing, we're only now 
beginning to see the full impact of those employees hired at the outset 
of this initiative. During FY09 to date (through May 2009), VBA has 
completed 9.3 percent more than the same period during FY08 and 19.8 
percent more than the same period in FY07. We believe our newly hired 
workforce will continue to make progress in delivering more decisions 
to Veterans.
    In order to leverage the knowledge and experience of recently 
retired claims processors, VBA has hired back more than 90 recent 
retirees as rehired annuitants. These rehired annuitants assist in 
completing rating decisions and training and mentoring new employees.
    In September 2008, VBA partnered with Booz Allen Hamilton (BAH) to 
conduct a review of the rating-related claim development process to 
provide recommendations to improve the process with an emphasis on 
cycle time reduction. During their study, BAH interviewed VBA 
leadership, conducted site visits to regional offices and met with 
frontline employees. At the conclusion of their review, BAH recommended 
VBA apply Lean Six Sigma production practices to claims processing in 
order to facilitate claims movement, or flow, thereby reducing 
processing time. We are in the process of establishing a pilot to 
examine BAH's recommendations.
    We are pleased with recent progress to address the backlog, but not 
satisfied with current performance and strive for new methods for 
improvement.
Information Technology Modernization
    Not only is VBA working on process improvements to the claims 
processing system, we are also working on other changes as well. With 
regard to our information technology modernization strategy, VBA is 
investing in the migration of VBA compensation and pension claims 
processing to a paperless environment. We have successfully used 
imaging technology and computable data to support claims processing in 
our Insurance, Education, and Loan Guaranty programs for many years. 
Initial pilot efforts in our Compensation and Pension business line 
demonstrated the feasibility of using this type of technology for these 
benefit programs as well.
    At the core of our strategy is the implementation of a business 
model for Compensation and Pension processing that is less reliant on 
the acquisition and storage of paper documents. Our comprehensive plan, 
the Paperless Delivery of Veterans Benefits Initiative, is envisioned 
to employ a variety of enhanced technologies to support end-to-end 
claims processing.
    In addition to imaging and computable data, we will incorporate 
enhanced electronic workflow capabilities, enterprise content and 
correspondence management services, and integration with our modernized 
payment system. We are also exploring the utility of business-rules-
engine software both for workflow management and to potentially support 
improved decisionmaking by claims processing personnel.
    VA contracted with Electronic Data Systems (EDS) to serve as the 
lead systems integrator (LSI) for this effort. Fiscal year 2010 is our 
target year for release of the initial hardware and software in support 
of the large-scale expansion of the Paperless Initiative. The LSI 
effort is focused on the design of the technology solution, which will 
support enhanced paperless claims processing capabilities across VA. By 
committing to a paperless system, we will improve the efficiency and 
speed of claims processing.
Virtual Lifetime Electronic Record (VLER)
    VA and the Department of Defense (DoD) also continue to work 
collaboratively to define the scope and strategy for the Virtual 
Lifetime Electronic Record (VLER). Both Departments have agreed that 
the objective for VLER is to establish a coherent, lifetime electronic 
record that will capture Servicemember/Veteran information from 
accession into military service to interment, and include all 
information necessary to provide medical care, services, benefits, and 
compensation to the Veteran, eligible family members, or eligible 
beneficiaries.
    VLER will enable VBA to have a consolidated view of Veterans' data 
and leverage the exchange of accurate data from the authoritative 
source, in order to streamline claims processing.
Business Transformation Efforts
    While the use of advanced technologies is critical to our service-
delivery strategy, we must also address our business processes. To that 
end, VBA developed strategic partnerships with two recognized experts 
in the field of organizational transformation. MITRE Corp., a manager 
of federally Funded Research and Development Centers, has been 
supporting VBA on the VETSNET project since 2006. MITRE is now actively 
providing strategic program management support, as well as support for 
the overall Paperless Initiative, addressing multiple areas of focus.
    Additionally, Booz Allen Hamilton (BAH) was recently engaged by VBA 
to provide business transformation services. BAH is assisting VBA in 
business process re-engineering, organizational change management, 
workforce planning and organizational learning strategies to ensure 
that VBA is well-positioned to take best advantage of the technology 
solutions being developed.
    As another element of our comprehensive transformation strategy, 
VBA designated the VA Regional Office in Providence, Rhode Island, to 
serve as our Business Transformation Lab. The Business Transformation 
Lab will serve as the focal point for convergence of process re-
engineering and technology, assuring that service delivery is optimized 
and best practices are developed and deployed throughout VBA.
    We recognize that, while technology is not the panacea for our 
claims-processing concerns, it is the hallmark of a forward-looking 
organization. Our paperless strategy combines a business-focused 
transformation and re-engineering effort with enhanced technologies, to 
provide an overarching vision for improving service delivery to our 
Nation's Veterans.
Public Law 110-389
    I appreciate the opportunity to discuss VA's efforts in the 
implementation of Public Law 110-389. I will discuss VA's progress for 
each pertinent section of this law.
    Section 101 amends Title 38, United States Code, section 5103(a) to 
authorize the Secretary of Veterans Affairs to prescribe regulations on 
the content of the notice to be provided to claimants when they file 
claims with VA. Currently, VA is drafting regulations according to the 
specified requirements listed in section 5103(a) and with the intent to 
make notification letters to our clients more understandable and 
useful. Because of the legal complexities involved with the 
notification process and the potential impact on VA's ability to reduce 
the pending inventory of claims in the future, VA continues to 
carefully draft this regulation.
    Section 104 requires VA to submit a report to Congress describing 
the progress of the Secretary in addressing the causes of variances in 
compensation payments for Veterans with service-connected disabilities. 
A contract has been awarded to the Institute for Defense Analysis to 
conduct this assessment. A workgroup has been established and is 
working closely with the contractor to ensure a proper analysis and 
report is completed by October 2009.
    Section 105 extends the temporary authority for the performance of 
medical disability examinations by contract physicians. This amends 
section 704(c) of the Veterans Benefits Act of 2003 by extending 
temporary authority for performance of contract examinations to 
December 31, 2010. Because of this time extension, VA continues to 
expand this program to other areas of the country.
    Section 106 adds osteoporosis to disabilities presumed to be 
service connected in former prisoners of war (FPOWs) with Post-
traumatic stress disorder. A final rule to implement this provision has 
been drafted and is currently undergoing Executive Branch review. The 
final rule incorporates a determination by the Secretary that a 
presumption of service connection for osteoporosis in FPOWs will be 
established irrespective of the presence of PTSD.
    Section 212 added a new section 5121A entitled ``Substitution in 
case of death of claimant,'' to title 38. The new statute provides that 
if a claimant dies while his or her claim or appeal for any benefit is 
pending, a person who is eligible to receive accrued benefits can 
request to be substituted as the claimant to continue the claim. We are 
carefully analyzing various policy and procedural issues relating to 
substitution. We will draft a proposed regulation as soon as our 
analysis is completed.
    Section 213 directs the Secretary to submit a report to Congress on 
VA's findings and recommendations with respect to a report prepared by 
Economic Systems, Inc. (EconSys). EconSys conducted studies of 
compensation based on earnings loss, quality of life loss, and long-
term transition payments to Veterans undergoing rehabilitation for 
service-connected disabilities. VBA has completed its analysis and 
submitted findings and recommendations for the Secretary's review and 
approval.
    Section 214 requires the establishment of an Advisory Committee on 
Disability Compensation. This eleven-member Committee has met each 
month since its first meeting in November 2008. The Committee is 
directed to submit biennial reports to the Secretary, with the first 
report due no later than October 31, 2010. At its most recent meeting, 
the Committee heard testimony from, and dialogued with, the 
Compensation and Pension Service concerning VA's Schedule for Rating 
Disabilities and examination process. The Secretary's chief of staff 
also discussed the Secretary's priorities with the Committee.
    Section 221 requires VA to carry out two pilot programs. First, VA 
will carry out a 1-year pilot program to assess the feasibility and 
advisability of providing expeditious treatment of fully developed 
compensation and pension claims no later than 90 days after the date 
the claim is submitted. A second pilot will assess the feasibility and 
advisability of providing a claimant and his/her representative (if 
any) of a checklist containing information or evidence required for the 
claimant to submit to substantiate the claim.
    Regarding the first pilot, we are on-track to issue a report to 
Congress by December 9, 2009, as stipulated in the section. An all-
station letter implementing the pilot was issued on December 11, 2008, 
which identified the ten regional offices participating in the pilot. 
The letter directed that the claimant or representative (if any) must 
submit, along with the claim, an indication that the claimant does not 
intend to submit any additional information or evidence in support of 
the claim, and does not require additional assistance with it. The 
claim must be accompanied by a fully developed claim (FDC) 
certification signed and dated by the claimant and the representative 
(if any). Additional development will not be needed, other than 
scheduling a VA examination or obtaining records in the constructive 
custody of the Federal Government. For the purposes of this pilot 
program, the status of a fully developed claim may change if, during 
processing, we determine that the claim requires assistance beyond that 
required in the FDC criteria. A contract has been awarded to the Center 
for Naval Analyses (CNA) to review and report on results of the pilot.
    The second pilot under this section will assess the feasibility and 
advisability of providing a claimant and his/her representative (if 
any) with a checklist containing information or evidence required for 
the claimant to submit to substantiate the claim. We are also on-track 
to report on the pilot to Congress by December 9, 2009. An all-station 
letter implementing the pilot was issued on December 11, 2008, which 
identified the four regional offices participating in the pilot. This 
pilot will assess whether providing such a checklist will result in 
more frequent and timelier submission of evidence. This checklist, 
which provides claimants with a ``snapshot'' of the evidence/
information needed to substantiate a claim, will be used for original 
claims, claims to reopen, and claims for increased ratings. The 
duration of the pilot will be a year for original claims and 3 years 
for claims for an increase or reopened claims. The Center for Naval 
Analyses has also been awarded the contract for preparing an analysis 
and report upon the completion of this project.
    Section 222 directs the VA Secretary to establish an ``Office of 
Survivors Assistance'' to serve as a resource regarding survivors and 
dependents of deceased Veterans and servicemembers and serve as the 
Secretary's primary advisor concerning such issues. The Office was 
created on December 22, 2008, and set up under the Office of the 
Secretary. Four employees were immediately detailed to the Office to 
start working on the mission as defined by Congress. A Director and one 
permanent employee have been selected and the remaining personnel will 
be chosen soon.
    Section 223 directs that the Comptroller General submit to 
Congress, within 10 months after enactment of the law, a report on VA's 
Dependency and Indemnity Compensation (DIC) benefits that addresses the 
current system for paying DIC to survivors including the current rates; 
an assessment of the adequacy of DIC payments in replacing the deceased 
Veteran's income; and recommendations to improve or enhance the effects 
of the DIC payments in replacing the deceased Veteran's income. The 
Comptroller General has not yet delivered his report. We look forward 
to reviewing the findings and recommendations.
    Section 224 directs the Secretary of VA to enter into a contract 
with an independent third-party entity to conduct an assessment of 
VBA's quality assurance program and issue a report no later than 
October 2011. We have awarded a contract to the Institute for Defense 
Analysis (IDA) to undertake the assessment.
    Section 225 requires VA to develop skills certification examination 
criteria for VBA employees and managers responsible for processing 
compensation and pension claims. VBA's decision review officers (DROs) 
and coaches (Supervisory VSRs) have been designated to participate in 
testing; however, assistant service center managers and service center 
managers may also participate in the future. A contract has been 
awarded to the Human Resources Research Organization (HumRRO). A design 
team has been created for the supervisory test; however, assignment of 
the design team for the DRO test is pending.
    Section 226 tasks VA with conducting a study on the effectiveness 
of the current employee work credit system and management system within 
VBA, which is used to measure and manage the work production of 
employees who handle compensation and pension claims. The study is also 
to evaluate more effective means of improving performance. A contract 
was awarded to the Center for Naval Analyses in March 2009. CNA's 
analysis will address the performance accountability and work 
measurement systems, as well as work process improvements. VA is on-
track to provide its report to Congress by October 2009.
    Section 227 requires VA to conduct a review of the information 
technology (IT) in VBA concerning compensation and pension benefits, 
and to develop a comprehensive plan for the use of IT technology in 
processing claims for the purpose of reducing subjectivity, avoidable 
remands, and regional office variances in disability ratings for 
specific disabilities. A full report regarding our technology approach 
will be provided no later than April 1, 2010.
    Section 228 directs the VA Secretary to provide an assessment of 
various mechanisms to improve communication between VBA and VHA in 
providing medical advice to rating specialists. The assessment is also 
to include an evaluation of the need for more staff in VHA to support 
providing advice to rating specialists. A joint VBA/VHA review was 
timely provided to Congress in April 2009, in accordance with the 
statute. The report concluded that based on current processes and 
resources, VBA field stations have sufficient access to medical advice.
    Sections 331 through 334 addressed services provided to Veterans 
under the VA Vocational Rehabilitation and Employment (VR&E) program. 
Section 331 waived the 24 month limitation on programs of independent 
living services when necessary to ensure a substantial increase in 
severely ill or injured GWOT Veterans' level of independence in daily 
living. Section 332 of the bill increased the cap for new plans of 
independent living services from 2,500 to 2,600 cases. VA 
correspondingly revised policy and provided implementation guidance to 
field stations. Studies of the VR&E program include a report on 
measures to assist and encourage Veterans in completing vocational 
rehabilitation (Section 333) and a longitudinal Study of VR&E Programs 
of three cohorts of Veterans who begin receiving VR&E services during 
fiscal years 2010, 2012, and 2014 (Section 334). VA is working with the 
Office of Acquisitions and Logistics to contract for both studies. 
Proposals from interested vendors are due to VA this month.
Conclusion
    VBA has taken various steps to resolve the existing inventory, and 
has many pilot programs and studies ongoing to determine the way 
forward.
    Mr. Chairman, this concludes my testimony. I will be happy to 
respond to any questions that you or other Members of the Subcommittee 
have.

                                 <F-dash>
   Prepared Statement of Rear Admiral Gregory Timberlake, SHCE, USN,
              Acting Director, U.S. Department of Defense/
     U.S. Department of Veterans Affairs Interagency Program Office
                              INTRODUCTION
    Chairman Hall and distinguished Members of the Committee, thank you 
for the opportunity to discuss the role of the DoD/VA Interagency 
Program Office (IPO) in the ongoing data-sharing activities of the 
Department of Defense (DoD) and the Department of Veterans Affairs 
(VA). Collaboration between the two Departments on information 
technology issues has grown exponentially in recent years, enabling the 
Departments to explore ways in which they may benefit jointly from 
data-sharing innovations in the private sector, as well as helping to 
foster bold new government-driven information-sharing capabilities, 
like the development of a ``Virtual Lifetime Electronic Record'' (VLER) 
for servicemembers and veterans. Working on behalf of the DoD/VA Joint 
Executive Council, the IPO plays a key role in facilitating these 
efforts, and in providing oversight of various data-sharing initiatives 
between the Departments. In recent months, the IPO has been focused on 
two central areas: (1) facilitating the efforts of the two Departments 
to achieve full interoperability of their electronic health records by 
September of this year, as defined by the VA and DoD clinicians that 
rely on this data to treat patients, and (2) working with the 
Departments to develop an effective governance and management model for 
the VLER project. These two areas will be the focus of my testimony 
today.
                             IPO BACKGROUND
    In April 2008, DoD and VA formed the ``DoD/VA Interagency Program 
Office'' (IPO) in response to section 1635 of the National Defense 
Authorization Act for fiscal year 2008, which required the creation of 
an entity to serve as a single point of accountability for the rapid 
development and implementation of electronic health record (EHR) 
systems or capabilities between the Departments. Section 1635 further 
mandated that full interoperability of personal health care information 
between the DoD and VA be achieved by September 2009. Since its 
inception, the IPO has worked diligently to achieve this mandate, 
providing the Departments with reliable, effective management oversight 
of potential risks involving the identification, coordination, and 
review of information sharing requirements, and informing stakeholders 
about the impact these processes may have on DoD/VA information sharing 
progress.
    The responsibility for developing requirements and executing 
technical information technology solutions remains with the respective 
DoD and VA organizations, using the Departments' established statutory 
and regulatory processes for acquisition, funding, management control, 
information assurance, and other execution actions. The differences 
between the Departments in these areas can pose challenges to effective 
collaboration on joint DoD/VA information sharing projects. In order to 
overcome such challenges, the IPO has worked closely with the existing 
leadership of the Joint Executive Council to provide focused assistance 
and oversight to ensure the Departments achieve their goals. Our work 
includes facilitating discussions between DoD and VA functional 
business communities on areas such as supporting the definition of DoD/
VA data-sharing requirements, promoting effective synchronization of 
DoD/VA schedules for the technical execution of joint data-sharing 
initiatives, assisting in the coordination of funding considerations, 
and assisting in obtaining the input and concurrence of stakeholders.
                THE VIRTUAL LIFETIME ELECTRONIC RECORD: 
             THE VISION AND THE BROAD CONCEPTUAL CHALLENGES
    On April 9, 2009, the President, along with Secretary Gates and 
Secretary Shinseki, announced that DoD and VA have taken the first step 
in creating a joint Virtual Lifetime Electronic Record (VLER). Early in 
his remarks, President Obama pointed out the largest challenge that the 
two Departments face in their continuing efforts to modernize their 
electronic health and benefits records systems, declaring that ``there 
is no comprehensive system in place that allows for a streamlined 
transition of health care records between DoD and the VA.'' Creating 
such a capability would mark a departure from data-sharing efforts in 
the past, which have centered on developing an ever-proliferating array 
of information-sharing programs that allow one Department to access 
patient data that has been captured in the electronic health record 
system of the other Department. While this strategy has allowed DoD and 
VA to share unprecedented amounts of patient health care data, the 
adoption of new technologies can provide even more efficiencies in the 
collection, retrieval, and use of patient health care data across the 
Departments. Recognizing this, the President directed the two 
Departments to ``work together to define and build a seamless system of 
integration with a simple goal: When a member of the Armed Forces 
separates from the military, he or she will no longer have to walk 
paperwork from a DoD duty station to a local VA health center; their 
electronic records will transition along with them and remain with them 
forever.''
    In a press release that was issued shortly after the President's 
speech, the White House highlighted the importance of creating a 
comprehensive virtual lifetime electronic records capability between 
DoD and VA, and noted some of the advantages that would likely result 
from the establishment of a VLER: ``Access to electronic records is 
essential to modern health care delivery and the paperless 
administration of benefits. It provides a framework to ensure that all 
health care providers have all the information they need to deliver 
high-quality health care while reducing medical errors. The creation of 
this joint Virtual Lifetime Electronic Record by the two organizations 
would take the next leap to delivering seamless, high-quality care, and 
serve as a model for the Nation.''
    As the White House pointed out, the potential benefits of a VLER 
are indeed monumental, but so is the effort that is required in order 
to plan, create, and implement a VLER. The effort to create a VLER 
represents one of the largest single joint projects that any two 
Federal Departments have made in recent years, and there are a number 
of challenges that must be overcome to achieve the President's vision. 
To begin with, new IT conceptual frameworks must be invented to provide 
a health and benefits data-sharing architecture to which both 
Departments can build electronic records systems. Right now, 
discussions between the Departments are focused on leveraging a common 
services architecture framework to support modernized tools and 
technologies on both sides. In addition to the over-arching conceptual 
issues on the technical side, the Departments must reach consensus on 
an effective governance model for the VLER project. Each Department has 
unique processes for funding, management, and oversight processes for 
information technology projects. These processes must be brought into 
alignment in key areas in order for successful planning and development 
to occur on the VLER initiative.
            IPO EFFORTS TO ADDRESS FOUNDATIONAL TECHNICAL, 
                    GOVERNANCE, AND PLANNING ISSUES
    The IPO is an active participant in, and contributor to, 
interagency efforts to develop a strategy for VLER implementation. 
Following the policy guidance provided by the President and the 
Secretaries, the IPO established a VLER working group to provide a 
focused requirements and management effort to accelerate the adoption 
of a joint DoD/VA timeline for the VLER. This timeline, when complete, 
will provide a roadmap of major milestones to ensure an aggressive VLER 
implementation schedule with evolving benefits and successes. One of 
the first milestones on this timeline is to reach agreement on a 
precise definition of the scope of the VLER. There is already consensus 
among senior officials from both Departments on some of the categories 
of health and benefits data that must be accessible through the VLER. 
Discussions on other issues concerning the scope of the VLER are 
ongoing.
    In addition to discussions on the scope of VLER, the IPO also plays 
an active role in efforts to reach inter-Departmental consensus on 
broad technical requirements issues. Progress is being made on the 
Departments' efforts to agree to use a nationally recognized set of 
uniform and open standards for information exchange, such as those 
being implemented by the Department of Health and Human Services' 
National Health Information Network and the Justice Department's 
National Information Exchange Model. This approach could enable DoD and 
VA to create an architectural framework that is capable of 
interconnecting systems from both the private sector and the 
government. Ultimately, such an information-sharing architecture could 
serve as a model for national electronic records.
    Another major focus of the IPO is to establish an effective 
governance model for the VLER. Under current governance processes, the 
IPO receives guidance from the Secretaries of DoD and VA, as well as 
from the Joint Executive Council (JEC) [which is co-chaired by the 
Departments' Deputy Secretaries]. The IPO works collaboratively with 
the DoD/VA Health Executive Council (HEC) for health-related data 
sharing, and the DoD/VA Benefits Executive Council (BEC) for personnel 
and benefits data sharing. The JEC provides leadership oversight of the 
HEC, BEC, IPO, and other councils and work groups, as determined by the 
JEC co-chairs. When the IPO identifies issues that cannot be resolved 
at the HEC and BEC levels, we elevate those issues to the JEC for final 
resolution. These oversight and governing procedures ensure that 
information-sharing efforts move in the right direction and at a pace 
that meets or exceeds the expectations of our stakeholders.
    The existing governance structure has been adequate to enable the 
Departments to improve interoperability of their electronic health care 
records and to achieve unprecedented success in sharing electronic 
data. As DoD and VA plan the foundations of a robust and complex VLER, 
the Departments need to give additional consideration to determining 
how they will govern and implement the VLER. The IPO is working with 
the Departments to analyze the current processes through which issues 
are filtered up and managed through the HEC, BEC and JEC governing 
bodies. The goal is to ensure that critical decisions can be addressed 
quickly and effectively, at the lowest level of authority possible. 
Processes for issue-resolution in other areas of collaboration between 
the Departments may also need to be clarified or modified in order to 
ensure that VLER is implemented in the most expeditious manner 
possible.
                HEALTH DATA SHARING AND INTEROPERABILITY
    Efforts related to the planning and implementation of the Virtual 
Lifetime Electronic Record are not intended to replace our 
Congressionally-mandated objective of achieving full interoperability 
of existing electronic health records systems by September of this 
year. The VLER effort and the EHR interoperability effort do not 
conflict with one another. In fact, the Departments' efforts to meet 
Congress' interoperability goals have resulted in a body of work and 
`lessons learned' that will be heavily leveraged during efforts to 
achieve the VLER vision.
    The Departments began laying the foundation for interoperability in 
2001, when the first patient health information was transferred 
electronically from DoD to VA using the Federal Health Information 
Exchange (FHIE). Since that time, both Departments have continued to 
enhance the exchange to support bidirectional data sharing, and to 
expand the types of information that is shared, as well as the manner 
in which information is shared. By leveraging the prior accomplishments 
of the Departments, the IPO and the Departments have been successful in 
formulating a plan to achieve full interoperability that will meet the 
needs our treating clinicians by the September 2009 target date. As 
part of this plan, VA and DoD will continue to improve upon the 
successes of existing data exchange initiatives, like the FHIE and the 
Bidirectional Health Information Exchange (BHIE), and expand the type 
of data shared through the already interoperable Clinical Data 
Repository/Health Data Repository (CHDR interface). To add further 
capability, new pilot programs such as the BHIE Imaging Pilot were 
developed. This pilot is now deployed and operational at major military 
and VA medical centers across the country.
    The following examples provide greater detail of some of the 
successes of the Departments' ongoing data-sharing initiatives (figures 
are current as of April 29, 2009):

    <bullet>  The Federal Health Information Exchange (FHIE) data 
repository allows VA to access electronic health information from DoD 
on over 4.8 million separated servicemembers. The FHIE allows VA 
providers to access and view 71 million laboratory results, 11.7 
million radiology reports, 73.8 million pharmacy records, 78.8 million 
standard ambulatory records, 3.1 million consultation reports, and 2\1/
2\ million deployment health assessments for shared patients.
    <bullet>  The Bidirectional Health Information Exchange (BHIE) 
enables bidirectional real-time sharing of readable electronic health 
information between DoD and VA for shared patients. Since July 2007, 
BHIE data from all DoD and VA medical facilities are available to VA 
and DoD providers. As of February 2009, health data is available 
through BHIE for more than 3.3 million shared patients, including over 
117,980 Theater patients.
    <bullet>  BHIE also allows VA and DoD to share inpatient 
information, and provides VA with the ability to access to inpatient 
discharge summaries from DoD's inpatient documentation system. This 
capability is operational at some of DoD's largest inpatient 
facilities, representing approximately 55 percent of total DoD 
inpatient beds. DoD will increase the number of sites with electronic 
inpatient documentation system in FY 2009.
    <bullet>  In addition to sharing viewable text data, DoD and VA are 
sharing digital radiology images at key locations.
    <bullet>  Since 2006, DoD and VA have been sharing computable 
outpatient pharmacy and allergy data through the interface between the 
Clinical Data Repository (CDR) of AHLTA and VA's Health Data Repository 
(HDR) of HealtheVet VistA. This initiative, known as the Clinical 
Health Data Repository (CHDR), integrates outpatient pharmacy and 
medication allergy data for shared patients, and supports automatic 
check for drug-drug and drug-allergy interactions by using data from 
both Departments. In December 2007, all DoD facilities received the 
capability to initiate the exchange of this data on shared patients.

    While much progress has been made toward our current 
interoperability goals, some challenges still remain. The key 
challenges include the following:

    <bullet>  Developing, adopting, and maturing standards at the 
national level to ensure efficient operational use.
    <bullet>  Updating capabilities, systems, infrastructure, and 
technology consistent with emerging standards.
    <bullet>  Identifying and prioritizing information requirements for 
sequential upgrade to new technologies and common services, as defined 
by the business process owners and the functional community.

    In addition to this list of challenges, the Departments must 
continually work together to overcome difficulties created by different 
acquisition and funding cycles, different contracting processes, and 
differences in information assurance certification processes. The 
Departments and the IPO continue to engage in collaborative efforts to 
ensure that any impediment that may arise from these differences is 
resolved in an efficient manner. In spite of these challenges, the IPO 
and the two Departments are on track to achieve full interoperability 
for the provision of clinical care by September 30, 2009, as defined by 
the Interagency Clinical Informatics Board (ICIB).
                               CONCLUSION
    The IPO and the Departments are engaged in many efforts to ensure 
that full interoperability for the provision of clinical care is 
achieved by September of this year. We recognize that interoperability 
does not have a discrete end point, as technologies and standards 
continue to evolve. Our efforts in the future will continue to build 
upon our past successes, allowing the Departments' to maintain their 
standard of providing the highest quality care for our servicemembers, 
veterans and their beneficiaries.
    That future is beginning to come into focus as we make progress on 
joint efforts to plan the Virtual Lifetime Electronic Record. Creating 
and implementing the VLER will require an unprecedented amount of 
effort, coordination, and interagency cooperation. The IPO is committed 
to this work, and looks forward to continuing to facilitate the efforts 
of the Departments on the VLER. When operational, the VLER will provide 
our servicemembers, veterans, and service providers with the health and 
benefits data they need, when and where they need it, thereby 
ultimately improving the quality of both health care and benefits 
services.
    Thank you for the opportunity to address the Committee, and to 
provide you with an update on the important work that we are doing to 
advance electronic data-sharing between the DoD and VA. I look forward 
to keeping you apprised of our progress toward our shared goal of 
improving the quality of services for our servicemembers, veterans and 
their families.
                   MATERIAL SUBMITTED FOR THE RECORD
                                      Committee on Veterans Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 20, 2009

Ian de Planque
Assistant Director, Veterans Affairs and Rehabilitation Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. DePlanque:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs 
hearing on, ``Addressing the Backlog: Can VA Manage One Million 
Claims?'' held on June 18, 2009. I would greatly appreciate if you 
would provide answers to the enclosed follow-up hearing questions by 
Monday, August 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________
                                                    American Legion
                                                    Washington, DC.
                                                    August 17, 2009
Honorable John J. Hall, Chairman
Subcommittee on Disability and Memorial Affairs
Committee on Veterans' Affairs
U.S. House of Representatives
337 Cannon House Office Building
Washington, DC 20515

Dear Chairman Hall:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on June 18, 2009, entitled ``Addressing the 
Backlog: Can VA Manage One Million Claims.'' I respectfully submit the 
following response to your Post-Hearing Question:

    Question 1: Should veterans with claims pending adjudication 
temporarily be eligible for VA Health Care?

    Question 1(a): Should mental health counseling be offered to all 
veterans enduring the stress of the VA disability claims processing 
system?

    Response: The issue of providing health care to veterans with 
pending claims is of importance especially in the case of veterans who 
have been ``locked out'' of the VA health care system as a result of 
restrictions regarding the enrollment of Priority Group 8 veterans. As 
a result, service connection for conditions is one of the only means 
many veterans have to acquire health care for their conditions. The 
need is great in many such cases. An establishment of temporary 
eligibility for veterans would also be important to maintain focus on 
the large veterans' population regardless of era of service. Much 
attention is focused on Global War on Terror (GWOT) veterans now, as 
the current war naturally creates a point of focus. However, a much 
larger veterans' population exists from previous conflicts.
    Presently, veterans returning from Operation Enduring Freedom and 
Operation Iraq Freedom (OEF/OIF) are entitled to 5 years of free VA 
Health Care from their date of discharge. For various reasons, veterans 
do not always file for benefits during this period. These veterans 
could be locked out of health care while waiting for the lengthy claims 
process to end. Adding to the problem, recordkeeping for claims filed 
after a significantly long period of time from the date of discharge, 
often make these claims prone to delay in decisions.
    The American Legion does not have a specific position regarding the 
eligibility of veterans with pending claims for temporary health care 
coverage. The expansion of the eligible pool of veterans for health 
care would be a significant benefit to those with real economic 
challenges.
    Mental health access is currently offered free of charge to 
veterans at ``Vet Centers'' throughout the country. These centers are 
specifically designed to deal with mental disorders and stresses 
arising from issues such as combat and military sexual trauma (MST). 
However, as more veterans are diagnosed with Post Traumatic Stress 
Disorder and Traumatic Brain Injury, the additional assets to treat 
them will become critical. It is important to note that these centers, 
while hugely effective, are often strained to the limits of their 
resources. Additional assets would make more robust the capabilities to 
address this need. However, The American Legion would strongly caution 
that extreme care must be exercised to ensure that the primary purpose 
of these outreach locations, to care for veterans who have experienced 
life changing traumas in service, is not overshadowed by an attempt to 
care for the needs of veterans who experience the, also very real, 
stresses of a complex and frustrating disability benefits system.

    Question 2: In your testimony, and in the article on the Backlog 
that appeared in the American Legion Magazine, the organization 
observes that piecemeal solutions do not work and that the approach 
should be to fix the entire system, but the testimony primarily focuses 
on the same solutions-additional staff and more training. So what does 
the American Legion recommend as a fix for the entire system?

    Question 2(a): Do you think the provisions enacted by Congress in 
P. L. 110-389 were sufficient or is there other legislative changes the 
American Legion would like to see?

    Question 2(b): Congress is familiar with the standard VBA 
requirement of 3\1/2\ weighted actions per day. Do you know how this 
number would be affected if the VA Raters took the necessary time to 
properly develop claims and review the evidence? What would you suggest 
the VA do to better assess its production capabilities?

    Response: The referenced solutions of additional personnel and 
improved training are indeed helpful in reducing the numbers of claims. 
It is also correct that these measures alone are not sufficiently 
effective to fix the system and effect necessary changes. A more 
comprehensive answer is certainly needed. More personnel incorrectly 
processing claims will not remove claims from the system. Additional 
personnel take time to be properly trained. The sooner they can be put 
in place, trained, and retained, the more effective they will be to 
carry the VA through the tasks of the future. Additional targeted 
training for existing personnel with the goal of remedying specific 
errors and trouble spots is critical. Personal responsibility for 
quality not quantity, and ramifications for poor performance (again 
quality not quantity) should be the standard. Training should be 
relevant and targeted for maximum effect.
    Outside of training and additional responsible personnel, there are 
additional components to reform that The American Legion has testified 
to be in favor of. First and foremost, the system that counts work 
credit the same whether the work is performed correctly or improperly 
must be corrected. In such a system, there is no incentive apart from 
individual initiative, to produce quality work. To the contrary, the 
incentive is to move cases along regardless of quality of work. This 
leads to cases being remanded and reworked adding to the workload, but 
not reducing the number of claims.
    The American Legion has proposed a system in which work credit 
would be granted only when a claim has been finally adjudicated. In 
such a system, the incentive then becomes to ensure that every process 
has been executed to the best of VA's ability and that common 
procedural errors are avoided. Only then could VA receive credit. In 
the long run, this would reduce the backlog, as the need and 
eligibility for appeal and remand would be drastically reduced. If VA 
adopts this system, the focus would then become ``do the job right the 
first time,'' when such as attitude prevails; there is no need for a 
second time.
    Regardless, VA must develop, or be directed by legislation to 
develop, a system which does not provide credit for improperly executed 
work. Judge Kasold of the Court of Appeals for Veterans' Claims (CAVC) 
has testified many times that the CAVC has an over 70 percent rate of 
overturning VA decisions. The most prevalent reason is not following 
the VA's own rules and regulations. Procedural errors repeated are the 
worst kind of errors, as they are correctable and avoidable in a 
culture that makes it its mission to do so. Whatever system is in place 
must create some penalty for improper work. Whether this penalty is 
some sort of negative credit or indeed a lack of acceptable credit is 
immaterial. What is important is that VA must not be allowed to 
continue to take credit for claims they are simply moving from inbox to 
outbox and denying veterans their rights in the system.
    VA can also improve operations with attention to a reduction of 
unnecessary development. Legislation to reduce the development burden 
for proving the occurrence of events in combat zones is pending. This 
expansion of the special combat provisions already in existence would 
provide a needed streamlining of development for cases involving 
veterans with service in combat zones. The original provisions were 
created to reflect the unique problems of recordkeeping in a combat 
environment. Congress must act to ensure that the original intent of 
this combat provision is updated to reflect the modern battlefield and 
combat.
    The addition of employees is indeed a boon to VA productivity. But, 
more important would be measures that use more effectively the staff VA 
already has. VA recently had its work environment examined by Booz 
Allen Hamilton in an effort to increase effectiveness of productivity. 
VA subsequently initiated a claims processing pilot, which is currently 
ongoing, at the North Little Rock Regional Office to test Booze Allen's 
recommendations. If the pilot program proves effective, it must be 
replicated and supported. Furthermore, VA must ensure it is retaining 
the staff it takes the time to train. There is no substitute for 
experience in a system as complicated as the veterans' claims process. 
VA must ensure they are competitive to gain and maintain quality 
employees in whatever region they are located. This is easier for some 
Regional Offices; however those in some highly developed urban areas 
are simply not competitive with private sector employers. Some means 
must be developed to compensate quality employees commensurate with 
abilities to attract them from the private sector competition.
    Training too must see an overhaul. Accurate accounting must be made 
of the points of failure in the VA system. Immediate action must be 
taken to correct those points of failure. A common complaint among VA 
employees as uncovered in The American Legion's Quality Review visits 
to Regional Offices is redundant training that the employees do not 
find relevant to day to day problems and issues. Training must be 
accurate, current and targeted. Furthermore, VA would be only 
addressing part of the issue if they looked solely to training on 
technical aspects of the claims system. The ability to address how 
employees go about their workload planning should also be addressed.
    To that end, VA should further examine their means of triage in 
determining what is needed in a claim and how it should be processed. 
The ability to direct claims within a Regional Office to where they may 
be most effectively adjudicated would be critical to increased 
efficiency.
    This triage could also indentify claims more effectively which 
could be granted outright with minimal development. As The American 
Legion has noted repeatedly in testimony, VA will frequently order 
additional exams and development when the existing necessary material 
is already ``in hand,'' to grant and rate the claim. This additional 
work creates unnecessary delays and clogs the system with claims that 
could be expedited. For example, a veteran of the Vietnam War ``Boots 
on the Ground'' service meets the VA's policy for presumptive 
requirements for service connection for diabetes mellitus type II. If 
such a veteran submits, along with proof of ``on the ground service,'' 
current treatment records by their private physician for diabetes, 
there is sufficient information to grant service connection and rate 
the veteran's condition. However, often in cases such as this, VA will 
schedule an apparently unnecessary VA exam to determine the existence 
and extent of the diabetes, and add months to the process. However, if 
it is determined that an exam is needed to address diabetic 
complications, a claim for secondary service connection can easily be 
deferred, pending the exam, but VA can still rate the diabetes based on 
the sufficient private medical records and start paying the veteran. 
The ability to filter unnecessary development would contribute greatly 
to a reduction in the overall volume of claims in the system, and 
restore goodwill and trust in the veterans' community with regards to 
their benefit system.
    The enactment by Congress of the ``Veterans' Benefits Improvement 
Act of 2008'' (PL 110-389) has the potential to improve the system for 
veterans; it is still early in the process. Many of the programs 
involved exist only in pilot stages. Improvements in temporary ratings 
provide some relief to veterans as they struggle through the lengthy 
and complicated process. For those veterans who succumb to conditions 
before a final decision is made, their families are able to continue 
the claim under the new regulations which allows the substitution of a 
claimant in the event of a veteran's death.
    The fully developed claims pilot program does have the benefit of 
addressing matters such as the diabetes as in the mentioned case. While 
this program shows promise, it is still too early to tell the 
effectiveness of this measure. If this program is truly effective, full 
support of the program will indeed contribute to a reduction of the 
backlog by correcting similar errors. If additional problems develop 
during implementation, then these issues must be addressed until it is 
determined that the claims process is completely fixed.
    With regard to the issue of ``properly develop[ing] claims and 
review[ing] the evidence'' we have no hard numbers on how doing this 
would affect the current VA standard of 3\1/2\ weighted actions per 
day. However, a standard that only measures volume with no regard for 
quality work is not in our opinion a valid standard and therefore has 
no merit as a basis for measuring work output. Good business practices 
would question the validity of pointing out the number of mistakes made 
every day as a production goal. If there is to be no regard for 
accuracy of work, why concern yourself with quality at all? If numbers 
are all that counts, then an employee rubber-stamping the top sheet of 
paper could easily process dozens of cases every day. While being 
obviously facetious, this example is by no means our opinion of what VA 
is doing, the point is taken.
    VA must adopt a system of recordkeeping that accounts solely for 
work properly done. As stated, whether this system only counts end 
credit work for claims properly and finally adjudicated, or counts all 
work claimed, but imposes penalties and subtractions when work is found 
to be faulty, it still must be an honest accounting. This will require 
a period of adjustment. We are not unsympathetic to the necessity of 
looking at the numbers returned in a different light. It is quite 
possible that numbers would fall. However, a fair comparison of numbers 
would take into account the accuracy involved.
    Judge Kasold states that over 70 percent of claims sent to the 
Court of Appeals for Veterans' Claims are returned for having been 
improperly handled by VA and are therefore remanded for further 
development and adjudication. Therefore, of the 3\1/2\ weighted actions 
per day, only 1 of those actions is an accurate and properly 
adjudicated action. If VA's production dropped from 3\1/2\ weighted 
actions per day down to 2 weighted actions, but those 2 actions were 
properly done, it would actually be an increase in productivity. This 
new number would represent work that was done properly and that could 
be removed from the system. In the short term, it would appear as a 
loss in volume output, but as a long term solution, the overall backlog 
would decrease because VA would be doing their job properly and 
alleviating the need for lengthy appeals.

    Question 3: You reported in its review of recently adjudicated 
American Legion represented claims, the Quality Review Team found 
errors in 20-30 percent of the cases reviewed. If you could design the 
perfect system what could VA do to change its ``emphasis of quantity 
over quality of work'' that you talk about in your testimony?

    Response: The sample of work described previously was from one 
Regional Office, although those numbers are not atypical and are even 
worse in some places. As we have stressed throughout our testimony, VA 
places their emphasis on ``quantity over quality.'' The pervasive 
attitude is not to do a claim correctly, but to move it off of the 
employee's desk on to the next step. The way to change this attitude is 
eliminate credit for invalid work. Simply put, VA cannot continue to 
claim credit for work that it repeatedly does improperly. The manner of 
correction is relatively simple, though it would require a paradigm 
shift in understanding of how to count claims. VA must be denied the 
ability to point to ``work credit'' for improperly adjudicated claims. 
In a ``perfect'' system, VA would receive credit when a claim had been 
finally adjudicated. Only, when it has been shown that VA did their job 
right. If this represents too great a shift in the counting of credit, 
VA could continue to count work credit as they currently do; however 
they must also take penalties and reductions in their numbers when 
faulty work is identified.
    The time has come to end VA's ability to hide behind inaccurate 
numbers that don't reflect reality. Sloppy adjudication, repeated 
procedural errors and easily corrected fundamental problems in 
execution all clog the claim system. This needlessly frustrates the 
veterans of America, undermines their trust in the government they 
served. By creating a work credit system that holds VA accountable for 
its errors, we would begin to shift the attitude within VA that place a 
greater priority on moving numbers, to an overarching outlook of 
properly and accurately serving the veterans who come to them for their 
deserved benefits. The backlog faced is indeed monumental, and while 
seemingly insurmountable we must all work to slowly chip away at the 
monolithic obstacle. However, just because work is difficult does not 
mean it should be avoided. It is always better to do the hard ``right'' 
thing than the easy ``wrong'' thing.
    As always, The American Legion thanks you for the opportunity to 
provide response to these questions and to provide testimony on this 
matter. If there are any further questions to be answered, or if any 
further clarification is needed, we would be happy to answer those 
questions or provide that clarification.
    Thank you for your continued commitment to America's veterans and 
their families.

            Sincerely,

                                                      Ian DePlanque
   Assistant Director, National Veterans Affairs and Rehabilitation

                                 <F-dash>

                                      Committee on Veterans Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 20, 2009

Kerry Baker
Assistant National Legislative Director
Disabled American Veterans
807 Maine Ave., SW
Washington, DC 20024

Dear Mr. Baker:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs 
hearing on, ``Addressing the Backlog: Can VA Manage One Million 
Claims?'' held on June 18, 2009. I would greatly appreciate if you 
would provide answers to the enclosed follow-up hearing questions by 
Monday, August 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________
        Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
    Hearing on ``Addressing the Backlog: Can VA Manage One Million 
                               Claims?''
                             June 18, 2009

    Question 1: What is the feasibility of implementing the proposed 
centralized information system that DAV mentioned in its testimony?

    Response: It is very feasible. The technology to transition from 
the cumbersome paper process system to a digital system of records is 
available. A digital claims system is already in use by the Social 
Security Administration.
    Such a system should be secure, simultaneously accessible from 
every VA Regional Office, appropriately organize data, provide 
automated tools for more rapid review with a rating official making the 
appropriate disability rating determination, and searchable.

    Question 2: In its testimony, the DAV mentioned that the opt-out 
clause, which provides that evidence submitted after the appeal will be 
forwarded to the BVA unless the appellant elects to have it considered 
by the RO, would result in reduced appellant lengths and nearly 100,000 
reduced VA work hours by eliminating the requirement to issue most 
supplemental statements of the case.

    Question 2(a): How did you calculate the estimated 100,000 hour 
reduction?

    Response: The 100,000 work hour reduction, based on the elimination 
of Supplemental Statement of the Case (SSOC), was a conservative 
estimate of the number of SSOCs produced by VBA. Secondly, a standard 
of 1-hour of work per single issue SSOC was also used in this 
calculation. Although the VBA states it issued over 48,000 SSOCs in FY 
2008, the numbers of SSOCs is significantly larger as the VBA cannot 
track the actual number of SSOCs beyond five in Veterans Appeals 
Control And Location System (VACOLS) I have seen as many as 12 in some 
case files, well beyond their current limit of five. This is the same 
experience of many VSO's. Additionally, the 1 hour of work for a one 
issue SSOC is conservative as SSOCs more often have many more issues 
than the one. So, the estimate of saving 100,000 work hours can be 
found either by counting all SSOCs processed by VBA (an impossibility 
with VACOLS) and/or calculating the increased number of hours necessary 
to produce SSOCs with multiple issues as opposed to one.
    Additionally, the work hours to create SSOCs rise exponentially 
depending on the complexity of the claim in question. So, 1 hour of 
work per single issue SSOC equally 100,000 work hours saved is a 
conservative number indeed.

    Question 2(b): What would be the consequences, as far as time and 
cost, of a claim defaulting to the BVA when newly submitted evidence 
would have permitted an RO to make conclusive determination?

    Response: Regional Offices do have the ability to make a decision 
on a case when new evidence is submitted and this should continue as 
claim circumstances dictate. It has been our experience however that 
once the RO renders an adverse decision, they rarely reverse that 
decision.
    We are bringing in consultants to review and validate the current 
claims process as well as provide further detail on proposed revisions 
to include time and cost.

    Question 3: You recommend disbanding the AMC and returning remands 
to their respective jurisdictions. If your proposal is implemented, how 
would the current rating teams' performance be affected by the 
increased burden and would your system require additional teams?

    Response: It is true that there would be an initial surge in cases 
from the AMC to each of the 57 Regional Offices. However, savings in 
other areas would provide the room necessary to absorb this temporary 
increase. With changes to the work credit program also in place, 
performance would improve through this enhanced accountability, 
possibly resulting in greater ratings accuracy and reduced appeals.
    Given the continued poor performance of the AMC, what is the better 
choice? By the end of January 2009, they had approximately 22,600 
remands on station. The AMC completed nearly 11,700 appeals, out of 
which 9,811 were returned to the Board, 89 were withdrawn and only 
1,789 were granted. Of that 2,500 appeals were returned to the AMC a 
second time because of further errors in carrying out the Board's 
specific instructions. A 25 percent error rate makes a better argument 
for closure of the AMC.
                                 <F-dash>

                                      Committee on Veterans Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 20, 2009

Lieutenant General James Terry Scott
Chairman
Advisory Committee on Disability Compensation
810 Vermont Ave., NW
Washington, DC 20420

Dear Mr. Scott:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs 
hearing on, ``Addressing the Backlog: Can VA Manage One Million 
Claims?'' held on June 18, 2009. I would greatly appreciate if you 
would provide answers to the enclosed follow-up hearing questions by 
Monday, August 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman
                               __________
                                U.S. Department of Veterans Affairs
                      Advisory Committee on Disability Compensation
                                                    August 14, 2009

Honorable John J. Hall
Chairman
Subcommittee on Disability and Memorial Affairs
Committee on Veterans' Affairs
U.S. House of Representatives

Dear Chairman Hall:

    I am responding to your letter of July 20, 2009, requesting that I 
provide answers to follow-up questions from the hearings held on June 
18, 2009.

    First Question: At the hearing, you stated that VA needed to make 
changes by starting from a date forward and just make it work. Have you 
had that discussion with the VA Secretary and will that philosophy 
permeate any recommendations for implementation the Advisory Committee 
will make?

    Response to First Question: The context of the question was the 
expression of concern about VA's apparent reluctance to commence 
electronic only files for veterans. I have discussed the concept of 
electronic only files with the Undersecretary for Benefits and the 
Director of C&P, both of whom agree that commencing electronic only 
files from a date certain forward is a good idea. Their concept is that 
older files would be converted from paper to electronic only when and 
if the veteran concerned filed a claim. At that time, the file would be 
converted to electronic for processing the claim. That philosophy will 
be included in Committee recommendations.

    Second Question: Is there a process in place for a VA response to 
the Advisory Committee recommendations or to give feedback to the 
Advisory Committee in terms of what is or is not feasible for VA to 
implement? Is there a process in place by which VA leadership can 
submit questions to the Advisory Committee to get an opinion on its 
options?

    Response to Second Question: There is a process in place for a VA 
response to the Advisory Committee recommendations and to give feedback 
to the Advisory Committee in terms of what is or is not feasible for VA 
to implement. The Advisory Committee submits periodic reports to the 
Secretary. The Secretary responds to the reports in writing. Also, 
there is continuing dialog between the Committee and the Undersecretary 
for Benefits and the Director of C&P. This informal feedback includes 
discussion of feasibility of Committee recommendations. VA leadership 
may submit questions or issues for Committee opinion or recommendation 
via the same formal and informal channels.

    Third Question: What are the fundamental changes the Advisory 
Committee foresees for the Rating Schedule?

    Response to Third Question: A fundamental change the Advisory 
Committee foresees for the Rating Schedule is the establishment of a 
process and a schedule for timely review and update of the Schedule. In 
the first report to the Secretary, the Advisory Committee recommended a 
methodology and a priority for reviewing and updating the Schedule. The 
Advisory Committee has recommended that the Deputy Secretary be given 
the responsibility for insuring VBA and VHA coordination in the process 
since it depends on the continuing cooperative effort of both entities. 
Another fundamental change that the Advisory Committee will recommend 
is that the Rating Schedule be updated to reflect modern medical 
terminology, classification, diagnostic tools, and functional scales. 
The Advisory Committee expects to recommend further fundamental 
improvements in related processes such as training programs, 
information technology support systems, and medical exam protocols.
    Results of studies conducted by the Center for Naval Analysis for 
the VDBC and by Econ Systems indicate that the current compensation 
system for disabled veterans fairly reflects the average loss of 
earnings capacity (with some noted exceptions which will be addressed 
in future recommendations). Since the present system offers horizontal 
and vertical equity in most cases, there is no reason to throw out the 
entire existing system and attempt to replace it with a totally new 
one.

            Sincerely,

                                                  James Terry Scott
                                                           Chairman
                                 <F-dash>

                                      Committee on Veterans Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 20, 2009

Marilyn Park
Legislative Representative
American Federation of Government Employees
80 F Street, NW
Washington, DC 20001

Dear Ms. Park:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs 
hearing on, ``Addressing the Backlog: Can VA Manage One Million 
Claims?'' held on June 18, 2009. I would greatly appreciate if you 
would provide answers to the enclosed follow-up hearing questions by 
Monday, August 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman
                               __________
                  HOUSE COMMITTEE ON VETERANS' AFFAIRS
       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS
                         JUNE 18, 2009, HEARING
        ADDRESSING THE BACKLOG: CAN VA MANAGE 1 MILLION CLAIMS?
          AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO
                        POST-HEARING SUBMISSION

    Question 1: The implementation of an independent evaluation of VBA 
training should have already begun. Has the AFGE been involved in this 
process? Have you made the suggestions that are contained in your 
testimony to VBA managers and, if so, what was the response?

    Response: On July 27, 2009, AFGE was briefed by the Government 
Accountability Office regarding their survey of VBA employees for a 
report on the efficacy of VBA training. During that briefing AFGE was 
also solicited for input concerning the scope of the survey and for 
insights concerning VBA's current training structure. While GAO seemed 
receptive to AFGE's insights and concerns, the content of their survey 
was already determined and the briefing seemed for the most part to be 
in the interest of full disclosure. Nonetheless, AFGE is grateful that 
GAO is preparing an objective report concerning VBA's training process, 
and is fairly confident from our briefing that GAO has a good working 
understanding of that process.
    AFGE as an organization and our individual members have made 
numerous suggestions to VBA management over the years in hopes of 
improving the quality of training provided to claims processors. 
However, we have found that our most effective means for making such 
suggestions is through Congressional forums such as those we have 
recently been privileged to attend. Our experience is that when our 
suggestions are presented in hearings before this Subcommittee, VBA 
management is, at least superficially, receptive to them.
    Moreover, our recent experience suggests that there is a growing 
consensus among members of VBA's Compensation and Pension Service 
accepting the wisdom of our suggestion that all training be conducted 
by staff assigned to Compensation and Pension Service who are not 
influenced by the productivity concerns of Regional Office Directors 
(whose productivity requirements are set by the Office of Field 
Operations). However, since VBA's Office of Field Operations (OFO) is 
ultimately responsible for determining how and where employee and 
training resources are allocated throughout VBA, we have limited 
optimism regarding whether any of our suggestions will ever come to 
fruition. Our impression is that OFO remains rather myopic in their 
continuing refusal to properly allocate resources toward continuing 
training and employee development, and instead focuses on ways of 
making short term gains in reducing claims inventory, e.g. abrogating 
scheduled training so that employees can devote their time toward 
achieving short term productivity requirements.
    In conclusion, unless and until VBA as a whole reaches a consensus 
that the best way to serve veterans is to give them the correct 
decision the first time and that in order to do so employees must be 
properly trained and continuously educated, any optimism we have 
regarding VBA's serious consideration of our suggestions will be 
guarded at best.

    Question 2: In its statement, the AFGE noted concerns over employee 
morale, which can effect production and performance. What can VA do 
specifically to improve morale for individual employees at each 
regional office?

    Response: Morale varies widely among Regional Offices (RO) and the 
root causes of deficiencies in morale at individual Regional Offices 
may be as varied as the personnel who staff them. However, in general, 
VBA can improve the morale of its employees by simply treating them 
with respect.
    Treating employees with respect implies listening to their 
suggestions about how to improve service to veterans and acting on 
meritorious suggestions. VBA management must at some point accept that 
the real subject matter experts of the claims process are the people 
who do the work on a daily basis and solicit their input regarding how 
to make the process more efficient.
    Improving employee morale at VBA requires setting productivity 
standards based upon objective empirical evidence about what people can 
reasonably be expected to accomplish with an acceptable degree of 
accuracy, as opposed to arbitrarily setting productivity standards 
based on the size of a pending inventory and the number of available 
employees. Adequately staffing ROs and effectively training staff will 
improve employee morale.
    Morale also can be improved by recognizing when employees are 
diligently working to maintain a level of quality that provides the 
service veterans deserve instead of issuing reprimands for failing to 
meet productivity objectives that are unachievable with any acceptable 
level of accuracy. Recognizing and rewarding employees for the quality 
of their work and not merely because of the number of cases they 
complete, correctly or incorrectly, will invest them with justified 
pride in the work they do. Investing every VBA employee with a stake in 
the proper outcome of a claim decision as opposed to merely crediting 
them for completing a step toward an eventual decision, be it right or 
wrong, will improve their morale.
    Acting in real partnership with AFGE representatives to alleviate 
tensions in the workplace and anxieties induced by necessary changes 
will help VBA employees better adjust to the flux of the claims 
process. Abiding by promises made to employees when they are hired 
concerning their salary, career ladder progression, and the training 
they will receive to successfully serve veterans and navigate their 
chosen career path will infuse them with good will toward their 
managers.
    Ultimately VBA management must accept that AFGE members, most of 
whom have no aspirations beyond performing well in their current 
positions and doing their duty to serve veterans, have a dignity and 
work ethic that is unsurpassed in the Federal workforce. Our members 
are dedicated to helping veterans. That dedication deserves respect, 
aid, and recognition from those who ``manage'' our workflow. Veterans 
recognize our dedication every day by writing letters of thanks 
directed toward the efforts of individual claims processors, and those 
letters do much to boost our morale. However, the gratitude that 
veterans regularly express for our efforts should be supplemented by 
effective aid from VBA management directed toward helping us better 
serve our constituency.
    In closing, morale of AFGE members at VBA is dependant on how well 
we address the needs of veterans. VBA management must accept that our 
interest is in getting things right the first time, since that is how 
we believe we best serve veterans. VBA management must provide us with 
the time, training, and recognition necessary to do so.
                                 <F-dash>

                                      Committee on Veterans Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 20, 2009

Michael Walcoff
Deputy Under Secretary for Benefits
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Mr. Walcoff:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs 
hearing on, ``Addressing the Backlog: Can VA Manage One Million 
Claims?'' held on June 18, 2009. I would greatly appreciate if you 
would provide answers to the enclosed follow-up hearing questions by 
Monday, August 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________
                        Questions for the Record
                      Hon. John J. Hall, Chairman
           Subcommittee on Disabilities and Memorial Affairs
                  House Committee on Veterans' Affairs
                             June 18, 2009
       Addressing the Backlog: Can VA Manage One Million Claims?

    Question 1: At the hearing, VA was asked how many Vietnam Veterans 
are there in the inventory, how many are PTSD related, and how many 
Veterans committed suicide while awaiting an adjudicative decision. 
Were you able to ascertain these figures?

    Response: As of June 30, 2009, there were 163,440 original or 
reopened claims for compensation or pension from Vietnam-era Veterans 
in the Department of Veterans Affairs' (VA) inventory. Of those, 32,485 
included a claim for Post-traumatic stress disorder (PTSD). With regard 
to identifying how many Veterans committed suicide while awaiting an 
adjudicative decision, VA does not have sufficient data to develop a 
reliable figure at this time. We are continuing to research this issue 
and intend to provide you the results of our analysis within the next 
60 days.

    Question 2(a): Is there a VBA strategic plan? Is the Paperless 
Delivery of Veterans Benefits Initiative incorporated into an overall 
VBA strategic plan?

    Response: The Veterans Benefits Administration (VBA) is in the 
process of developing a strategic plan, and it will incorporate the 
paperless delivery of Veterans benefits initiative. The strategic plan 
will aligned objectives and action plans to improve VBA infrastructure 
and information technology to enable employees to provide timely and 
accurate service. Objectives will include migrating from a paper-
intensive claims process to an integrated claims process supported with 
electronic data and services, as well as improving ease of use, 
consistency, and reliability of VBA business applications through 
integration and standardization of common services.

    Question 2(b): Is this paperless initiative being aligned with 
efforts to revise the Rating Schedule and the work being done on the 
electronic exam templates?

    Response: One of the strategic goals of the paperless initiative is 
to transform key aspects of the claims adjudication business process by 
expediting the implementation of regulatory and policy changes. As 
revisions in the rating schedule continue to occur, VBA will make it 
easier for end users to access electronic, online policy and procedural 
changes. End users are encouraged to use electronic reference materials 
and other electronic resources (such as electronic exam templates), and 
VBA is currently engaged in a pilot program to determine best practices 
for reliance on such material during the claims adjudication process.

    Question 2(c): Is the lead systems integrator that is being 
developed by EDS and the MITRE Corporation VETSNET project being 
included in the Joint Virtual Lifetime Electronic Record initiative? 
Will the architecture system being designed by EDS be compatible with 
the nationally recognized set of uniform and open standards for 
information exchange as is used by HHS?

    Response: We interpret this question to be in regard to the 
paperless initiative, not VETSNET. The joint virtual lifetime 
electronic record (VLER) program is an Office of Policy and Planning 
led initiative within VA with the Veterans Health Administration (VHA) 
Office of Health Information (OHI)--in partnership with the Department 
of Defense (DoD). The current paperless initiative requirements do not 
yet reflect how the program will integrate with VLER but this will be 
addressed by VA's Office of Enterprise Development as technical 
solutions are developed. VLER intends to use open architecture and 
standards-based methodologies.
    The lead systems integrated contractor (LSIC) for the paperless 
initiative is charged with designing an enterprise solution using VA-
approved enterprise architecture standards. The LSIC (EDS) was issued a 
stop work order on July 27, 2009, and alternate courses of action for 
this area of the initiative are being evaluated by senior leadership. 
The architecture system being designed for paperless will be compatible 
with the nationally recognized set of uniform and open standards for 
information exchange.

    Question 2(d): How will the Lean Six Sigma Pilot fit into the new 
office of strategic planning VBA recently created?

    Response: Booz Allen Hamilton conducted a review of VBA's 
compensation rating claims development process and provided 
recommendations in a June 2009 report. The overall process 
recommendation was to apply Lean Six Sigma production practices to 
claims processing. In July 2009, VBA launched a pilot at the Little 
Rock Regional Office (RO) applying Lean Six Sigma principles to 
streamline claims processing. If the pilot is successful, Lean Six 
Sigma principles will be applied nationwide and incorporated in VBA's 
strategic plan.

    Question 3: How are non-rating functions captured for employee work 
credits and how are they weighted? Does a different team handle the 
non-rating workload or is everyone expected to devote a certain amount 
of time to these tasks?

    Response: Currently, VBA's ROs are organized according to the 
claims processing improvement (CPI) model. This model separates work 
into six teams: triage, pre determination, rating, post determination, 
appeals and public contact. Nearly all non-rating work is completed by 
the post-determination team. Work is tracked in the automated 
standardized performance elements nationwide (ASPEN) system. VBA has a 
national performance standard with weighted actions for all Veterans 
service representatives. More complex actions carry greater weight and 
each employee is expected to complete a minimum amount of weighted 
actions (on average) per day, based on their pay grade.

    Question 4: At the hearing, the Subcommittee requested a copy of 
the Booz Allen Hamilton study. Can you please provide the Subcommittee 
with a copy?

    Response: See attached report. [The report will be retained in the 
Committee files.]

    Question 5: If VBA is adding 80,000 new claims each month to its 
inventory, how many decisions are you making each month? What 
percentage of those are awards and what percentage are denials?

    Response: VBA is completing an average of nearly 80,000 claims per 
month during fiscal year (FY) 2009, a 10.3-percent increase from FY 
2008. VBA is receiving an average of more than 82,000 claims per month 
in FY 2009. Through June 2009, VBA has received 744,000 claims, a 14\1/
2\-percent increase over receipts through June 2008. This means that 
VBA is receiving approximately 2,000 more claims per month than are 
completed.
    During FY 2008, VBA completed 899,863 claims, which required rating 
decisions on more than 2 million individually claimed issues. Forty-
five percent of issues claimed (935,976) were granted from 0-100 
percent. During FY 2007, VBA completed 824,444 rating-related claims. 
Completion of these claims included rating decisions on nearly more 
than 1\1/2\ million issues, of which 48.4 percent (757,470) resulted in 
a grant of benefits from 0-100 percent.

    Question 6: What steps are you taking to ensure that you will meet 
its 125-day target goal by the end of the next fiscal year? What 
remedial actions will you take for those regional offices who do not 
meet this target?

    Response: VBA's current strategic target for average days to 
complete (ADC) is 125 days. VBA determined this target by adding the 
individual phases (or cycles) each claim travels through before 
completion, including the time spent awaiting evidence from the 
claimant or a third party. In addition, VBA considered the increasing 
complexity of claims received and changes in applicable laws and 
regulations, including the implementation of the Veterans Claims 
Assistance Act, enacted in FY 2000.
    Through June 2009, the ADC this fiscal year is 161.3 days, which is 
the lowest since October 2004. VBA has seen a steady decline in ADC 
since a high of 182.6 days in March 2008. This steady improvement is 
attributed to the nearly 3,500 new claims processing employees hired 
since January 2007. Since it takes at least 2 years for a new employee 
to become fully trained in all aspects of claims processing, VBA is 
only now beginning to see the impact of employees hired in 2007 as they 
become fully trained and experienced employees. Due to the significant 
number of employees hired since 2007, VBA expects to see continued 
improvements as these employees continue to gain experience.
    VBA has also increased the use of overtime for claims processing 
and allowed experienced retired employees to return to work as claims 
processors. VBA has consolidated aspects of the workload (original 
pension claims, survivor benefit claims and general inquiry phone 
calls) to increase expertise in the specific areas, and refocus efforts 
at regional offices on the remaining benefits. VBA has also employed a 
``brokering'' strategy, which balances out the workload by sending 
cases from those stations with high inventories to stations with 
additional processing capacity.
    Each fiscal year, VBA establishes ADC targets specific to each 
office. Targets are set to maintain high performance at ROs already 
meeting the strategic target and to incrementally improve timeliness at 
the other ROs. At the end of the year, RO performance is evaluated 
against the established station target. At the end of June 2009, 12 
stations, or 21 percent were meeting the strategic target, and 30 
stations were meeting its end of year station-specific target.

    Question 7: Failure to consider inferred claims is an issue often 
raised--including by Compensation and Pension examiners. What has been 
done to allow examiners to be able to document a condition found during 
an exam that was not included on the initial request?

    Response: A general medical examination containing a full report of 
complaints and functional impairments is the preferred type of 
examination in cases concerning original compensation claims received 
within 1 year of discharge. The general medical exam is a comprehensive 
base line or screening examination for all body systems, as well as a 
basic evaluation of all disabilities listed on the examination request 
form. The exam should identify all disabilities whether documented on 
the exam request or not. It is often the initial post-discharge 
examination of a Veteran requested by the compensation and pension 
service for disability compensation purposes. For claims filed after 
the first year following discharge, a specialty examination is 
scheduled to evaluate the specific issue claimed. Therefore, unclaimed 
issues are not routinely assessed during specialty exams unless they 
are direct complications to the claimed condition. As a screening 
examination, it is not meant to elicit the detailed information about 
specific conditions that is necessary for rating purposes. Therefore, 
all claimed conditions, and any found or suspected conditions that were 
not claimed, should be addressed by referring to and following all 
appropriate worksheets.
    The examiner may request any additional studies or examinations 
needed for proper diagnosis and evaluation. All important negatives 
should be reported. If an unclaimed condition is found on an exam, the 
issue can be rated or at a minimum a claim for disability is solicited 
from the Veteran, depending on the examiner's findings.

    Question 8: As discussed at the hearing, can you provide the 
Committee with additional information on the claims processing 
laboratory being established at the Providence, RI Regional Office?

    Response: The business transformation laboratory will allow VBA to 
test new business processes and claims processing hypotheses to enable 
seamless paperless processing of Veterans claims. Currently available 
technology will be used in some circumstances to simulate the planned 
technology environment. The goal of this activity is to provide a 
``lab'' environment where business processes can be developed and 
optimized prior to national implementation. The effort will allow us to 
implement work processes, some using current technology, to understand 
impacts on employees, service delivery partners, and performance 
metrics. The effort will be implemented with close oversight in order 
to document best practices and lessons learned. A current effort is 
underway to evaluate the impact on employees of using only electronic 
reference materials to process claims. Over the coming months, a 
variety of work processes will be evaluated, to include enhanced claims 
triage methodologies and end-to-end workflows.

    Question 9: Does VBA currently have the capacity to begin scanning 
new claims entering the system? Can scanning be key word classified?

    Response: At the present, the Office of Information and Technology 
(OIT) has asked that we not add any new imaging activities to the 
current virtual VA paperless claims processing environment. OIT has 
implemented a stabilization plan for virtual VA to reduce the 
performance issues with the application. In parallel, OIT and VBA 
determining the best near-term course of action with respect to not 
only the imaging of documents, but ensuring these images can be used to 
support the claims process.
    Documents are scanned as images into virtual VA in either a 
portable document format or a tagged image file format. Although 
currently not employed, the technology exist which can provide 
automatic classification through a form-based or character-based 
recognition engine. VBA has contracted for manual indexing or 
``classification'' based on document type. These requirements will be 
re-examined as new capabilities are strategically introduced through 
the paperless delivery of Veterans benefits initiative.

    Question 10: What is your employee rate of attrition?

    Response: The FY 2008 VA employee attrition rate was approximately 
9 percent. Attrition rates vary by geographical area, position type, 
and years of experience. Historically, VBA attrition rates in the 
claims processor job classifications have averaged 10 percent.

    Question 11: What is the status of the VA's efforts to develop a 
skills certification exam for managers? Who is involved in design of 
the test and who will be required to take the exam and who will not be 
required to take the exam, and why?

    Response: In January 2009, VBA let a contract to HumRRO to develop, 
test, and deploy a certification exam for managers. HumRRO has provided 
support and development for multiple other VBA certification exams. VBA 
also established a manager skills certification design team comprised 
of employees from ROs, VBA human resource centers, and central office. 
The first certification item writing session was held July 28-29. The 
remaining two item writing sessions are scheduled for August 2009.
    The initial pilot test for the certification exam is on schedule 
for November 5, 2009. Only first line supervisors who have at least 1 
year of experience as a manager will be required to take the exam. 
Individuals with less than 1 year of experience in supervision are not 
required to take the exam since they do not have the necessary human 
resource/labor relations training, which is approximately 20 percent of 
the exam. After successful deployment of the first line supervisor 
certification exam, other managerial certification will be examined.

    Question 12: What mechanisms are currently in place to ensure that 
RO managers comply with new employee and current employee training 
requirements in terms of number of hours set aside for training? What 
steps are taken to ensure sufficient qualifications of trainers?

    Response: Newly hired VBA employees attend centralized training at 
the VBA Academy for 2\1/2\ weeks of classroom instruction and practical 
exercise. Centralized training is preceded by a clearly defined 
curriculum implemented under supervision at the students' home station 
and followed by continued training and practical exercise upon return 
to the home station.
    Instructors selected to train new employees at centralized training 
are required to have completed VBA's instructor development course 
(IDC). The purpose of the IDC is to provide VBA trainers with the 
knowledge and skills to conduct training effectively. The course is 
4\1/2\ days long and covers topics such as training methods, 
understanding your adult learner, training media, and managing learner 
interactions. Additionally, VBA conducts a basic instructor course 
(BIC) aimed at training experienced employees tasked with providing 
continuing training to journey level employees locally.
    The designated training manager (TM) at each RO plays a key role in 
the development and maintenance of the RO's training plans. 
Responsibilities of the TM include training program administration, 
oversight, evaluation, quality assurance, and technical support. The TM 
also provides the current training status for all employees to 
management and is the point of contact for all local, area, and/or 
nationwide training initiatives.
    To track training, VA uses the learning management system (LMS). 
LMS offers many benefits to VA, including Web-based learning content 
and the automatic recording of learning progress from that content. RO 
directors are responsible for establishing training plans at the 
beginning of each fiscal year and for ensuring that current employees 
complete the designated number of core technical training requirement 
(CTTR) hours. For most employees, an annual 80-hour training 
requirement exists. Three-fourths of these training hours are dedicated 
to required technical training. CTTR hours are entered into LMS. RO 
director performance standards include employee development and 
training as a critical element of successful performance.
    Mandatory training for employees is automatically uploaded into 
individual learning plans and a completion date is provided. To assist 
employees, LMS generates automatic email message reminders of mandatory 
training as well as any past due training. In addition, LMS sends an 
email message to supervisors when training is past due.

    Question 13: What is the status of the VBA time and motion study 
that was discussed at a previous hearing and referenced in the AFGE 
testimony?

    Response: Public Law 110-389, the Veterans' Benefits Improvement 
Act of 2008, was passed on October 10, 2008. The law mandated a study 
of VBA's work credit and work management systems under section 226. VBA 
contracted with the Center for Naval Analyses to perform this study, 
which will be delivered to VBA on September 30. VBA will analyze the 
study and results to determine appropriate action needed, including 
assessing the need for another time-and-motion study. The final report 
will be provided to Congress no later than October 31, 2009.

                                 <F-dash>

                                      Committee on Veterans Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      July 20, 2009

Rear Admiral Gregory Timberlake, SHCE, USN
Director
DoD/VA Interagency Program Office
U.S. Department of Defense
1400 Defense Pentagon
Washington, DC 20301

Dear Mr. Timberlake:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs 
hearing on, ``Addressing the Backlog: Can VA Manage One Million 
Claims?'' held on June 18, 2009. I would greatly appreciate if you 
would provide answers to the enclosed follow-up hearing questions by 
Monday, August 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman
                               __________
        Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
    Hearing on ``Addressing the Backlog: Can VA Manage One Million 
                               Claims?''
                             June 18, 2009

    Question 1: For several years, VA and DoD at their Joint Executive 
Council have been strategizing Seamless Transition with a key component 
being a shared electronic record. The best it seems that they have been 
able to come up with thus far is to create patches between VistA and 
AHLTA. What is the vision for making a Virtual Lifetime Electronic 
Record actually happen?

    a.  Will it require both Departments to use the same information 
technology architecture system or will two separate systems be able to 
completely function jointly?
    b.  Can you provide more of an explanation of definition of data 
sharing requirements and effective synchronization of schedules?

    Answer: The Vision:

          ``Both Departments will work together to define and build a 
        system that will ultimately contain administrative and medical 
        information from the day an individual enters military service 
        throughout their military career, and after they leave the 
        military.''

        --President Barrack Obama, April 9, 2009

    In June 2009, the Deputy Secretaries of Defense and Veterans 
Affairs approved a strategic concept for VLER, and asked the two 
Departments to define high level requirements, develop a synchronized 
budget proposal, identify short-term projects, and revise the IPO's 
Charter. The Departments and the IPO are currently working through 
those four areas and will seek further guidance from the Deputy 
Secretaries and the VA/DoD Joint Executive Council.
a. The Architecture:
    The focus is sharing data using the Nationwide Health Information 
Network (NHIN). Progress is being made with the Departments of Defense, 
Veterans Affairs, and Health and Human Services to agree to use a 
nationally recognized set of uniform and open standards for information 
exchange, such as those being implemented by the Department of Health 
and Human Services' Nationwide Health Information Network. This 
approach will enable DoD and VA to create an architectural framework 
that is capable of sharing electronic health data with both the private 
sector and other governmental agencies.
b. Data Sharing Requirements and Synchronization of Schedules:
    The first increment of this effort is described as the use of the 
NHIN to begin sharing electronic health information in a limited number 
of sites. The Departments are in the initial stages of developing the 
specific data-sharing requirements and synchronizing their schedules 
for VLER. The first increment of VLER will be characterized by creating 
production pilots with incremental extension of available content using 
the NHIN approved documents and standards. To support this effort, VLER 
will be developed through multiple overlapping sub-phases (or segments) 
in order to establish the baseline capabilities that are required to 
realize the long-term VLER mission. Each segment will have overlapping 
initiatives and will be defined with completion dates approximately 
every 6 months. By decomposing in this manner, each initiative will be 
able to capitalize on the evolving capabilities and lessons learned 
from other initiatives. Although this approach should enable the 
Departments to develop the final VLER state in manageable segments with 
ongoing successes, close oversight and coordination of all the 
initiatives must occur to ensure these objectives are met.

    Question 2: Can you give me a clear mission statement for the IPO 
along with the goals and objectives that you intend to meet and how the 
Departments will manage the challenges you enumerated and the timeframe 
for meeting those goals?

    Answer: To date, the IPO's primary role in interagency data sharing 
is performing oversight and management of DoD/VA plans and activities 
associated with attaining interoperability of electronic data. It is 
important to understand the Departments are still responsible to 
develop their own requirements and implement the IT solutions 
throughout the Military Health System and the Veterans Health 
Administration. The IPO does not build IT products; we help coordinate 
and oversee the IT products needed to improve the provision of clinical 
care are accomplished according to the schedule and specifications 
agreed to by the Departments and accepted by our senior leaders.
    To do this, IPO staff work with both Departments on joint 
activities like ensuring schedules and funding considerations are 
coordinated, assisting in obtaining input and concurrence of 
stakeholders, communicating data sharing gaps in capabilities for 
future planning, reporting progress, and raising items not being 
resolved within the Departments to the Deputy Secretaries and the Joint 
Executive Council.
    Our mission was expanded twice, first to include oversight and 
management of personnel and benefits data sharing activities, and most 
recently to work with the Departments to develop an effective 
governance and management model for the Virtual Lifetime Electronic 
Record (VLER).
    The main challenges to accomplishing these goals are as follows:

    <bullet>  Developing, adopting, and maturing standards to ensure 
efficient operational use.
    <bullet>  Updating capabilities, systems, infrastructure, and 
technology consistent with emerging standards.
    <bullet>  Identifying and prioritizing information requirements for 
sequential upgrades to new technologies and common services, as defined 
by the business process owners and the functional community.

    Work has already begun on the development and adoption of national 
standards and collaboration with the Department of Health and Human 
Services and the Departments is a critical component of success, and 
this work will continue.
    DoD and VA are currently funding short-term solutions and 
improvements to their respective electronic health record systems. 
Electronic health record interoperability at the present time is 
accomplished by ensuring the access to data using mechanisms such as 
the Bidirectional Health Information Exchange (BHIE).
    The data are shared bidirectionally, in real time, for patients who 
receive care from both VA and DoD facilities and are viewable at all 
DoD and VA medical facilities. BHIE permits DoD providers to view BHIE 
data from all VA medical facilities and VA to view BHIE data from all 
DoD facilities. The Departments will continue to use and upgrade their 
current EHRs to provide and document clinical care while the way 
forward for sharing through the NHIN is being implemented. The 
evolution to the VLER will be incremental.

    Question 3: In reality DoD in and of itself is not a single system. 
Each branch of the service has its own electronic record and data 
management systems. This is also true for the VBA, which has just 
contracted for an integrator to align all of its systems. Will each 
branch be required to standardize its systems so that sharing with VA 
can take place at a greater and more effective rate?

    Answer: DoD uses AHLTA and VA uses VistA for documentation of 
health care delivery. The Services do not have their own electronic 
health record systems although they do have some Service specific 
systems. Using the VLER/National Health Information Network (NHIN) 
model, data in existing systems may need to be translated into the 
standard approved by the NHIN for sharing those specific data elements 
using the NHIN approved document types.

    Question 4: How has the Interagency Program Office involved the 
Veterans Benefit Administration in its mission development and how will 
the IPO be involved in informing the VA/DoD single exam process?

    Answer: The IPO has not been involved in this process. The concept 
of a single cooperative examination process has been in existence since 
1994 when the Army agreed to participate in a test with VA to determine 
if one separation physical examination could satisfy the needs of both 
VA and the Army. VA and DoD signed national single examination 
memoranda of agreements in 1998 and 2004. The agreements encouraged 
local memoranda of understandings (MOU) and since that time, almost 100 
MOUs have been signed between VA and military services that cover 133 
installations through the Benefits Delivery at Discharge program.

    Question 5: At the hearing, the Subcommittee asked about the 
millions of pieces of lost and unassociated medical documents that DoD 
eventually sends to VA, but because this is not done in a timely 
fashion, 13 percent or 40,000 veterans were wrongly denied benefits. 
Will the IPO be evaluating plans to address these unassociated files 
and how they might be scanned and added to electronic records?

    Answer: Under the auspice of the Joint Executive Council and the 
Benefits Executive Council, the Medical Records Working Group (MRWG) 
has been working this issue. The working group consists of 
representatives from VA and DoD (including representatives from each 
military Service). Most recently a Memorandum of Agreement (MOA) was 
drafted and is out to the Services for final coordination and a Service 
Treatment Record (STR) Scanning Solution Focus Group (SSFG) has been 
formed to address this issue. The MOA addresses handling and processes 
associated with making electronic and paper Medical and Dental Service 
Treatment Records (STRs) available to the VA. The STR SSFG will 
determine the best methods to scan paper records and index in a way to 
create a single comprehensive STR that can be made accessible to the 
VA.
    The IPO does not currently conduct management oversight of these 
working groups or their plans. section 1635 of the NDAA FY 2008 
requires the IPO to provide oversight of the implementation of 
electronic health record systems or capabilities that allow for full 
interoperability of personal health care information between DoD and 
VA. Document scanning is not an electronic health record system, but a 
method of information input, and therefore does not fall under the 
purview of the IPO.

                                 <all>

</pre></body></html>
